<html>
<title> - Department of Defense Appropriations for Fiscal Year 2015</title>
<body><pre>[Senate Hearing 113-]
[From the U.S. Government Publishing Office]



 
       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2015

                              ----------                              


                       WEDNESDAY, MARCH 26, 2014

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10 a.m., in room SD-106, Dirksen 
Senate Office Building, Hon. Richard J. Durbin (chairman) 
presiding.
    Present: Senators Durbin, Mikulski, Cochran, Shelby, 
Collins, Graham, and Coats.

                         DEPARTMENT OF DEFENSE

                         Department of the Navy

                        Office of the Secretary

STATEMENT OF THE HON. RAY MABUS, SECRETARY OF THE NAVY


             opening statement of senator richard j. durbin


    Senator Durbin. Good morning. The subcommittee meets this 
morning to receive testimony on the fiscal year 2015 budget 
request for the United States Navy and Marine Corps.
    Pleased to welcome the Secretary of the Navy, the Honorable 
Ray Mabus; the Chief of Naval Operations (CNO), Admiral 
Jonathan Greenert; the Commander of the Marine Corps, General 
James Amos; the Chief of the Navy Reserve, Vice Admiral Robin 
Braun; and the Chief of the Marine Corps Reserve, Lieutenant 
General Richard Mills.
    Gentlemen, thank you for being with us today and providing 
your testimony. At the outset, I would like to speak, I am sure 
on behalf of the entire committee, and express our condolences 
to the entire Navy family for the death of a young sailor late 
Monday night at Naval Station Norfolk, responding to a security 
breach on a guided missile destroyer, the USS Mahan. During the 
struggle, the intruder wrestled a gun away from another guard 
and shot the sailor. Our condolences go out to his family.
    An investigation is underway. And we look forward to 
learning more about the incident as soon as possible.
    For fiscal year 2015, the President's budget requests $148 
billion in base funding for the Department of the Navy. 
However, the request does not include the Overseas Contingency 
Operation request, which is a big concern.
    Until we receive the President's request for plans in 
Afghanistan after 2014, it is virtually impossible to 
understand what is required to support sailors and marines 
serving in war zones.
    The Navy is making significant changes to future programs, 
such as requesting reduction to the number of cruisers, not 
funding the overhaul of George Washington, and making 
significant reductions in aircraft ammunitions. This causes 
serious concern about the Navy and Marine Corps' ability to 
execute the shift to the Pacific, along with other 
responsibilities.
    In addition, we are concerned as we look across the next 5 
years of budgets, as the Department of Defense added $115 
billion over the BCA (Budget Control Act) caps written in law. 
What happens if these funds don't materialize?
    Similarly, if funding for education, healthcare, and other 
domestic programs remain at sequester levels, will the Navy and 
Marine Corps have more challenges in finding well-educated, 
fit, capable young men and women to recruit?
    Throughout this conversation, we cannot waver in protecting 
our most precious asset, our people, whether it is one of the 
38,000 new sailors in boot camp at Naval Station Great Lakes in 
Illinois, which we are very proud of, or a Marine unit rotating 
through Darwin, Australia.
    Our men and women in uniform are the finest, most skilled 
fighting forces in the world, and we can't allow budget 
pressures to squander those skills.
    As the department's senior leadership, this committee needs 
your guidance on a number of crucial personnel questions. How 
can the Navy and Marine Corps recruit and retain the best 
talent to deal with the challenges of the 21st century? What 
more can be done to address suicide and PTSD (post-traumatic 
stress disorder)? How do we keep faith with servicemembers and 
their families in this budget environment? What must we do 
differently to combat sexual assault?
    I look forward to working with our distinguished panel 
throughout the year so that our fiscal year 2015 appropriations 
bill can enable the U.S. Navy and the Marine Corps to defend 
our national interests around the world.
    We sincerely do appreciate your service to our Nation, and 
the dedication and sacrifice made every single day by the men 
and women in our Navy and Marine Corps.
    I thank you for your testimony this morning. Your full 
statements will be part of the record.
    Senator Durbin. I am going to turn to our vice chairman, 
Senator Cochran, and then to the chairman of the full 
committee, Senator Mikulski.


                   statement of senator thad cochran


    Senator Cochran. Mr. Chairman, I am pleased to join you in 
welcoming our distinguished panel of witnesses today. We 
appreciate their leadership.
    The importance of the Navy and Marine Corps role is 
becoming even greater with increased presence in the Asia-
Pacific region. The department has earned a high level of 
distinction for its accomplishments over the years, the Marine 
Corps, as well. And we are really fortunate to have the kind of 
leadership that we have now in these important positions.
    We look forward to hearing your testimony. Thank you.
    Senator Durbin. Senator Mikulski.


                statement of senator barbara a. mikulski


    Senator Mikulski. Thank you, Mr. Chairman.
    Mr. Chairman, as you know, I am here as a member of the 
committee, but as the chair of the full committee, I want the 
record to note that both Senator Shelby and I are here to 
support our subcommittee chairman and our vice chairman, 
Senator Cochran, to show that the Appropriations Committee is 
committed to keeping America strong, to supporting its United 
States military, not only with words and what is in the Federal 
law books, but what to put in the Federal checkbook. We are 
going to eagerly listen to the testimony presented today.
    And we also want to note that for one member of the panel, 
it will be his last appearance before Appropriations, with the 
retirement of General Amos. So we want to, in the warmest, most 
admirable way, thank him for his service.
    We in Maryland are really proud of the Navy and the Marine 
Corps. We are the home of one of the oldest ships in the Navy, 
the Constellation, one of the oldest warships, to one of its 
most modern fleets, the Tenth Fleet, in terms of the cyber-
fleet.
    We are also the home to hallmark institutions within the 
Navy, from the Naval Academy to the Patuxent River Navy Base.
    So we are a Navy State, and we look forward to continuing 
to support you.
    We, too, want to express our condolences in terms of the 
terrible shooting at Norfolk. I want to express my condolences 
to the Navy family, and especially the Naval Academy family, 
for the death of Will McKamey, a 19-year-old freshman who died 
in shock trauma of a brain trauma.
    But as we express our condolences, those young men would 
want us to make sure we have the best Navy and Marine Corps 
that we can.
    We look forward to your testimony, in both what we need in 
terms of its physical infrastructure, but also building its 
human capital.
    So with that, Mr. Chairman, I am eager to hear the 
testimony.
    Senator Durbin. Let's see if Senator Shelby has any 
comments he'd like to make.


                 statement of senator richard c. shelby


    Senator Shelby. Mr. Chairman, I would like for my whole 
statement to be made part of the record.
    And I just want to, again, welcome the Secretary of the 
Navy and his distinguished colleagues here today.
    This is a very important hearing. It is important for us to 
hear on the Appropriations Defense Subcommittee and the full 
Committee of Appropriations, but it is important to the 
security of this country at a crucial time.
    I look forward to all of your testimony and the chance to 
ask questions.
    Senator Durbin. Anyone else wish to make opening comments?
    Senator Collins.


                   statement of senator susan collins


    Senator Collins. Mr. Chairman, in light of the time 
constraints this morning, I will submit my opening statement 
for the record.
    But I just want to welcome all of our witnesses, and note 
that Vice Admiral Braun is from the great State of Maine.
    [The statement follows:]
             Prepared Statement of Senator Susan M. Collins
    Thank you, Chairman Durbin, for holding this hearing to review the 
Department of Navy's fiscal year 2015 budget submission. This 
subcommittee has a number of important decisions to make, but I am 
hopeful that we can again produce a bipartisan funding bill to support 
our military.
    Secretary Mabus, General Amos, Admiral Greenert, thank you for 
appearing here today and please accept my thanks for your decades of 
collective service to our country.
    I am generally supportive of many of the provisions in the current 
budget. For example, I am pleased that the administration continues to 
fully fund the DDG-51 and DDG-1000 programs which are essential to the 
future of our surface fleet.
    That being said, I have some serious concerns about the proposed 
way forward from a strategic global force standpoint. Our renewed focus 
on the Asia-Pacific region as an area of the highest strategic 
interest, as well as instability in other areas of the world, call for 
maintaining a strong and capable surface fleet.
    What troubles me, however, is that rather than growing the fleet to 
keep pace with the threat, we seem to be headed in the opposite 
direction. In its fiscal year 2014 30-year shipbuilding plan, the Navy 
laid out its need for 306 battle force ships, a reduction from their 
previous requirement of 313 battle force ships. Yet 2 weeks ago, the 
Chief of Naval Operations said that we would need 450 ships to meet the 
present combatant command needs.
    Then just this month, the Navy changed its procedures regarding 
which ships count toward the battle force. For the first time, the Navy 
announced that it is counting ships such as the Cyclone-class coastal 
patrol craft and hospital ships towards its total.
    Moreover, it has been announced that the Navy intends to count the 
11 guided missile cruisers that will be placed in a ``reduced operating 
status'' to save on operations and manning costs as part of the Navy's 
fiscal year 2015 budget proposal. All these changes mask the reductions 
to the surface fleet.
    I am concerned that we continue to move further away from the 
number of ships we actually need to protect our national security. For 
my part, I will continue to argue for maintaining a strong surface 
fleet. So in the coming months, I hope to work closely with you and my 
colleagues on the subcommittee to see how we can work to help the Navy 
get the fleet we really need.
    I look forward to your testimony today.

    Senator Durbin. Senator Coats.

                   STATEMENT OF SENATOR DANIEL COATS

    Senator Coats. Except for the recognition of the State of 
Maine, a ditto to what Senator Collins just said.
    No disrespect for Maine. It is just that I don't have the 
same parochial interest.
    But our time is constrained. We ought to hear what these 
people have to say.
    Senator Durbin. Someone said all politics is local.
    Secretary Mabus, please proceed.

                  SUMMARY STATEMENT OF HON. RAY MABUS

    Mr. Mabus. Mr. Chairman, before I begin my formal 
statement, I would like to thank you and the members of the 
committee for your condolences on behalf of the Navy family. We 
send out our thoughts and prayers to the family, the shipmates, 
the friends of the sailor who was lost in Norfolk, and also to 
the midshipman who died at the Naval Academy.
    Mr. Chairman, Madam Chairwoman, Vice Chairman Cochran, and 
members of this subcommittee: First, thank you for your support 
of the Department of the Navy, for our sailors and marines, our 
civilian employees, and their families.
    General Amos, the Commandant of the Marine Corps, and 
Admiral Greenert, the Chief of Naval Operations, and I couldn't 
be prouder to represent those courageous and faithful sailors, 
Marines, and civilians. These men and women serve their Nation 
around the world with skill and dedication, no matter what 
hardships they face, no matter how far they are from home and 
from their families.
    And as Senator Mikulski pointed out, I want to take a 
personal moment, this will be the last hearing before this 
committee on posture that General Amos participates in. And I 
just want to say what a high privilege and great honor it has 
been to serve with the Commandant of the Marine Corps James 
Amos.
    The architects of our Constitution recognized the inherent 
value of the United States Navy and Marine Corps. Article I 
section 8 gave Congress the responsibility to provide and 
maintain a navy because our Founding Fathers knew that the 
Nation needed a naval force to operate continuously in war and 
peace.
    Over two centuries ago, the United States had a crucial 
role in the world. Today, that role is exponentially greater.
    Whether facing high-end combat, asymmetrical threats or 
humanitarian needs, America's maritime forces are ready and 
present on day one of any crisis, for any eventuality.
    In today's dynamic security environment, naval assets are 
more crucial than ever. In military terms, they provide 
presence--presence worldwide. They reassure our partners that 
we are there, and remind potential adversaries that we are 
never far away.
    This presence provides immediate and capable options for 
the Commander in Chief when a crisis develops anywhere in the 
world. In the past year, our naval forces have operated 
globally from across the Pacific to continuing combat in 
Afghanistan, from the Gulf of Guinea to the Arctic Circle.
    The 2012 Defense Strategic Guidance and the newly released 
QDR (Quadrennial Defense Review) are both maritime in focus and 
require presence of naval forces around the world. Four key 
factors make that global presence and global action possible.
    These four factors--people, platforms, power, and 
partnerships--have been my priorities during my tenure as 
Secretary, and they have to continue to receive our focus 
looking ahead.
    In our fiscally constrained times, we have used these 
priorities to help balance between the readiness of the force, 
our capabilities, and our capacity.
    Our people are our biggest challenge, and we have to ensure 
that they continue to get the tools they need to do their job. 
In compensation, we have increased sea pay to make sure those 
sailors and marines deployed aboard ship are appropriately 
recognized.
    However, this budget also seeks to control the growth in 
compensation benefits, which threatens to impact all other 
parts of our budget. If this is not addressed, as the CNO has 
so forcefully put it, the quality of work for our sailors and 
marines will almost certainly decline.
    Shipbuilding and our platforms remain key elements of our 
maritime power, and a focus of this committee. The number of 
ships, submarines, and aircraft in our fleet is what gives us 
the capacity to provide that global presence.
    While we have the most advanced platforms in the world, 
quantity has a quality all its own. And I think it is important 
to understand how we got to our current fleet size.
    On September 11, 2001, our fleet stood at 316 ships. By 
2008, after one of the great military buildups in American 
history, the fleet was down to 278 ships. In the 4 years before 
I took office, the Secretary of the Navy put 19 ships under the 
contract. Since I took office in May 2009, we have put 60 ships 
under contract. And, by the end of this decade, our plan will 
return the fleet to 300 ships.
    We are continuing our initiatives to spend smarter and more 
efficiently, which are driving down costs through things like 
competition, multiyear buys and just drive a harder bargain for 
taxpayer dollars.
    Power, or energy, is a national security issue and central 
to our naval forces and our ability to provide that presence. 
Dramatic price increases for fuel threaten to degrade our 
operations and training, and could impact how many platforms we 
can acquire.
    Having more varied, stably priced, American-produced 
sources of energy makes us better warfighters. From sail to 
coal to oil to nuclear, and now to alternative fuels, the Navy 
has led in energy innovation.
    Since the end of World War II, U.S. naval forces have 
protected the global commons to maintain the foundation of the 
world's economy. In today's complex environments, partnerships 
with other nations, evidenced by things like interoperability, 
exercises, and operations continue to increase in importance.
    The Navy and Marine Corps, by the nature of their forward-
presence, are naturally suited to develop these relationships, 
particularly in the innovative small footprint ways that are 
required.

                           PREPARED STATEMENT

    With the fiscal year 2015 budget's submission, we are 
seeking, within fiscal constraints imposed, to provide our Navy 
and Marine Corps with the equipment, the training, and the 
tools needed to carry out the missions the Nation needs and the 
Nation expects from them.
    There are never any permanent homecomings for sailors or 
marines. In peacetime, wartime, all the time, they remain 
forward-deployed, providing presence, and providing whatever is 
needed by our country.
    This has been true for 238 years, and it is our task to 
make sure it remains true now and in the future.
    Thank you.
    [The statement follows:]
                  Prepared Statement of Hon. Ray Mabus
    Chairman Durbin and Ranking Senator Cochran, and members of the 
committee: today I have the privilege of appearing to discuss posture 
and readiness for the fifth time on behalf of the men and women of the 
Department of the Navy. It is an honor to represent the Sailors and 
Marines across the globe, as the Marine Hymn says, ``in every clime and 
place;'' the civilians who support them at home and around the world; 
and to report on the readiness, posture, progress, and budgetary 
requests of the Department. Along with Commandant of the Marine Corps, 
General James Amos, and Chief of Naval Operations (CNO), Admiral 
Jonathan Greenert, I take great pride in the opportunity to both lead 
and serve the dedicated men and women of our Department. This 
statement, together with the posture statements provided by CNO 
Greenert and Commandant Amos, are designed to present an overview of 
the state of the Department of the Navy for your consideration as we 
move forward with the fiscal year 2015 budget process.
    The architects of our Constitution recognized the inherent value of 
the United States Navy and Marine Corps. Article 1, section 8, gave 
Congress the responsibility to ``provide and maintain a Navy,'' because 
our Founding Fathers knew that the Nation needed a naval force to 
operate continuously in war and peace. Over two centuries ago they 
recognized that having a Navy and Marine Corps to sail the world's 
oceans in defense of our national interests and our commerce sent a 
powerful signal to our allies and our potential adversaries. Even then, 
the United States had a crucial role in the world. Today that role is 
exponentially greater.
    This year we celebrate the Bicentennial of Thomas Macdonough's 
``signal victory'' on Lake Champlain during the War of 1812. From that 
early triumph in the defense of our Republic to the heroic fights in 
places like Mobile Bay and Manila; to the Chosin Reservoir and the 
quarantine during the Cuban Missile Crisis and the coastal and riverine 
patrols of Vietnam; to the mountains of Afghanistan and the littorals 
of the Pacific presently; our Navy and Marine Corps have been there 
when the Nation called. We have given our Commanders-in-Chief the 
options needed.
    These options are far greater than just waging war, although the 
Navy and Marine Corps are ready, when necessary, to fight and win our 
Nation's wars. In today's complex world, with a dynamic security 
environment, naval assets are more critical than ever. This year our 
ground forces are returning home from the battlefields of Afghanistan, 
just as they have from Iraq. Yet our Sailors and Marines know that they 
will continue to forward deploy as the guardians of our safety and 
security. In peace, as in war, we will deploy, day after day, year 
after year. For seven decades our global presence and maritime strength 
have ensured the freedom of the seas and the security of peaceful free 
trade around the world. This has resulted in unprecedented growth in 
the world's economy, which has benefitted all. It also ensures 
America's interests are respected and our people remain secure.
    The Navy and Marine Corps respond whenever the Nation calls. 
Whether facing high-end combat, asymmetrical threats or humanitarian 
needs, America's maritime forces are ready and present on Day One of 
any crisis, for any eventuality.
                       strategic context in 2013
    Throughout the past year, the Navy and Marine Corps repeatedly 
demonstrated the critical role they play in ensuring global stability. 
In military terms, they provide worldwide presence. Naval forces 
operated across the Pacific, and in the continuing combat mission in 
Afghanistan, from the Gulf of Guinea to the Arctic Circle. As President 
Theodore Roosevelt said, ``A good Navy is not a provocation to war. It 
is the surest guarantee of peace.'' We don't have to surge units from 
home. Our ships don't take up an inch of anyone else's soil. We 
reassure our partners that we are there, and remind those who may wish 
our country and allies harm that we're never far away. We protect the 
global commons and ensure the freedom of navigation which has 
underwritten the growth of the world's economy for decades.
    In recent years we have had a range of examples which illustrate 
what our Navy and Marine Corps mean for our Nation. Every time North 
Korea conducts missile tests or threatens their neighbors, our 
Ballistic Missile Defense ships are already there, already on patrol. 
There's no overt escalation, because we are already present. When 
special operations units conduct operations all over the globe, from 
capturing known terrorists in Libya to raids in Somalia, they rely on 
Navy ships and Marine Corps units as critical enablers. We support 
friends and allies with humanitarian assistance missions like Pacific 
Partnership and in exercises that help build our ability to operate 
together like our Cooperation Afloat Readiness and Training (CARAT) 
exercises with numerous partners. Around the world the credible combat 
power of the U.S. Navy and Marine Corps opens the door for diplomacy 
and helps our leaders address emerging threats.
    A few months ago when Typhoon Haiyan moved toward our allies in the 
Philippines, our naval forces in the region tracked its progress. U.S. 
Marines were on the ground within hours after the storm. Our C-130s and 
MV-22 Ospreys brought in early aid and began to survey and assess the 
damage. Within days we had a dozen ships, including the George 
Washington Strike Group, in the waters around the Philippines along 
with over a hundred aircraft, providing lifesaving aid and supplies to 
devastated communities.
    Humanitarian Assistance and Disaster Relief missions are an 
important contribution our Navy and Marine Corps make to our Nation's 
diplomacy because our presence allows us to respond quickly and 
effectively. These operations build our partnerships and they encourage 
stability and security by helping those in need get back on their feet. 
However, it should not be lost on anyone that we are talking about 
warships, warplanes and warfighters. We amassed a dozen combat ready 
warships and massive amounts of air support, rapidly, to respond to a 
crisis. We were able to do so because of the inherent flexibility of 
our people and our platforms.
    These examples demonstrate that for the Navy and Marine Corps 
global presence is our purpose. We are there to deal with the 
unexpected. We are the Nation's hedge against new crises and new 
conflicts. The Navy and Marine Corps are our Nation's Away Team, ready 
for whatever comes over the horizon.
                           today's priorities
    Four key factors make our global presence and global action 
possible. These four factors--People, Platforms, Power and 
Partnerships--have been my priorities during my tenure as Secretary and 
they must continue to receive our focus looking ahead.
    Each of these four priorities contributes directly to the 
Department of the Navy's ability to provide the presence and options 
which the Commander-in-Chief and the American people have come to 
expect. They are what makes our Navy and Marine Corps the most 
immediate and capable option when a crisis develops anywhere in the 
world. Our People, Platforms, Power, and Partnerships guide our 
approach to the fiscal year 2015 budget process.
                   people--supporting our vital asset
    In 1915, my predecessor, Josephus Daniels testified before Congress 
that ``a Navy, no matter how powerful, unless it is well manned by an 
adequate number of well-equipped and well trained Sailors, would have 
very little value.'' That statement is even more true today. Our Total 
Force of active duty and reserve military, and civilians are what make 
the Navy and Marine Corps the best in the world.
    Our equipment--the ships, submarines, aircraft, vehicles, weapons 
and cyber systems; everything that our Sailors and Marines operate--are 
technological marvels and the most advanced in the world. But they only 
exist thanks to those who design, build and procure them. And they 
would be useless without those who sail and fly and operate them. The 
people are the real marvel. They are what gives the United States the 
edge and what sets us apart from the world. And that is why our people 
have been and must continue to be our highest priority. However, the 
last few years have seen increasing challenges to our people, uniform 
and civilian.
    Those in uniform have seen ever lengthening deployments. The 
average number of days that ships are underway or deployed increased 15 
percent since 2001. In 2013 the USS Dwight D. Eisenhower Strike Group 
returned from back-to-back deployments, totaling 12 months, with only a 
2-month break in between. USS Nimitz, which returned home just before 
Christmas, was extended twice because of the crisis in Syria and was 
deployed for 10 months. Instead of 6-month deployments, which had been 
standard for decades, 8 months at sea is the new normal and 10 months 
is becoming more common. These extended deployments, which immediately 
follow an intense training cycle requiring recurring operations at sea, 
stress our Sailors and Marines and their families. This will continue 
because the requirement for naval presence will not diminish.
    Our civilian personnel have been tested as well. We literally could 
not put our fleet to sea without these committed and courageous 
individuals. The horrific attack at the Washington Navy Yard in 
September cost the lives of 12 devoted public servants left two 
physically injured and intangible scars across our workforce. Just days 
later, as soon as they were permitted, most of their colleagues on the 
Navy Yard returned to work, committed to their mission despite 3 years 
in which they received no pay raises and were subject to furloughs. Two 
weeks after the shooting our Navy and Marine Corps civilians, including 
many who worked at the Navy Yard but were not part of Naval Sea Systems 
Command or Naval Facilities Engineering Command, were forced off the 
job again by the Government shutdown.
    A concrete demonstration of our support for our Sailors, Marines, 
and civilians are their pay and benefits. Military pay and benefits 
continue at a competitive level, and in some skill areas are better 
than those found in the private sector. The promise of a military 
retirement is a key element of the covenant we have with the men and 
women who serve our country for an entire career. We must safeguard 
that promise for today's Sailors and Marines. However, we also have to 
realize that the growth rate in military compensation must be 
controlled. Our Sailors and Marines chose to serve their country out of 
duty and patriotism, not just for the money. We must ensure that we 
support our active duty personnel by giving them the resources and 
tools they need to do their jobs, as well as their well-earned 
compensation.
    We support the sensible and fair reforms to compensation and 
benefits introduced in the President's budget. We look forward to 
considering the complete review being conducted by the Military 
Compensation and Retirement Modernization Commission. We must have a 
holistic approach which ensures that any changes are reasonable, 
effective, and fair in sustaining the All-Volunteer Force.
    Today's demanding environment will require the most resilient force 
that our Navy and Marine Corps has ever fielded. Because of that we 
continue to develop the 21st Century Sailor and Marine Initiative as an 
overarching method of supporting our people, to eliminate stovepipes 
and ensure a comprehensive approach. The goal is to help our Sailors 
and Marines maximize their personal and professional readiness, and to 
assist them and their families with the mental, physical and emotional 
challenges of military service.
    The initiative is influencing Sailors and Marines around the world. 
In particular, we are working to counter the challenges of suicide, 
sexual assault and alcohol-related incidents. These tragic occurrences 
not only impact the resilience of our Sailors and Marines, they also 
directly impact the discipline of the force and degrade combat 
effectiveness.
    We remain resolute in our efforts to minimize suicides and we are 
striving to understand the root causes and contributing factors that 
lead to suicide and suicide-related behavior. We want an environment in 
which Sailors and Marines are comfortable coming forward when they feel 
they may harm themselves, or when they know of a shipmate contemplating 
harm. Over the past few years we have introduced a number of 
initiatives including the Navy Operational Stress Control (OSC) Program 
to help build personal resilience, promote peer-to-peer support, 
enhance family support, and enable intervention up and down the chain 
of command. We have also added additional Mobile Training Teams who 
travel to units around the world to teach these skills and foster a 
sense of community. Our suicide prevention teams examine each incident 
for insights and data to inform our programs and we apply those lessons 
to help improve our training and policy.
    Sexual assault continues to be an ``insider threat'' with serious 
impacts on the Navy and Marine Corps. Because of the seriousness of 
this issue, soon after taking office I established the first and only 
Sexual Assault Prevention and Response Office reporting directly to me 
as Secretary. We have implemented numerous programs to strengthen our 
approach, including consistent leadership, new training methods, and 
victim-centered support efforts. Reporting of sexual assaults increased 
in fiscal year 2013, which we believe reflects a positive aspect of our 
efforts. It indicates that our Sailors and Marines believe that their 
reports will be taken seriously and that perpetrators will be held 
accountable.
    Another key element is our effort to strengthen the expertise and 
increase the resources of the Naval Criminal Investigative Service and 
our Judge Advocates to investigate and prosecute sexual criminals. We 
have also focused some of their training on advocating for victims. We 
continue to conduct regular voluntary anonymous surveys in order to 
learn as much as possible about perceptions and the factors influencing 
decisions to report or not report sexual assaults
    We continue to work to curb alcohol abuse and reduce the number of 
alcohol-related incidents which can end lives and careers. There has 
been a downward trend in alcohol related incidents which continued in 
2013 as we saw yet another reduction in cases of DUI and alcohol 
related behavior. We attribute this in part to dynamic media and 
education campaigns and directed-actions for irresponsible use of 
alcohol. We have also instituted limits to the shelf space available 
for the sale of alcohol at Navy and Marine Corps Exchanges. 
Implementation of the alcohol detection device program is still 
relatively new but fleet feedback suggests these devices, paired with 
an effective command prevention program which includes things like 
curfews and base patrols, provide an effective deterrent to alcohol 
abuse.
    Another positive development in 2013 was the significant strides 
the Navy made toward our goal of complete equality of opportunity for 
women in every officer designator and enlisted rating. Female officers 
and enlisted currently serve on virtually every class of surface ship 
and in every type of aviation squadron. Female officers now serve as 
well in our Submarine Force and the Task Force on Enlisted Women in 
Submarines continues to develop details for full Submarine Force 
integration. The Navy is opening 252 enlisted and 15 officer billets to 
women in the Coastal Riverine Force. The sole remaining area in the 
Navy not yet open to women is Navy Special Warfare. However, once 
assessments are complete and Congress has been notified, assigning 
women in that area will be in accordance with the U.S. Special 
Operations Command implementation plan.
    The Marine Corps continues to implement its plan to open closed 
positions to women. All positions currently closed will either be 
opened to women or an exception to policy requested from the Secretary 
of Defense by January of 2016. Since the 2011 NDAA the Marine Corps has 
opened 463 positions in 22 units in the Ground Combat Element to female 
officers and staff noncommissioned officers with open occupational 
specialties. Female officers and female enlisted Marines have been 
given the opportunity to volunteer for the training in Infantry Officer 
School or the Infantry Training Battalion as part of the research 
effort to inform decisions to open currently closed positions to women.
                  platforms--building the future fleet
    The Marines, Sailors and civilians are the heart of our force, but 
what enables them to do their job are the ships, submarines, and 
aircraft in our fleet. As I noted earlier, we have the most advanced 
platforms in the world and we must constantly work to maintain that 
technological advantage. However, at a certain point quantity has a 
quality all its own.
    The very nature of the Navy and Marine Corps mission, maintaining a 
global presence and positioning forces to respond immediately to 
emergent threats from man or nature, means that there is not much 
difference in our operations in times of war or peace. And the updated 
Defense Strategic Guidance and Quadrennial Defense Review clearly rely 
even more on maritime assets in our national security strategy.
    It is important to understand how we got to our current fleet size. 
On 9/11, the fleet stood at 316 ships. By 2008, after one of the 
largest military buildups in American history, that number had dropped 
to 278 ships. In the 4 years before I took office as Secretary, the 
Navy put 19 ships under contract. Since I took office in May of 2009, 
we have put 60 ships under contract and by 2019 our current plan will 
enable us to return the fleet to 300 ships.
    Some of the Navy's decline in the number of ships may be attributed 
to our understandable focus on ground forces involved in two major wars 
for more than a decade. But when I took office, I found it necessary to 
significantly revamp our basic management and oversight practices as 
well.
    When I took office, many of the Navy's shipbuilding programs were 
seriously troubled, with costs spiraling out of control and schedules 
slipping. There were some fundamental flaws in the acquisition process 
we were using. Ships were still being designed while under 
construction, immature technology was added before being proven, and 
requirements grew without restraint or realistic price forecasts. One 
of the central problems the Navy faced was a lack of competition in the 
system. With a smaller number of shipbuilders, Navy contracts had begun 
to be treated like allocations, rather than competitions to earn our 
business.
    In the past 5 years we have turned shipbuilding around by promoting 
acquisition excellence and integrity as well as aggressive oversight. 
We have been rebuilding the Department's core of acquisition 
professionals. Our focus is on everything from requirements, to design, 
to construction efficiency, to projected total life cycle costs. We 
emphasized firm, fixed-price contracts over the cost-plus contracts 
that can inflate costs. We introduced initiatives to spend smarter and 
more efficiently through competition, multiyear buys, and driving 
harder bargains for taxpayer dollars. I have made it clear to industry 
that Navy expects three things. A learning curve should be evident so 
each ship of the same type, whose design had not dramatically changed, 
would take fewer man-hours to build and should cost less than previous 
ships. Second, costs have to be scrubbed relentlessly with total 
visibility for Navy in estimates and bids. Third, appropriate 
investments in both infrastructure and workforce training must be made 
and are a shipbuilder's responsibility.
    But along with those harder bargains and expectations I made a 
commitment to our industry partners that the Department will do three 
things to keep up our end of the relationship. First, we must build 
stable designs without major changes during construction. Second, if a 
new advanced technology comes along after construction has started; it 
must wait until the next block of ships. Finally, we will offer a 
realistic shipbuilding plan so that the number, type, and timing of 
building would be transparent and offer some stability to the industry.
    In today's fiscal environment maintaining and increasing the fleet 
size will require sound management, innovative solutions, and 
continuing to seek out efficiency in our acquisition system. Navy 
shipbuilding is a unique public-private partnership; a key economic 
engine touching all but one of the 50 States that provides over 100,000 
high-skilled, high-paying jobs and the basis for the global prosperity 
and security that naval presence has assured since World War II.
    The fiscal year 2015 Shipbuilding Plan projects that we will reach 
300 ships by the end of the decade. This plan maintains a force that is 
balanced and flexible and focuses on critical technologies. It is 
designed to be able to prevail in 21st century combat situations, 
including anti-access, area-denial environments, and to be 
operationally effective and resilient against cyber attacks. In 2013 we 
awarded two Arleigh Burke class destroyers (DDGs) and contracted for 
seven more, which will be built over the next several years through a 
multiyear procurement contract. In total in 2013 we delivered seven new 
vessels to the fleet. We deeply appreciate the support of this 
committee and will work with you in order to build and maintain the 
fleet needed to address our global requirements and responsibilities.
    2013 saw a number of significant milestones for our new platforms 
and our research and development (R&D) programs. Our interim Afloat 
Forward Staging Base (AFSB) USS Ponce continued to develop operating 
concepts for future AFSB's and Mobile Landing Platforms (MLPs). The 
next generation destroyer USS Zumwalt (DDG-1000) and the MLP USNS 
Montford Point were launched. The first P-8 Poseidon maritime patrol 
aircraft deployed to the Pacific and the Navy and Marine Corps 
established their first F-35 Lightning II squadrons. The Air and 
Missile Defense Radar (AMDR) began development. The Standard Missile 6 
(SM-6) was introduced to the fleet. None of these programs would be 
possible without your continued support.
    The deployment of Littoral Combat Ship (LCS) USS Freedom to the 
Pacific is an important milestone in the LCS Program. The deployment 
tested the ship and its key operating concepts, overcame first-in-class 
challenges, and provided the Navy with lessons learned and ways to 
improve the program. The rotational forward deployment of the ship with 
our friends in Singapore was an unqualified success. In addition to 
contributing to relief efforts for Typhoon Haiyan, the ship also 
conducted a very successful crew-swap, teaching us a great deal about 
the LCS's new and innovative manning and deployment concepts.
    Our aviation and weapons programs are just as important to our 
ability to project power and provide presence as our shipbuilding. In 
May Admiral Greenert and I stood on the deck of USS George H.W. Bush 
and watched the landing of the X-47B unmanned carrier demonstrator. It 
was an historic moment in naval aviation, and a critical step forward 
in the development of our naval unmanned systems. We are pushing ahead 
with the Unmanned Carrier Launched Airborne Surveillance and Strike 
system (UCLASS) to develop an aircraft capable of multiple missions and 
functions, including precision strike in a contested environment. 
Support for this aircraft is vital for shaping the carrier air-wing for 
the challenges of the 21st century. To enhance our combat effectiveness 
and efficiency, these unmanned systems need to be integrated into 
everything we do across the full range of military operations.
    The at-sea testing of a directed energy weapon system was also an 
important development. These new systems can give the Navy an 
affordable, multimission weapon with a deep magazine and unmatched 
precision. Their modular nature will allow them to be installed on 
numerous different classes of ships in the future. We intend to deploy 
the system on the USS Ponce to continue testing and inform follow on 
Navy and DOD research into developing and integrating affordable 
directed energy weapons into the Joint Force.
    During difficult fiscal times it may be tempting to target research 
and development programs for savings. However, that kind of thinking is 
short sighted. These programs, and our entire research and development 
establishment from the Office of Naval Research to Navy labs to our 
industry partners, are vital to our future.
                    power--a national security issue
    Power and energy are central to our naval forces and our ability to 
be in the right place, around the world. It is what we need to get them 
there and keep them there. The Navy has a long, proud history of energy 
innovation. From sail to coal to oil to nuclear, and now to alternative 
fuels, the Navy has led the way.
    Energy is a national security issue and can be, and is, used as a 
geostrategic weapon. Even with domestic oil production up, imports 
declining, and new oil and gas reserves being discovered, energy is 
still a security concern and military vulnerability. One reason for 
this is that oil is the ultimate global commodity, often traded on 
speculation and rumor. In the aftermath of the chemical weapons attack 
in Syria, oil prices surged to over $107 per barrel and remained there 
for weeks, in what oil traders call a ``security premium.'' This same 
scenario plays out, such as during the crises in Egypt and Libya, and 
every time instability arises. Each $1 increase in the price of a 
barrel of oil results in a $30 million bill for the Navy and Marine 
Corps. This has huge implications across the Department of Defense and 
for our security. DOD is the largest single institutional consumer of 
fossil fuels on earth and budgets about $15 billion each year on fuel. 
But in fiscal years 2011 and 2012 price spikes added another $3 billion 
to the DOD fuel bill. The potential bills from that ``security 
premium'' can mean that we will have fewer resources for maintenance 
and training. But more importantly, the cost of meeting our high fuel 
demand can also be measured in the lives of Marines killed or wounded 
guarding fuel convoys. During the height of operations in Afghanistan, 
we were losing one Marine, killed or wounded, for every 50 convoys 
transporting fuel into theater. That is far too high a price to pay.
    In 2009, I announced five energy goals for the Department of the 
Navy in order to improve our energy security, increase our strategic 
independence, and improve our warfighting capabilities. The topline 
goal commits the Department of the Navy to generate one-half of its 
energy needs from non-fossil fueled sources by 2020. We are making real 
progress toward that goal through greater energy efficiency and 
alternative fuel initiatives. Burning cleaner fuel, or burning less 
fuel, is better for the environment but that is not our primary 
incentive. We're pursuing these alternatives because they can make us 
better warfighters.
    Under a Presidential Directive, the Department of the Navy is 
working with the Departments of Energy and Agriculture to help promote 
a national biofuel industry. This past year, under the authority in 
Title III of the Defense Production Act (DPA), we took an important 
step forward, with a DOD DPA award to four companies which committed to 
produce 160 million gallons of drop-in, military-compatible biofuels 
each year at an average price of well below $4 per gallon, a price that 
is competitive with what we are paying today for conventional fuels. 
DOD policy and my prior commitment has been that we will only buy 
operational quantities of biofuels when they are cost competitive. This 
initiative moves us far down that road. At full production, biofuels 
combined with conventional fuel at a 50/50 blend hold the promise of 
being able to cost-effectively provide our fleet with much of its 
annual fuel demand, providing real competition in the liquid fuels 
market.
    We also continue to develop our energy efficiency through research 
and development of more efficient propulsion systems, shore-based power 
management and smart-grid technology, and conservation measures. For 
example, in the past year the Naval Facilities Engineering Command's 
Engineering and Expeditionary Warfare Center provided technology 
demonstrators at Camp Lemonnier, Djibouti which reduced fuel 
consumption 9 percent base wide, even with a 3-percent increase in 
energy demand because of an increased population. At Joint Base Pearl 
Harbor Hickam a $2.2 million contract for the Daylight Project was 
awarded, which will use sunlight to light warehouse spaces and utilize 
photo sensors to automatically turn off lights when daylight levels are 
sufficient. In aggregate, fiscal year 2013 energy programs in Hawaii 
are projected to save the Government $4.7 million a year. The Marine 
Corps' development of expeditionary power solutions, through the 
Experimental Forward Operating Bases or ExFOB, has made them better 
warriors who are lighter and more agile in the face of today's global 
threats.
    The Navy has a long and successful history of partnering with 
industry to promote business sectors and products important to our 
Nation's military and economic security. From the development of the 
American steel industry to nuclear power, the Navy has helped the 
country develop economically while helping Sailors benefit from the 
cutting edge of technology to defend our Nation. These programs are 
about diversifying fuel supplies, stabilizing fuel costs and reducing 
overall energy needs. In achieving these energy goals, we will maximize 
our reach and maintain our global presence and make our Navy and Marine 
Corps more combat capable.
                partnerships--the global maritime world
    For the last seven decades American naval forces have deployed 
around the world to be, as President Obama said this past year, the 
anchor of global security. We operate and exercise alongside our 
friends and partners around the world, to maintain the stability of the 
global maritime commons. We work to uphold the key principles of free 
trade in free markets based on freedom of navigation, which underwrites 
the unprecedented growth of the global economy.
    In times of economic uncertainty it is more critical than ever to 
protect the stability of the global system. As 90 percent of worldwide 
trade moves at sea, this system, and the sophisticated set of 
international rules and treaties on which it is based, has become 
central to our global marketplace. However the efficiency and intricate 
interdependencies of a ``just in time'' economy place the system at 
risk from the destabilizing influences of rogue nations, non-state 
actors, and regional conflicts.
    The Navy and Marine Corps, by nature of their forward presence and 
the boundless quality of the world's oceans, are naturally suited to 
develop relationships, particularly in the innovative, small footprint 
ways the updated Defense Strategic Guidance and QDR require. Helping 
international partners increase their abilities and become more 
interoperable with us helps us all. Allies and partners around the 
world recognize that our combined naval forces offer a unique and 
critical capability. As an Asian Ambassador to the United States 
recently remarked to me, the competing claims in the Pacific today have 
reminded some of our friends of the vital role U.S. naval forces play 
in global stability.
    Providing security for free trade and freedom of navigation across 
the maritime domain requires more capacity than any single nation can 
muster. The United States Navy plays a principal role in maintaining 
the freedom of the seas, but it cannot play an exclusive role. 
Partnerships between like-minded nations, collaborating to ensure 
security and safety at sea, distribute the burden based on alliances, 
shared values and mutual trust.
    A recent Naval History and Heritage Command study titled ``You 
Cannot Surge Trust'' has reinforced the fact that partnership and trust 
do not appear overnight. Naval operations, in peace and war, are 
fundamentally human endeavors. Operational success is based as much, or 
more, on professional norms, personal relationships and human 
decisionmaking as on technology or hardware. Partnerships are a 
critical naval endeavor.
    In the past year, we continued to develop the strength of our 
partnerships across the globe. Engagement between the leaders of the 
world's naval forces is a critical component of building those human 
connections. Because of this, our senior uniformed leaders and I have 
traveled extensively to meet and consult with our peers.
    Many nations have a longstanding territorial view inward, which 
caused them to focus overwhelmingly on land forces in the past. But in 
today's globalized world they recognize that they now have to face 
outward. They are looking to the U.S. Navy and Marine Corps for advice 
and assistance as they make that shift. Other nations are already 
maritime focused, and look to develop the ability to train, exercise, 
and operate together effectively to forward our shared goals. Through 
our meetings between senior leaders and exercises with our allies, 
partners, and friends we are building the international relationships, 
trust, and inter-operability which are vital to protecting our common 
interests in a globalized world.
    In 2013 we conducted the largest exercise of the year in the 
Arabian Gulf, the International Mine Countermeasures Exercise (IMCMEX). 
With representatives from 41 countries, including 6,600 sailors on 35 
ships, the world's navies cooperated to help promote regional stability 
and address the global challenge of mine warfare. Also this past year, 
Expeditionary Strike Group 3 and the 1st Marine Expeditionary Brigade 
conducted the multilateral amphibious exercise Dawn Blitz. Alongside 
amphibious units from Canada, New Zealand, and Japan, and observers 
from Australia, Chile, Colombia, Israel, Mexico, Peru and Singapore, 
the exercise helped increase our core amphibious capabilities, while 
also strengthening our partnership and interoperability. As I mentioned 
earlier our partners in Singapore hosted the first forward stationing 
of the Littoral Combat Ship USS Freedom. The ship conducted numerous 
exercises with our friends in Southeast Asia, expanding the number of 
ports we can visit and work from in the littorals.
    Some of our exercises are smaller and more focused, like Obangame 
Express 2013 which occurred this past spring in the Gulf of Guinea. It 
concentrated on developing the maritime security and patrol 
capabilities of local forces in West and Central Africa that have seen 
increasing armed robbery at sea, piracy, smuggling and other maritime 
crimes. In part of this exercise a team of U.S. Sailors who specialize 
in maritime security missions worked on board the Belgian Naval Ship 
Godetia with our European allies, to train African sailors in the 
tactics for boarding and inspecting ships.
    These are just a few examples of literally hundreds of operations, 
engagements, and exercises that the Navy and Marine Corps participated 
in during the past year. However, we also had a challenge in 2013 when 
it came to funding our operational, partnership and theater security 
cooperation missions. The Navy was forced to cancel or defer ship 
deployments supporting counter-narcotics missions in the Southern 
Command area of operations. Some exercises, including some in support 
of the Southern Partnership Station in Central and South America, had 
to be scaled back significantly because the sequester level funds did 
not provide us with the operating budget we needed to complete the 
missions. Future funding at sequester levels is likely to force us to 
continue to limit and prioritize our critical partnership building 
operations.
    But our partnerships mean a great deal more than our alliances and 
friendships around the world. The Navy and Marine Corps also have 
critical relationships with industry and with the American people. Our 
Nation's defense industrial workers are skilled, experienced, and 
innovative and can't be easily replaced. We must provide stability and 
predictability to the industrial base to maintain our ability to build 
the future fleet and keep our technological advantage. One of the 
strengths of our system is the teamwork of our uniformed warfighters, 
our Navy and Marine Corps civilians, the leadership team in Washington, 
and our industry partners.
    Recently, the Chief of a Navy in the Asia-Pacific region reminded 
me of a fundamental difference between land forces and naval forces. 
Land forces, he said, look down at a map. They look at borders and 
lines and limitations. Naval forces look out toward the vast horizon 
and they look to the future. Sailors and Marines are a unique breed. 
When they join the sea services they accept the challenge of the 
unknown with an adventurous spirit and an open mind. That is part of 
why the Navy and Marine Corps are naturally inclined toward 
partnership, and have been throughout our history, from operating with 
the Royal Navy to fight the slave trade in the 19th century to modern 
coalition operations in the Pacific and the Arabian Gulf. That same 
spirit which causes us to look for what comes next also causes us to 
look for new and innovative solutions, and new friends to help us 
across the globe.
                   fiscal year 2015 budget submission
    The Department of the Navy's fiscal year 2015 budget request is 
designed to meet the updated Defense Strategic Guidance, and is 
informed by the 2014 Quadrennial Defense Review. It meets the 
objectives the strategy laid out, but our fiscal limits force us to 
accept a certain amount of risk in some mission areas. The Navy and 
Marine Corps continue to focus on planning for the 21st century 
including preparing for the anti-access, area-denial challenge, 
sustaining our global capability by increasing forward stationing and 
implementing new deployment models, and sustaining the All-Volunteer 
Force. Based on our strategic outlook we have had to make tough 
choices, and look to fund the most critical afloat and ashore readiness 
requirements, continue to provide sovereign sea-based options for the 
Commander-in-Chief, and to sustain our vital industrial base.
    The President's budget for fiscal year 2015 (PB-15) continues to 
build the fleet of more than 300 ships we will have by the end of this 
decade. This fleet will include established and proven platforms which 
we are currently deploying, next generation platforms, and new advanced 
weapons, sensors, and payloads. Guided by operational concepts like Air 
Sea Battle, the experiences of more than 10 years of war, and the 
lessons from our war-gaming and studies, the Navy and Marine Corps of 
2020 will be able to continue to project power and to maintain 
stability in the global commons.
    Supporting our Sailors and Marines is a vital part of our budget 
request. We have increased spending on high priority Quality of Service 
programs, including increased career sea pay to help incentivize sea 
duty. We have also modestly increased spending on Quality of Life 
programs including on-base housing. But these initiatives must be 
balanced to ensure our Sailors and Marines have the resources and 
equipment they need to complete the mission. Across the Future Years 
Defense Plan (FYDP) we will add funds to improve Quality of Work issues 
like training support and improving the availability of spare parts so 
our Sailors and Marines remain the most knowledgeable in the world and 
have the tools they need to do their jobs. We protect programs that 
support our Sailors or Marines when they need help. This includes 
sexual assault incident response and training, suicide prevention, and 
family support programs. We remain committed to our military-to-
civilian transition assistance and work to ensure that our veteran 
employment programs offer the best opportunities to capitalized on the 
knowledge and skills of transitioning Sailors and Marines.
    Maintaining undersea dominance is vital to the U.S. Navy. The 
development of the Virginia Payload Module (VPM) will be critical when 
our guided missile submarines (SSGNs) begin to retire in 2026. We must 
develop the VPM by funding R&D through fiscal year 2018, so that we can 
introduce the modules into the very successful Virginia-class 
submarines, thus assuring that we will not lose capability as the SSGNs 
retire. This budget also funds the development of improved sonar 
processors, improved sonobuoys, and improved torpedoes to help ensure 
that we maintain our core undersea advantage.
    Continued production of proven platforms for the fleet is a key 
element in this budget and across the FYDP. We will continue to build 
two Virginia-class submarines and two Arleigh Burke-class destroyers 
per year in order to help increase the size of the fleet and replace 
older ships as they retire. In fiscal year 2015 we will purchase 29 MH-
60R and 8 MH-60S helicopters, completing the upgrade of our tactical 
helicopter force which has been underway for the past decade. We will 
also continue the procurement of the next generation E-2D airborne 
early warning aircraft and of the MV-22B for the Marine Corps. These 
established and world leading platforms provide the foundation of the 
future fleet.
    This budget also procures new and advanced platforms that will take 
our fleet into the future. We will build LCSs and AFSB, and continue to 
introduce Joint High Speed Vessels (JHSV) and MLPs to the fleet. This 
will provide modular and mission focused capabilities around the world, 
while helping to meet the presence requirements of the fleet. In 
aviation we will continue production of the new P-8 Poseidon maritime 
patrol aircraft across the FYDP, deploying new squadrons, as well as 
the F-35 Lightning II for both the Navy and Marine Corps. We will 
continue the introduction of the next generation SM-6 Standard Missile 
to our Aegis capable ships, and fund the R&D for the Long Range Anti-
Ship Missile (LRASM) which is vital for our future surface combatants. 
However, it is important to point out that given the reality of the $38 
billion reduction from the President's budget fiscal year 2014 (PB-14) 
to PB-15, many of these purchases will be made at reduced rates. PB-15 
buys 111 fewer aircraft and over 5,000 fewer weapons across the FYDP 
than the PB-14 program. This is part of the increased risk that we have 
had to accept.
    Unmanned platforms and systems will be an important part of the 
future Navy and Marine Corps and our budget carries on with R&D and 
production of these critical platforms. The MQ-4 Triton will complete 
its testing phase during this budget, and we will begin production for 
the fleet across the rest of the FYDP. The R&D for UCLASS also 
continues in fiscal year 2015, and throughout the FYDP. Developing 
these aircraft is vital to the future of the carrier air-wing. Unmanned 
Undersea Vehicles (UUVs) will be central to our mine-warfare 
capabilities and maintaining undersea dominance. This budget includes 
R&D for multiple systems, as well as deployment of the Mk 18 Kingfisher 
UUV for counter-mine missions. Across the entire spectrum of military 
operations, an integrated force of manned and unmanned platforms is the 
future.
    We will continue to fund our energy programs with this budget by 
moving forward with the biofuels program under the DPA, as well as 
continuing our sea and shore based efficiency programs. This budget 
includes $776 million in tactical and ashore energy programs in fiscal 
year 2015, and $3.8 billion across the FYDP. Our ashore initiatives, 
including appropriated funds and third party investments, of $570 
million in fiscal year 2015 are projected to generate annual savings of 
over $100 million, starting in fiscal year 2017, due to efficiencies. 
Investments in tactical programs help increase our on station time for 
ships, reduce need for resupply, and increase the amount of time our 
Marine Corps units can stay in the field, making us more capable 
militarily. Continuing to work toward the Department's energy goals 
will allow us to lessen the impact of price volatility in the energy 
market and make us better warfighters.
    This budget includes funds to maintain our presence in the Middle 
East, and advance our capabilities there. Funding for the continued 
deployment of the Interim-AFSB USS Ponce, improved manning for our 
mine-countermeasures ships, and the introduction of new capabilities, 
are important parts of this effort. The new weapons and systems, like 
the Laser Weapon System (LaWS) aboard Ponce, the Advanced Precision 
Kill Weapon System (APKWS) guided rockets for our MH-60 helicopters, 
and the Sea Fox UUV mine neutralization system, will help our Sailors 
and Marines maintain their edge in the Arabian Gulf and beyond. We are 
also funding the forward stationing of ten Coastal Patrol ships (PCs) 
to Bahrain which will increase their availability to the combatant 
commander and increased presence in the shallow waters of the region.
    PB-15 also represents the platforms and payloads necessary for 
increasing operations in the Asia-Pacific region as we continue to 
support the rebalance toward Asia. This budget sustains the operations 
of our LCSs in Singapore, which includes early investment for the 
rotational deployment of up to four LCSs by 2017. Exercises in the 
Pacific, like our CARAT and Pacific Partnership missions, will be 
funded to ensure that we maintain our partnerships in the region. We 
also continue to support the growth in the number of Marines who are 
rotating through Darwin, Australia. This year we are expanding from a 
Company sized unit to a Battalion, and in the coming years we will 
continue to expand to a Marine Air Ground Task Force (MAGTF).
    In our fiscal year 2015 budget we include funding to support the 
movement of more of our ships and units forward as the most effective 
and cost-efficient means of maintaining our global presence. Forward 
based, stationed, or operating ships all provide presence at a 
significantly lower cost since one ship that operates continuously 
overseas provides the same presence as about four ships deploying 
rotationally from homeports in the United States. Besides the PCs to 
Bahrain and the LCSs to Singapore, we continue to fund the forward 
basing of four BMD capable DDGs to Rota, Spain. As the DDGs from Rota 
patrol European and African waters, we free other ships to deploy 
elsewhere. This year we will also begin moving JHSVs forward and 
prepare for the fleet introduction of the MLPs and AFSBs. We will 
continue the operations of, and expand the size of, the Marine Corps' 
new Special Purpose MAGTF-Crisis Response operating out of Moron, 
Spain.
    It is our duty to spend the tax-payers' dollars wisely, and it is a 
duty that we take very seriously in the Department of the Navy. We 
continue to look at contractual services spending for efficiencies, 
with conscious decisions made to challenge requirements through 
mechanisms such as ``contract courts,'' requiring annual justification 
of contracts. We are willing to accept higher levels of risk in some 
areas of services spending before sacrifices are made in force 
structure, modernization, or readiness. I have also ordered the Deputy 
Under Secretary of the Navy/Deputy Chief Management Officer to begin a 
comprehensive assessment of the business challenges facing the Navy and 
Marine Corps.
    The fiscal year 2015 budget request for the Navy and Marine Corps 
gives us what we need to accomplish the missions assigned in the new 
Quadrennial Defense Review and updated Defense Strategic Guidance. 
However, the funding levels allowed under the Bipartisan Budget Act 
mean that we have to accept higher levels of risk for some of those 
missions. If the Nation is confronted with a technologically advanced 
challenger, or more than one major contingency operation at a time, 
those risks would increase further. We face readiness challenges that 
are a result of sequester induced shortfalls, continuing fiscal 
constraints, and the high demand for naval forces globally.
                               conclusion
    This year we commemorate the 150th anniversary of the Battle of 
Mobile Bay. A century and a half ago our Nation was engulfed in the 
Civil War. A Task Force under the command of Admiral David Farragut, 
one of our Navy's greatest heroes, attacked the ships and forts that 
defended the port at Mobile, Alabama. Facing down Confederate Ironclads 
and a treacherous minefield in the shallow, enclosed waters, he issued 
his famous order, ``Damn the Torpedoes, full speed ahead.'' Lashed high 
in the rigging of his flagship he led the attack from the front of the 
formation to capture the last major Confederate port on the Gulf Coast.
    From the halls of Montezuma to Point Luck and the waters around 
Midway, our Sailors and Marines have demonstrate that kind of 
dedication and daring time and again. They, and our Navy and Marine 
Corps civilians, continue in that spirit today whether facing combat in 
Afghanistan, dangerous operations at sea, or the challenges created by 
the past year of budget instability. The budget request that we are 
making for fiscal year 2015, the specific details of which are included 
in the President's fiscal year 2015 budget submission, will provide 
them with the equipment, training, and resources they need to continue 
their efforts in support of our Nation's security. As our founding 
fathers outlined over two centuries ago, it is our responsibility to 
ensure that we maintain our Navy and Marine Corps.
    Today we face a dangerous and challenging world. Rising powers and 
maritime territorial conflicts threaten freedom of navigation and the 
free trade of today's global economic system. Terrorist organizations 
continue to proliferate around the world. Political instability 
threatens to break into violence in numerous regions. The Navy and 
Marine Corps are our Nation's insurance policy. Our People, Platforms, 
Power and Partnerships must be efficiently developed and appropriately 
funded to ensure our ability to provide the President with the options 
required and the American people with the security they deserve.
    For 238 years our Sailors and Marines have been there when the 
Nation called and we must endeavor to ensure that we are there for the 
future. Difficult times pose difficult questions, and the Commandant, 
CNO and I look forward to answering yours. The continued support of 
this committee is essential in ensuring the Navy and Marine Corps team 
has the resources it needs to defend our Nation now and in the future. 
As President Woodrow Wilson once said, ``A powerful Navy, we have 
always regarded as our proper and natural means of defense.''

    Senator Durbin. Thank you, Mr. Secretary.
    Admiral Greenert.
STATEMENT OF ADMIRAL JONATHAN GREENERT, CHIEF OF NAVAL 
            OPERATIONS, UNITED STATES NAVY
    Admiral Greenert. Thank you, Chairman Durbin, Vice Chairman 
Cochran, Chairwoman Mikulski, and distinguished members of the 
committee.
    I am proud to represent 633,000 sailors, Navy civilians, 
and their families, especially the 50,000 sailors deployed and 
operating forward around the globe today. The dedication and 
resilience of our people continue to amaze me, Mr. Chairman. 
And the citizens of this Nation can take pride in the daily 
contributions of their sons and daughters in places that count.
    I, too, offer my condolences to the family, friends, and 
shipmates of the sailor killed in Monday's shooting. Sailors of 
the USS Mahan and the Norfolk Naval Station family are in our 
thoughts and prayers. Also, our thoughts and prayers go out to 
the families of the deceased and those that are missing in the 
Washington State mudslide. We have shipmates and families there 
affected as well. And it has been a tough year at the Naval 
Academy. This will be our second loss for midshipmen, and we go 
out to that family. They are our shipmates as well, sir.
    I am pleased to appear this morning beside Secretary Mabus 
and General Amos. Your Navy-Marine Corps team is united in 
fulfilling our longstanding mandate to be where it matters, 
when it matters, and to be ready to respond to crises to ensure 
the stability that underpins the global economy.
    General Amos has been a great shipmate. Our synergy of 
effort of our two services has never been better, and I am 
committed to continuing that momentum.
    Secretary Mabus has provided us the vision, the guidance, 
and the judiciousness to build the finest Navy and Marine Corps 
that this Nation is willing to afford.
    Forward-presence is our mandate. We operate forward to give 
the President options to deal promptly with contingencies. As 
we conclude over a decade of wars and bring our ground forces 
home from extended stability operations, your naval forces are 
going to remain on watch.
    The chartlet in front of you, the one that says, ``Navy 
Today,'' shows today's global distribution of the deployed 
forces, as well as our bases and places that support those 
forces forward.
    [The chart follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

              Figure 1: The Navy's Forward Presence Today.

    Our efforts are focused in the Asia-Pacific and the Arabian 
Gulf, but we provide presence, and we respond as needed, in 
other theaters as well.
    Now with this forward-presence, over the last year, we were 
able to influence and shape the decisions of leaders in the 
Arabian Gulf, Northeast Asia, and the Levant. We patrolled off 
the shores of Libya, Egypt, and Sudan to protect American 
interests and to induce regional leaders to make the right 
choices.
    We relieved suffering and provided assistance and recovery 
in the Philippines in the wake of a devastating typhoon.
    Our presence dissuades aggression and coercion against our 
allies and friends in the East and the South China Seas.
    We kept piracy at bay in the Horn of Africa, and we 
continue to support operations in Afghanistan while taking the 
fight to insurgents, terrorists, and their supporting networks 
across the Middle East and Africa with our expeditionary forces 
and supporting special operations forces as well.
    The fiscal year 2014 budget will enable an acceptable 
forward-presence. Through the remainder of fiscal year 2014, we 
will be able to restore fleet training, maintenance and 
operations, and recover a substantial part of the fiscal year 
2013 backlog. And I thank the committee for their support in 
that regard.
    The President's 2015 budget submission enables us to 
continue to execute these missions, but we will face high risk 
in specific missions articulated in the defense strategic 
guidance.
    Our fiscal guidance through the FYDP (Future Years Defense 
Plan), for the President's budget 2015, is about halfway 
between the BCA caps and our President's budget 2014 plan. So 
it is still a net decrease of $31 billion when you compare it 
with President's budget 2014.
    To prepare our program within these constraints, I set the 
following six priorities: Number one, provide the sea-based 
strategic deterrent; number two, forward-presence: three, 
capability and the capacity to win decisively; four, readiness; 
five, asymmetric capabilities and maintaining our technological 
edge where it matters; and number six, sustaining a relevant 
industrial base.
    Using these priorities, we build a balanced portfolio of 
capabilities within the fiscal guidance we were provided. We 
continue to maximize our presence in the Asia-Pacific and the 
Middle East using innovative combinations of rotational, 
forward-basing, and forward-stationing of forces.
    We still face shortfalls in support ashore with a backlog 
of facilities and maintenance that erode the ability of our 
bases to support the fleet.
    We have slowed modernization in areas that are central to 
remain ahead of, or keep pace with, technologically advanced 
adversaries. So consequently, we face higher risk if we are 
confronted with a high-tech adversary, or if we attempt to 
conduct more than one multiphased major contingency 
simultaneously.
    Mr. Chairman, I am troubled by the prospect of reverting 
back to the BCA revised caps in 2016. That would lead to a navy 
that is just too small and lacking in the advanced capabilities 
that we need to execute the missions that the Nation expects of 
our Navy.
    We would be unable to execute at least 4 of the 10 primary 
missions articulated in the Defense Strategic Guidance in the 
Quadrennial Defense Review.
    Looking back at the chartlet, that is the back of the 
chartlet that had ``Navy Today,'' we laid out for you and 
provided our ability to respond to contingencies.
    [The chart follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

  Figure 2: Navy'S Projected Forward Presence in Fiscal Year 2015 and 
                            Fiscal Year 2020

    And you can see it would be dramatically reduced, limiting 
our options and decision space, and we would be compelled to 
inactivate an aircraft carrier and an air wing.
    Further, you can see our modernization and recapitalization 
will be dramatically reduced--you can see the Xs through the 
icons there--threatening readiness in our industrial base.
    Reverting to BCA caps year by year will leave our country 
less prepared to deal with crises. Our allies' trust will wane, 
and our enemies will be less inclined to be dissuaded or to be 
deterred.

                           PREPARED STATEMENT

    So, Mr. Chairman, I remain on board with the efforts to get 
the fiscal house in order. I look forward to working with this 
committee to find solutions that enable us to sustain readiness 
while building an affordable, but a relevant, future force. The 
force has to be able to address a range of threats, 
contingencies, and high-consequence events that could impact 
our core interests.
    I appreciate the opportunity to testify today, and I thank 
the committee for their previous support and their continued 
support for the Navy and families.
    I look forward to your questions.
    [The statement follows:]
            Prepared Statement of Admiral Jonathan Greenert
    Chairman Durbin, Senator Cochran, and distinguished members of the 
committee: I am honored to represent more than 600,000 active and 
reserve Sailors, Navy Civilians, and their Families, especially the 
48,000 Sailors who are underway on ships and submarines and deployed in 
expeditionary roles, around the globe today.
    As the chartlet below shows, 104 ships (36 percent of the Navy) are 
deployed around the globe protecting the Nation's interests. This is 
our mandate: To be where it matters, when it matters.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


              Figure 1: The Navy's Forward Presence Today.

    I would like to begin this statement by describing for you the 
guidance that shaped our decisions within the President's budget for 
fiscal year 2015 (PB-15) submission. I will address the Navy's 
situation following the budget uncertainty in fiscal year 2013, the 
Bipartisan Budget Act of 2013 (BBA), and the National Defense 
Authorization Act (NDAA) for fiscal year 2014. Then, I will provide 
details of our PB-15 submission.
                           strategic guidance
    The governing document for PB-15 is the 2014 Quadrennial Defense 
Review (QDR). The QDR uses the 2012 Defense Strategic Guidance (DSG) as 
a foundation and builds on it to describe the Department of Defense's 
role in protecting and advancing U.S. interests and sustaining American 
leadership. The DSG and its 10 Primary Missions of the U.S. Armed 
Forces have guided Navy's planning for the past 2 years. Validated by 
the QDR, those missions remain the baseline against which I measure our 
posture in various fiscal scenarios. Also, 2020 is the benchmark year 
identified by the DSG, and that remains the timeframe on which my 
assessments are focused.
    The QDR's updated strategy is built on three pillars: Protect the 
Homeland, Build Security Globally, and Project Power and Win 
Decisively. In support of these, it requires the Navy to ``continue to 
build a future fleet that is able to deliver the required presence and 
capabilities and address the most important warfighting scenarios.''
    In order to improve its ability to meet the Nation's security needs 
in a time of increased fiscal constraint, the QDR also calls for the 
Joint Force to ``rebalance'' in four key areas: (1) rebalancing for a 
broad spectrum of conflict; (2) rebalancing and sustaining our presence 
and posture abroad; (3) rebalancing capability, capacity, and readiness 
within the Joint Force; and (4) rebalancing tooth and tail. To satisfy 
these mandates of the QDR strategy, the Navy has been compelled to make 
tough choices between capability and capacity, cost and risk, and to do 
so across a wide range of competing priorities. Our fundamental 
approach to these choices has not changed since I assumed this 
position. We continue to view each decision through the lens of the 
tenets I established when I took office: Warfighting First, Operate 
Forward, Be Ready.
                                overview
    When I appeared before the Senate Armed Services Committee in 
November 2013, I testified that adherence to the Budget Control Act of 
2011 (BCA) revised discretionary caps, over the long term, would result 
in a smaller and less capable Navy. That Navy would leave us with 
insufficient capability and capacity to execute at least 4 of the 10 
primary missions required by the DSG.
    Passage of the BBA and the topline it sets for fiscal year 2015, 
together with the fiscal guidance provided for this submission provide 
a level of funding for the Navy that is $36 billion above the estimated 
BCA revised discretionary caps across the fiscal year 2015 to fiscal 
year 2019 Future Years Defense Plan (FYDP). That funding level is still 
$31 billion below the level planned for in our PB-14 submission. 
Accordingly, the Navy PB-15 program reduces risk in most DSG primary 
missions when compared to a BCA cap scenario, but we still face higher 
risk in at least two primary missions compared to PB-14. This high risk 
is most likely to manifest if we are faced with a technologically 
advanced adversary, or if we attempt to conduct more than one 
multiphased major contingency simultaneously.
    In the PB-15 submission, we assess that the Navy of 2020 will:
  --Include 308 ships in the Battle Force,\1\ of which about 123 will 
        be deployed. This global deployed presence will include more 
        than two carrier strike groups (CSG) and two amphibious ready 
        groups (ARG) deployed, on average. It is similar to the 
        presence provided by PB-14.
---------------------------------------------------------------------------
    \1\ It should be noted that the Department of the Navy revised 
guidelines for accounting for the size of the Navy's Battle Force. 
Therefore, numbers in this statement are not directly comparable to 
those used in prior testimony. Changes to guidelines include clarifying 
the accounting for smaller, forward deployed ships (e.g. patrol 
coastal, mine countermeasures ships, high speed transports) and ships 
routinely requested by Combatant Commanders (e.g., hospital ships). The 
following illustrates the differences between new and old Battle Force 
accounting guidelines: PB-15 New Guidelines--Today: 290; Fiscal year 
2015: 284; Fiscal year 2020: 308. PB-15 Old Guidelines--Today: 284; 
Fiscal year 2015: 274; Fiscal year 2020: 302.<greek-l>

----------------------------------------------------------------------------------------------------------------
                                                                             Fiscal year  Fiscal year
                                                                   Today         2015         2020
-----------------------------------------------------------------------------------------------------
PB-15: New Guidelines.........................................          290          284          308
PB-15: Old Guidelines.........................................          284          274          302
----------------------------------------------------------------------------------------------------------------

 deg.  --Provide ``surge'' capacity of about three CSG and three ARG, 
        not deployed, but ready to respond to a contingency.
  --Deliver ready forces to conduct the DSG primary mission Deter and 
        Defeat Aggression, but with less margin for error or ability to 
        respond to unforeseen or emergent circumstances, compared to 
        PB-14.
  --Conduct, but with greater risk, the DSG primary mission Project 
        Power Despite Anti-Access/Area Denial (A2/AD) Challenges 
        against a technologically advanced adversary compared to PB-14. 
        This is principally due to slower delivery of new critical 
        capabilities, particularly in air and missile defense, and 
        overall ordnance capacity.
  --Provide increased ship presence in the Asia-Pacific region of about 
        67 ships, up from about 50 on average today; presence in the 
        Middle East will likewise increase from about 30 ships on 
        average today to about 41 in 2020. These are both similar to 
        the levels provided by PB-14.
    In order to ensure the Navy remains a balanced and ready force 
while complying with the reduction in funding below our PB-14 plan, we 
were compelled to make difficult choices in PB-15, including slowing 
cost growth in compensation and benefits, maintaining the option to 
refuel or inactivate one nuclear aircraft carrier (CVN) and a carrier 
air wing (CVW), inducting 11 guided missile cruisers (CG) and three 
dock landing ships (LSD) into a phased modernization period, canceling 
procurement of 79 aircraft, canceling 3,500 planned weapons 
procurements, and reducing funding for base facilities sustainment, 
restoration, and modernization.
    Additional challenges are on the horizon. In the long term beyond 
2019 (the end of the PB-15 FYDP), I am increasingly concerned about our 
ability to fund the Ohio Replacement ballistic missile submarine (SSBN) 
program--our highest priority program--within our current and projected 
resources. The Navy cannot procure the Ohio Replacement in the 2020s 
within historical shipbuilding funding levels without severely 
impacting other Navy programs.
                           where we are today
    Before describing our fiscal year 2015 submission in detail, I will 
discuss the Navy's current posture, which established the baseline for 
our PB-15 submission.
    The impact of the continuing resolution and sequestration 
reductions in fiscal year 2013 compelled us to reduce afloat and shore 
operations, which created an afloat and shore maintenance and training 
backlog. We were able to mitigate some of the effects of this backlog 
through reprogramming funds in fiscal year 2013 and Congressional 
action in fiscal year 2014 to restore some funding. Impact to Navy 
programs, caused by the combination of sequestration and a continuing 
resolution in fiscal year 2013 included:
  --Cancellation of five ship deployments and delay of a carrier strike 
        group (CSG) deployment.
  --Inactivation, instead of repair, of USS Miami beginning in 
        September 2013.
  --Reduction of facilities sustainment by about 30 percent (to about 
        57 percent of the requirement).
  --Reduction of base operations, including port and airfield 
        operations, by about 8 percent (to about 90 percent of the 
        requirement).
  --Furlough of civilian employees for 6 days.
    Shortfalls caused by fiscal year 2013 sequestration still remain in 
a number of areas. Shipbuilding programs experienced $1 billion in 
shortfalls in fiscal year 2013, which were partially mitigated with 
support from Congress to reprogram funds and by fiscal year 2014 
appropriations. PB-15 requests funding to remedy the remaining $515 
million in shipbuilding shortfalls. Funding to mitigate (but not enough 
to completely reconcile) other carryover shortfalls that remain in 
areas such as facilities maintenance, fleet spares, aviation depots, 
and weapons maintenance is requested in the Opportunity, Growth and 
Security (OGS) Initiative submitted to Congress with PB-15.
    In fiscal year 2014, Congress's passage of the BBA and subsequent 
appropriations averted about $9 billion of the estimated $14 billion 
reduction we would have faced under sequestration. As a result:
  --We are able to fully fund our fiscal year 2014 shipbuilding plan of 
        eight ships.
  --We are able to protect research, development, testing, and 
        evaluation (RDT&E) funding to keep the Ohio Replacement 
        Program--our top priority program--on track.
  --We are able to fund all Navy aircraft planned for procurement in 
        fiscal year 2014.
    In our readiness programs, $39 billion of the $40 billion 
requirement was funded, enabling us to:
  --Fund all ship maintenance.
  --Fund all required aviation depot maintenance.
  --Fully fund ship and aircraft operations.
    The remaining $5 billion shortfall below our PB-14 request includes 
about $1 billion in operations and maintenance accounts and about $4 
billion in investment accounts. To deal with this shortfall, in the 
area of operations and maintenance we are aggressively pursuing 
contracting efficiencies in: Facilities sustainment projects, aviation 
logistics, and ship maintenance. To address the remaining investment 
shortages, we are compelled to reduce procurement of weapons and spare 
parts, to extend timelines for research and development projects, and 
to defer procurement of support equipment for the fleet.
                     our strategic approach: pb-15
    In developing our PB-15 submission, we evaluated the warfighting 
requirements to execute the primary missions of the DSG. These were 
informed by current and projected threats, global presence requirements 
defined by the Global Force Management Allocation Plan (GFMAP), and 
warfighting scenarios described in the Combatant Commanders' 
operational plans and Secretary of Defense-approved Defense Planning 
Scenarios (DPS). To arrive at a balanced program within fiscal 
guidance, we focused first on building appropriate capability, then 
delivering it at a capacity we could afford. Six programmatic 
priorities guided us:
    First, maintain a credible, modern, and survivable sea-based 
strategic deterrent. Under the New START Treaty (New Strategic Arms 
Reduction Treaty), the Navy SSBN force will carry about 70 percent of 
the U.S. accountable deployed strategic nuclear warheads by 2020. Our 
PB-15 request sustains today's 14-ship SSBN force, the Trident D5 
ballistic missile and support systems, and the Nuclear Command, 
Control, and Communications (NC3) system. The Ohio-class SSBN will 
retire, one per year, beginning in 2027. To continue to meet U.S. 
Strategic Command presence and surge requirements, PB-15 starts 
construction of the first Ohio Replacement SSBN in 2021 for delivery in 
2028 and first deterrent patrol in 2031.
    Second, sustain forward presence of ready forces distributed 
globally to be where it matters, when it matters. We will utilize cost-
effective approaches such as forward basing, forward operating, and 
forward stationing ships in the Asia-Pacific, Europe, and the Middle 
East. Rotational deployments will be stabilized and more predictable 
through implementation of an improved deployment framework we call the 
Optimized Fleet Response Plan (O-FRP). We will distribute our ships to 
align mission and capabilities to global region, ensuring high-end 
combatants are allocated where their unique capabilities are needed 
most. We will meet the adjudicated fiscal year 2015 Global Force 
Management Allocation Plan (GFMAP); however, this represents only 44 
percent of the global Geographic Combatant Commander (GCC) requests. 
Sourcing all GCC requests would require about 450 combatant ships with 
requisite supporting structure and readiness.
    Third, preserve the means (capability and capacity) to both win 
decisively in one multiphase contingency operation and deny the 
objectives of--or impose unacceptable costs on--another aggressor in 
another region. In the context of relevant warfighting scenarios, we 
assessed our ability to provide more than 50 end-to-end capabilities, 
also known as ``kill chains'' or ``effects chains.'' Each chain 
identifies all elements needed to provide a whole capability, including 
sensors, communications and networks, operators, platforms, and 
weapons. PB-15 prioritizes investments to close gaps in critical kill 
chains, and accepts risk in capacity or in the rate at which some 
capabilities are integrated into the Fleet.
    Fourth, focus on critical afloat and ashore readiness to ensure 
``the force'' is adequately funded and ready. PB-15 (compared to a BCA 
revised caps level) improves our ability to respond to contingencies 
(``surge'' capacity) by increasing the readiness of non-deployed 
forces. However, it increases risk to ashore readiness in fiscal year 
2015, compared to PB-14, by reducing facilities sustainment, 
restoration, and modernization (FSRM) and military construction 
(MILCON) investments. This reduction adds to backlogs created by the 
deferrals in fiscal year 2013 and fiscal year 2014, exacerbating an 
existing readiness problem.
    Fifth, sustain or enhance the Navy's asymmetric capabilities in the 
physical domains as well in cyberspace and the electromagnetic 
spectrum. Our fiscal year 2015 program prioritizes capabilities to 
remain ahead of or keep pace with adversary threats, including 
electromagnetic spectrum and cyber capabilities and those capabilities 
that provide joint assured access developed in concert with other 
Services under Air-Sea Battle. Our program terminates certain 
capability programs that do not provide high-leverage advantage, and 
slows funding for those that assume too much technical risk or could be 
developed and ``put on the shelf'' until needed in the future.
    Sixth, sustain a relevant industrial base, particularly in 
shipbuilding. We will continue to evaluate the impact of our investment 
plans on our industrial base, including ship and aircraft builders, 
depot maintenance facilities, equipment and weapons manufacturers, and 
science and technology researchers. The government is the only customer 
for some of our suppliers, especially in specialized areas such as 
nuclear power. PB-15 addresses the health of the industrial base 
sustaining adequate capacity, including competition, where needed and 
viable. We will work closely with our industry partners to manage the 
risk of any further budget reductions.
    Stewardship Initiatives.--Another important element of our approach 
in PB-15 included business transformation initiatives and headquarters 
reductions to comply with Secretary of Defense (SECDEF) direction. In 
order to maximize warfighting capability and capacity, the Department 
of the Navy achieved approximately $20 billion in savings across the 
PB-15 FYDP through a collection of business transformation initiatives. 
These can be grouped into four major categories: (1) more effective use 
of operating resources (about $2.5 billion over the FYDP); (2) 
contractual services reductions (about $14.8 billion FYDP); (3) Better 
Buying Power (BBP) in procurement (about $2.7 billion FYDP); and (4) 
more efficient research and development (about $200 million FYDP). 
These initiatives build on Navy and Department of Defense (DOD) 
initiatives that date back to 2009 and represent our continuing 
commitment to be good stewards of taxpayer dollars.
    Our PB-15 request also achieves savings through significant 
headquarters reductions, placing us on track to meet the 20-percent 
reduction by fiscal year 2019 required by SECDEF fiscal guidance. We 
applied reductions to a broader definition of headquarters than 
directed, achieving a savings of $33 million in fiscal year 2015 and 
$873 million over the FYDP from reductions in military, civilian, and 
contractor personnel. In making these reductions, we protected fleet 
operational warfighting headquarters and took larger reductions in 
other staffs.
                             what we can do
    As described earlier, PB-15 represents some improvement over a 
program at the BCA revised caps, but in PB-15 we will still face high 
risk in executing at least two of the ten primary missions of the DSG 
in 2020. The 2012 Force Structure Assessment \2\ (FSA) and other Navy 
analysis describe the baseline of ships needed to support meeting each 
of the 10 missions required by the DSG. Against that baseline and our 
``kill chain'' analysis described earlier, we assess that under PB-15 
the Navy of 2020 supports each of the ten DSG missions as follows:
---------------------------------------------------------------------------
    \2\ Consistent with other ``ship counts'' in this statement, the 
regional presence numbers described in this section are not directly 
comparable to those used in previous years due to the Battle Force 
counting guidelines revision.
---------------------------------------------------------------------------
    1. Provide a Stabilizing Presence.--Our PB-15 submission will meet 
the adjudicated presence requirements of the DSG. By increasing the 
number of ships forward stationed and forward based, PB-15 in some 
regions improves global presence as compared to our PB-14 submission. 
The Navy of 2020:
  --Provides global presence of about 123 ships, similar to the 
        aggregate number planned under PB-14.
  --Increases presence in the Asia-Pacific from about 50 ships today on 
        average to about 67 in 2020 on average, a greater increase than 
        planned under PB-14.
  --``Places a premium on U.S. military presence in--and in support 
        of--partner nations'' in the Middle East, by increasing 
        presence from about 30 ships \3\ today on average to about 41 
        on average in 2020.
---------------------------------------------------------------------------
    \3\ Under revised Battle Force accounting guidelines, the Middle 
East presence today now includes eight patrol coastal (PC) ships 
forward based in Bahrain; the number will increase to 10 in fiscal year 
2014. PC were not counted previously before the revision.
---------------------------------------------------------------------------
  --Continues to ``evolve our posture'' in Europe by meeting ballistic 
        missile defense (BMD) European Phased Adaptive Approach (EPAA) 
        requirements with four BMD-capable guided missile destroyers 
        (DDG) in Rota, Spain and two land-based sites in Poland and 
        Romania. The first of these DDG, USS Donald Cook, arrived in 
        February 2014 and all four will be in place by the end of 
        fiscal year 2015. Additional presence in Europe will be 
        provided by forward operating joint high speed vessels (JHSV) 
        and some rotationally deployed ships.
  --Will provide ``innovative, low-cost and small-footprint 
        approaches'' to security in Africa and South America by 
        deploying one JHSV, on average, to each region. Beginning in 
        fiscal year 2015, we will deploy one hospital ship (T-AH), on 
        average, and, beginning in fiscal year 2016, add one patrol 
        coastal (PC) ship, on average, to South America. Afloat forward 
        staging bases (AFSB) forward operating in the Middle East will 
        also provide additional presence in Africa as required.
    2. Counter Terrorism and Irregular Warfare (CT/IW).--We will have 
the capacity to conduct widely distributed CT/IW missions. This mission 
requires Special Operations Forces, expeditionary capabilities such as 
Intelligence Exploitation Teams (IET), and specialized platforms such 
as two AFSB and four littoral combat ships (LCS) with embarked MH-60 
Seahawk helicopters and MQ-8 Fire Scout unmanned air vehicles. PB-15 
adds capacity for this mission by procuring a third mobile landing 
platform (MLP) AFSB variant in fiscal year 2017 for delivery in fiscal 
year 2020.
    3. Deter and Defeat Aggression.--FSA analysis described the ship 
force structure required to meet this mission's requirement: to be able 
to conduct one large-scale operation and ``simultaneously be capable of 
denying the objectives of--or imposing unacceptable costs on--an 
opportunistic aggressor in a second region.'' According to the FSA, the 
Navy has a requirement for a force of 11 CVN, 88 large surface 
combatants (DDG and CG), 48 attack submarines (SSN), 11 large 
amphibious assault ships (LHA/D), 11 amphibious transport docks (LPD), 
11 LSD, 52 small surface combatants (collectively: LCS, frigates, mine 
countermeasure ships) and 29 combat logistics force (CLF) ships. This 
globally distributed force will yield a steady state deployed presence 
of more than two CSG and two amphibious ready groups (ARG), with three 
CSG and three ARG ready to deploy in response to a contingency 
(``surge''). The Navy of 2020 delivered by PB-15, however, will be 
smaller than the calculated requirement in terms of large surface 
combatants, LHA/D, and small surface combatants. This force structure 
capacity provides less margin for error and reduced options in certain 
scenarios and increases risk in this primary mission. If we return to a 
BCA revised caps funding level in fiscal year 2016, the situation would 
be even worse. We would be compelled to inactivate a CVN and CVW and to 
reduce readiness and other force structure to ensure we maintain a 
balanced, ready force under the reduced fiscal topline. As in the BCA 
revised caps scenario I described previously, these reductions would 
leave us with a Navy that is capable of one multiphase contingency. 
Under these circumstances, we would not meet this key DSG mission.
    4. Conduct Stability and Counterinsurgency Operations.--The Navy of 
2020 will be able to meet the requirements of this DSG mission.
    5. Project Power Despite Anti-Access/Area-Denial (A2/AD) 
Challenges.--Compared to PB-14, our overall power projection capability 
development would slow, reducing options and increasing our risk in 
assuring access. The reduced procurement of weapons and slowing of air 
and missile defense capabilities, coupled with joint force deficiencies 
in wartime information transport and airborne intelligence, 
surveillance, and reconnaissance (ISR), will cause us to assume high 
risk in conducting this DSG mission if we are facing a technologically 
advanced adversary. PB-15 makes results in the following changes to air 
and missile defense capabilities (versus PB-14):
  --The Navy Integrated Fire Control-Counter Air (NIFC-CA) Increment I 
        capability will still field (with the E-2D Advanced Hawkeye 
        aircraft) in 2015, but only four air wings (versus six in PB-
        14) will have transitioned to the E-2D by 2020. Fewer air wings 
        with E-2D translates to less assured joint access. NIFC-CA 
        Increment I integrates aircraft sensor and ship weapon 
        capabilities, improving lethality against advanced air and 
        missile threats.
  --The F-35C Lightning II, the carrier-based variant of the Joint 
        Strike Fighter, is scheduled to achieve Initial Operational 
        Capability (IOC) between August 2018 and February 2019. 
        However, our F-35C procurement will be reduced by 33 airframes 
        in the PB-15 FYDP when compared to PB-14. The F-35C, with its 
        advanced sensors, data sharing capability, and ability to 
        operate closer to threats, is designed to enhance the CVW's 
        ability to find targets and coordinate attacks. The impact of 
        this reduced capacity would manifest itself particularly 
        outside the FYDP, and after F-35C IOC.
  --All components of an improved air-to-air kill chain that employs 
        infrared (IR) sensors to circumvent adversary radar jamming 
        will be delayed 1 year. The Infrared Search and Track (IRST) 
        Block I sensor system will field in 2017 (versus 2016) and the 
        improved longer-range IRST Block II will not deliver until 2019 
        (versus 2018).
  --Improvements to the air-to-air radio frequency (RF) kill chain that 
        defeats enemy jamming and operates at longer ranges will be 
        slowed, and jamming protection upgrades to the F/A-18E/F Super 
        Hornet will be delayed to 2019 (versus 2018).
    However, PB-15 sustains our advantage in the undersea domain by 
delivering the following capabilities:
  --PB-15 procures 56 P-8A Poseidon maritime patrol aircraft over the 
        FYDP, replacing the legacy P-3C Orion's capability.
  --Continues to procure two Virginia-class SSN per year through the 
        FYDP, resulting in an inventory of 21 Virginia-class (of 48 
        total SSN) by 2020.
  --Continues installation of anti-submarine warfare (ASW) combat 
        system upgrades for DDG and improved Multi-Function Towed 
        Arrays (MFTA) for DDG and CG. Both installations will be 
        complete on all DDG forward based in the Western Pacific by 
        2018.
  --All of our P-8A and ASW helicopters in the Western Pacific will 
        still be equipped with upgraded sonobuoys and advanced 
        torpedoes by 2018.
  --The LCS mine countermeasures (MCM) mission package, which employs 
        unmanned vehicles and offboard sensors to localize and 
        neutralize mines, will complete testing of its first increment 
        in 2015 and deploy to the Arabian Gulf with full operational 
        capability by 2019.
  --The LCS ASW mission package, which improves surface ASW capability 
        by employing a MFTA in concert with a variable depth sonar 
        (VDS), will still field in 2016.
  --Additional Mk 48 Advanced Capability (ADCAP) heavyweight torpedoes, 
        restarting the production line and procuring 105 Mod 7 
        torpedoes across the FYDP. The restart will also provide a 
        basis for future capability upgrades.
    6. Counter Weapons of Mass Destruction.--This mission has two 
parts: (1) interdicting weapons of mass destruction as they proliferate 
from suppliers; and (2) defeating the means of delivery during an 
attack. PB-15 will meet requirements for this mission by providing 
sufficient deployed CSG, ARG, and surface combatants, as well as SEAL 
and EOD platoons, to address the first part. For the second part, BMD-
capable DDG exist in sufficient numbers to meet adjudicated GCC 
presence requirements under the GFMAP, and can be postured to counter 
weapons delivered by ballistic missiles in regions where threats are 
more likely to emanate. That said, missile defense capacity in some 
scenarios remains a challenge and any reduction in the number of BMD-
capable DDG raises risk in this area.
    7. Operate Effectively in Space and Cyberspace.--Our PB-15 
submission continues to place priority on cyber defense and efforts to 
build the Navy's portion of the Department of Defense's Cyber Mission 
Forces. Continuing PB-14 initiatives, PB-15 will recruit, hire, and 
train 976 additional cyber operators and form 40 cyber mission teams by 
2016. Additionally, we will align Navy networks with a more defensible 
DOD Joint Information Environment (JIE) through the implementation of 
the Next Generation Enterprise Network (NGEN) ashore and Consolidated 
Afloat Networks and Enterprise Services (CANES) at sea.
    8. Maintain a Safe, Secure, and Effective Nuclear Deterrent.--This 
mission is the Navy's top priority in any fiscal scenario, and our PB-
15 submission will meet its requirements. It satisfies STRATCOM demand 
for SSBN availability through the end of the current Ohio class' 
service life. Additionally, our PB-15 submission funds Nuclear Command, 
Control, and Communications (NC3) modernization and the Trident D5 
ballistic missile Life Extension Program (LEP) while sustaining the 
fleet of E-6B Mercury Take Charge and Move Out (TACAMO) aircraft.
    9. Defend the Homeland and Provide Support to Civil Authorities.--
PB-15 will maintain an appropriate capacity of aircraft carriers, 
surface combatants, amphibious ships, and aircraft that are not 
deployed and are ready for all homeland defense missions.
    10. Conduct Humanitarian, Disaster Relief, and Other Operations.--
Our analysis determined that a global presence of two ARG and nine JHSV 
is sufficient to conduct these operations. Our PB-15 submission will 
support this level of presence.
     manpower, modernization, warfighting capability, and readiness
    The following paragraphs describe more specific PB-15 programs 
actions that result from our strategic approach and influence our 
ability to conduct the missions required by the DSG:
    End Strength.--PB-15 supports a fiscal year 2015 Navy active end 
strength of 323,600, and reserve end strength of 57,300. It 
appropriately balances risk, preserves capabilities to meet current 
Navy and Joint requirements, fosters growth in required mission areas, 
and provides support to Sailors, Navy Civilians and Families. We 
adjusted both Active and Reserve end strength to balance available 
resources utilizing a Total Force approach. PB-15 end strength remains 
fairly stable across the FYDP, reaching approximately 323,200 Active 
and 58,800 Reserve in fiscal year 2019.
    Shipbuilding.--Our PB-15 shipbuilding plan combines the production 
of proven platforms with the introduction of innovative and cost 
effective platforms in order to preserve capacity while enhancing 
capability. Simultaneously, we will sustain efforts to develop new 
payloads that will further enhance the lethality and effectiveness of 
existing platforms and continue mid-life modernizations and upgrades to 
ensure their continued relevance. We will continue to field flexible, 
affordable platforms like AFSB and auxiliary ships that operate forward 
with a mix of rotational civilian and military crews and provide 
additional presence capacity for certain missions requiring 
flexibility, volume, and persistence. PB-15 proposes:
  --Funding for 14 LCS across the FYDP (three per year in fiscal year 
        2015-2018 and two in fiscal year 2019). However, in accordance 
        with SECDEF direction, we will cease contract negotiations 
        after we reach a total of 32 ships (12 procured in the PB-15 
        FYDP). Per direction, we will assess LCS's characteristics such 
        as lethality and survivability, and we are studying options for 
        a follow-on small surface combatant, and follow on flight of 
        LCS.
  --Two Virginia-class SSN per year, maintaining the planned 10-ship 
        Block IV multiyear procurement (fiscal year 2014-fiscal year 
        2018).
  --Two Arleigh Burke-class DDG per year, maintaining the 10-ship 
        multiyear procurement (fiscal year 2013-2017). PB-15 procures 
        10 DDG (three Flight IIA and seven Flight III) in the FYDP. The 
        first Flight III DDG, which will incorporate the advanced Air 
        and Missile Defense Radar (AMDR), will be procured in fiscal 
        year 2016 and delivered in fiscal year 2021.
  --An additional AFSB variant of the Montford Point-class MLP in 
        fiscal year 2017. This AFSB will deliver in fiscal year 2020 
        and will forward operate in the Asia-Pacific region.
  --Three T-AO(X) fleet oilers (in fiscal year 2016, 2018, and 2019, 
        respectively).
  --Advanced procurement requested in fiscal year 2019 to procure one 
        LX(R) amphibious ship replacement in fiscal year 2020.
    Additionally, to comply with fiscal constraints, our PB-15 
submission delays delivery of the second Ford-class CVN, USS John F. 
Kennedy (CVN 79) from fiscal year 2022 to fiscal year 2023.
    Aviation.--PB-15 continues our transition to the Future Carrier Air 
Wing, which will employ manned and unmanned systems to achieve air, 
sea, and undersea superiority across capability ``kill chains.'' We 
will also continue to field more advanced land-based maritime patrol 
aircraft (manned and unmanned) to evolve and expand our ISR, ASW, and 
sea control capabilities and capacity. To further these objectives 
while complying with fiscal constraints, PB-15:
  --Continues plans to transition the F/A-18E/F Super Hornet fleet from 
        production to sustainment with the final 37 aircraft procured 
        in fiscal year 2013 and scheduled for delivery in fiscal year 
        2015. Likewise, the final EA-18G Growler electronic warfare 
        aircraft will be procured in fiscal year 2014 and delivered in 
        fiscal year 2016. We are forced to assume the risk of moving to 
        a single strike fighter prime contractor due to fiscal 
        constraints.
  --Maintains IOC of the F-35C Lightning II between August 2018 and 
        February 2019. However, due to fiscal constraints, we were 
        compelled to reduce F-35C procurement by 33 airframes across 
        the FYDP.
  --Maintains initial fielding of the E-2D Advanced Hawkeye and its 
        NIFC-CA capability in fiscal year 2015. Due to fiscal 
        constraints, we were compelled to reduce procurement by 10 
        airframes over the FYDP with four CVW completing transition to 
        the E-2D by 2020, versus the preferred six in PB-14.
  --Continues development of the Unmanned Carrier Launch Surveillance 
        and Strike System (UCLASS), a major step forward in achieving 
        integration of manned and unmanned systems within the CVW. 
        UCLASS remains on a path to achieve Early Operational 
        Capability (EOC) within 4 to 5 years of contract award, which 
        is projected for fiscal year 2015.
  --Continues to transition to the P-8A Poseidon maritime patrol 
        aircraft from the legacy P-3C Orion. However, we were compelled 
        by fiscal constraints to lower the final P-8A inventory 
        objective from 117 to 109 aircraft. The warfighting requirement 
        remains 117, but we can only afford 109.
  --Continues development of the MQ-4C Triton land-based unmanned ISR 
        aircraft. However, technical issues delayed the low-rate 
        initial production decision from fiscal year 2015 to fiscal 
        year 2016. Together with fiscal constraints, this reduces 
        procurement of MQ-4C air vehicles in the FYDP from 23 to 16. 
        Triton will make its first deployment to the Pacific in fiscal 
        year 2017. The multi-INT version will start fielding in 2020.
  --Aligns the MQ-8 Fire Scout ship-based unmanned helicopter program 
        to LCS deliveries. Fiscal constraints and global force 
        management (GFM) demands on our surface combatants compelled us 
        to remove options to conduct dedicated ISR support to Special 
        Operations Forces (SOF) from DDG and JHSV, but Fire Scout-
        equipped LCS can be allocated to Combatant Commanders by the 
        GFM process to support this mission. This decision reduces 
        procurement of MQ-8 air vehicles across the FYDP by 19.
  --Continues our maritime Intelligence, Surveillance, Reconnaissance, 
        and Targeting (ISR&T) transition plan to deliver increased ISR 
        persistence by the end of fiscal year 2018 and exceed the 
        aggregate capability and capacity of our legacy platforms by 
        the end of fiscal year 2020. However, as we transition from 
        legacy platforms like the EP-3E Aries II, fiscal constraints 
        will compel us to take moderate risk in some collection 
        capabilities over the next few years.
    Modernization.--In parallel with recapitalization, PB-15 continues 
modernization of in-service platforms. Flight I and II of the Arleigh 
Burke-class DDG began mid-life modernization in fiscal year 2010, and 
will continue at the rate of 2 hulls per year (on average) through 
fiscal year 2016. In fiscal year 2017, we will begin to modernize 
Flight IIA DDG in parallel with Flight I and II in order to do so 
closer to the midpoint in the Flight IIA's service lives and increase 
return on investment. This will also increase operational availability 
and BMD capacity sooner than a serial, ``oldest-first'' plan. Nine of 
twelve Whidbey Island-class LSD have undergone a mid-life update and 
preservation program, and seven Wasp-class large deck amphibious 
assault ships (LHD) will complete mid-life modernization by fiscal year 
2022. Modernization of the 8th LHD, USS Makin Island will be addressed 
in subsequent budget submissions.
    The Navy's budget must also include sufficient readiness, 
capability and manpower to complement the force structure capacity of 
ships and aircraft. This balance must be maintained to ensure each unit 
will be effective, no matter what the overall size and capacity of the 
Fleet. To preserve this balance and modernize cruisers while avoiding a 
permanent loss of force structure and requisite ``ship years,'' PB-15 
proposes to induct 11 Ticonderoga-class CG into a phased modernization 
period starting in fiscal year 2015. Only fiscal constraints compel us 
to take this course of action; CG global presence is an enduring need. 
The ships will be inducted into phased modernization and timed to align 
with the retirements of CG such that the modernized ships will replace 
one-for-one, when they finish modernization. This innovative plan 
permits us to reapply the CG manpower to other manning shortfalls while 
simultaneously avoiding the operating costs for these ships while they 
undergo maintenance and modernization. The plan to modernize and retain 
the CG adds 137 operational ``ship years'' to the Battle Force and it 
extends the presence of the Ticonderoga class in the Battle Force to 58 
years. It avoids approximately $2.2 billion in operating and 
maintenance costs across the FYDP for 11 CG. In addition, it precludes 
Navy having to increase our overall end strength by about 3,400 people 
(approximately $1.6 billion over the FYDP), which would otherwise be 
required to fill critical shortfalls in our training pipelines and 
fleet manning.
    PB-15 also proposes to induct three Whidbey Island-class LSD into 
phased modernization availabilities on a ``rolling basis'' beginning in 
fiscal year 2016, with two of the three always remaining in service. 
Similar to the CG plan, the LSD plan avoids approximately $128 million 
across the FYDP in operating and maintenance and an end strength 
increase of approximately 300 people (approximately $110 million over 
the FYDP) for the one LSD that will be in this category during the PB-
15 FYDP. This plan adds 35 operational ``ship years'' and sustains the 
presence of the Whidbey Island class in the Battle Force through 2038.
    We appreciate the additional funding and expanded timeframe given 
by Congress for modernizing and operating the LSD and CG proposed for 
permanent inactivation in PB-13. Consistent with the spirit of 
Congressional action, we are committed to a phased modernization of 
these nine ships, plus an additional four CG and one LSD. However, 
funding constraints still make us unable to keep all of these ships 
operational in every year, in the near term. While we would prefer to 
retain all LSD and CG deployable through the FYDP, a balanced portfolio 
under current fiscal constraints precludes this.
    To mitigate a projected future shortfall in our strike fighter 
inventory while integrating the F-35C, PB-15 continues the Service Life 
Extension Program (SLEP) for the legacy F/A-18A-D Hornet. With SLEP 
modifications, some of these aircraft will achieve as much as 10,000 
lifetime flight hours, or 4,000 hours and 16 years beyond their 
originally designed life.
    Electromagnetic Maneuver Warfare. In addition to the actions 
described earlier in the statement to improve air and missile defense 
and sustain our advantage in the undersea and information domains, our 
program enhances our ability to maneuver freely in the electromagnetic 
spectrum, while denying adversaries' ability to do the same. It 
maintains our investment in the Ships' Signals Exploitation Equipment 
(SSEE) Increment F, which equips ships with a robust capability to 
interdict the communications and targeting elements of adversary kill 
chains by 2020. It delivers upgraded electromagnetic sensing 
capabilities for surface ships via the Surface Electronic Warfare 
Improvement Program (SEWIP) Block 2 that will deliver in 2016. PB-15 
then begins low rate initial production (LRIP) of SEWIP Block 3 in 2017 
to add jamming and deception capabilities to counter advanced anti-ship 
cruise missiles. To enhance CVW capabilities to jam enemy radars and 
conduct other forms of electromagnetic spectrum maneuver warfare, PB-15 
maintains our investments in the Next Generation Jammer (NGJ). NGJ will 
provide the EA-18G Growler with enhanced Airborne Electronic Attack 
(AEA) capabilities for conventional and irregular warfare. The current 
ALQ-99 jammer, which has been the workhorse of the fleet for more than 
40 years, will not be able to meet all requirements in challenging 
future environments.
    Mine Warfare. Mines are a low-cost, asymmetric weapon that can be 
effective in denying U.S. forces access to contested areas. To enhance 
our ability to counter mines in the Middle East and other theaters, our 
PB-15 program sustains investments in the LCS mine countermeasures 
(MCM) mission package, completing initial testing of its first 
increment in 2015 and achieving full operational capability in 2019. 
With these packages installed, LCS will locate mines at twice the rate 
our existing MCM ships can achieve, while keeping the LCS and its crew 
outside the mine danger area. LCS also has significantly greater on-
station endurance and self-defense capability than existing MCM. PB-15 
sustains our interim AFSB, USS Ponce, in service until fiscal year 
2016. USS Ponce provides forward logistics support and command and 
control to MCM ships and helicopters, allowing them to remain on 
station longer and sustain a more rapid mine clearance rate. In the 
near-term, PB-15 continues funding for Mk 18 Kingfish unmanned 
underwater vehicles (UUV) and Sea Fox mine neutralization systems 
deployed to the Arabian Gulf today, as well as increased maintenance 
and manning for Avenger-class MCM ships forward based in Bahrain.
    Precision Strike.--Our precision strike capabilities and capacity 
will be critical to success in any foreseeable future conflict. 
Accordingly, PB-15 funds research and development for the Virginia 
Payload Module (VPM) through fiscal year 2018 to increase Virginia-
class SSN Tomahawk missile capacity from 12 to 40 missiles, mitigating 
the loss of capacity as Ohio-class guided missile submarines (SSGN) 
begin to retire in 2026. These efforts will support the option to 
procure the VPM with Block V of the Virginia class, as early as fiscal 
year 2019, in a future budget. Also in support of strike capacity, PB-
15 sustains the existing Tactical Tomahawk cruise missile inventory by 
extending service life through investments in critical capability 
enhancements and vital parts to achieve maximum longevity. To develop a 
follow-on weapon to replace Tactical Tomahawk when it leaves service, 
PB-15 commences an analysis of alternatives (AoA) in fiscal year 2015 
for planned introduction in the 2024-2028 timeframe. Also, our program 
enhances CVW precision strike capabilities by integrating the Small 
Diameter Bomb II (SDB II) on the F/A-18 by 2019.
    Anti-Surface Warfare.--To pace improvements in adversaries' long-
range anti-ship cruise missiles and maritime air defenses, PB-15 
implements a plan to deliver next-generation anti-surface warfare 
(ASuW) capability. The program maintains current ASuW capability 
inherent in the Harpoon missile, Joint Standoff Weapon (JSOW) C-1, and 
Mk 48 ADCAP torpedoes. In the near term, we are pursuing options to 
develop an improved, longer range ASuW capability by leveraging 
existing weapons to minimize technical risk, costs, and development 
time. Additionally, PB-15 funds enhanced ASuW lethality for LCS by 
introducing a surface-to-surface missile module (SSMM) in fiscal year 
2017. PB-15 accelerates acquisition of the next-generation Long Range 
Anti-Ship Missile (LRASM), fielding an early air-launched capability on 
the Air Force B-1B Lancer bomber in fiscal year 2018 and integration 
with the F/A-18E/F in fiscal year 2019. Additionally, PB-15's restart 
of Mk 48 ADCAP production and acquisition of 105 Mod 7 torpedoes over 
the FYDP enhances submarine ASuW capacity and provides a basis for 
future capability upgrades.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


  Figure 2: Navy'S Projected Forward Presence in Fiscal Year 2015 and 
                            Fiscal Year 2020

    Forward Presence.--PB-15 continues our DSG-directed rebalance to 
the Asia-Pacific both in terms of force structure and in other 
important ways. It increases our presence in the region from about 50 
ships today on average to about 67 by 2020. In doing so, we continue to 
leverage our own ``bases'' in the region, such as Guam and Hawaii, as 
well as ``places'' where our allies and partners allow us to use their 
facilities to rest, resupply, and refuel. PB-15 continues to 
preferentially field advanced payloads and platforms with power 
projection capabilities, such as the F-35C Lightning II, the Zumwalt-
class DDG, the AIM-120D Advanced Medium Range Air-to-Air Missile 
(AMRAAM), and the P-8A Poseidon to the Asia-Pacific first in response 
to the rapidly increasing A2/AD capabilities of potential adversaries 
in the region.
    In our PB-15 submission, we seek to maximize our presence in the 
Asia-Pacific and other regions using both rotational and non-rotational 
forces. Rotational forces deploy to overseas theaters from homeports in 
the United States for finite periods, while non-rotational forces are 
sustained in theater continuously. Non-rotational forces can be forward 
based, as in Spain and Japan, where ships are permanently based 
overseas and their crews and their families reside in the host country. 
Forward stationed ships operate continuously from overseas ports but 
are manned by crews that deploy rotationally from the United States, as 
is the case with the LCS deployed to Singapore, with four ships in 
place by 2017. Forward operating ships, by contrast, operate 
continuously in forward theaters from multiple ports and are manned by 
civilian mariners and small detachments of military personnel who 
rotate on and off the ships. Examples of forward operating ships 
include MLP, JHSV, AFSB, and the oilers and combat support ships of the 
Combat Logistics Force (CLF). Forward based, stationed, or operating 
ships all provide presence at a significantly lower cost since one ship 
that operates continuously overseas provides the same presence as about 
four ships deploying rotationally from homeports in the United States.
    To capitalize on this advantage, our PB-15 program continues the 
move of four BMD-capable destroyers to Rota, Spain. The first of these, 
USS Donald Cook, is already in place, and three ships will join her by 
the end of fiscal year 2015. We will likewise forward base an 
additional (fourth) SSN in Guam in fiscal year 2015. PB-15 sustains our 
forward based MCM and PC in Bahrain, and forward stationed LCS will 
begin to assume their missions at the end of the decade. As JHSV are 
delivered and enter service, they will begin forward operating in 
multiple regions, including the Middle East in fiscal year 2014, the 
Asia-Pacific in fiscal year 2015, Africa in fiscal year 2016, and 
Europe in fiscal year 2017. USNS Montford Point, the first MLP, will 
deploy and begin forward operating from Diego Garcia in fiscal year 
2015. USNS Lewis B. Puller, the first AFSB variant of the Montford 
Point class, will relieve our interim AFSB, USS Ponce, and begin 
forward operating in the Middle East in fiscal year 2016.
    The Optimized Fleet Response Plan (O-FRP).--In addition to 
maximizing forward presence by basing ships overseas, our PB-15 
submission also takes action to maximize the operational availability 
and presence delivered by units that deploy rotationally from the 
United States. In fiscal year 2015 we will begin implementation of the 
O-FRP, a comprehensive update to our existing Fleet Response Plan, the 
operational framework under which we have trained, maintained, and 
deployed our forces since 2003.
    The legacy FRP employed units on repeating cycles about 30 months 
in length that were divided into four phases: Maintenance, basic 
training, integrated (advanced) training, and sustainment. Scheduled 
deployments of notionally 6 to 7 months were intended to take place in 
the sustainment phase, and the units' combat readiness was maintained 
for the remainder of the sustainment phase to provide ``surge'' 
capacity for contingency response.
    Over the past few years, continuing global demand for naval forces 
coupled with reduced resources has strained the force. Continued demand 
in the Asia-Pacific, combined with increased commitments in the Persian 
Gulf , as well as responses to crisis events in Syria and Libya, 
coupled with an emerging global afloat BMD mission, have driven recent 
deployment lengths for certain units (CSG, ARG, and BMD-capable DDG in 
particular) as high as 8 to 9 months. Sequestration and a continuing 
resolution in fiscal year 2013 added to these pressures by hampering 
maintenance and training, which slowed preparation of ships and delayed 
deployments. In many instances, we have been compelled to shorten 
training and maintenance or to deploy units twice in the same 
sustainment cycle. While the FRP provides flexibility and delivers 
additional forces where required for crisis response, the increased 
operational tempo for our forces in recent years is not sustainable in 
the long term without a revision of the FRP. Reductions in training and 
maintenance reduce the combat capability and readiness of our forces 
and the ability of our ships and aircraft to fulfill their expected 
service lives. These effects combine with unpredictable schedules to 
impact our Sailors' ``quality of service,'' making it more difficult to 
recruit and retain the best personnel in the long term.
    The O-FRP responds to these schedule pressures and simultaneously 
makes several other process and alignment improvements to more 
effectively and efficiently prepare and deploy forces. Our analysis 
concluded that a 36-month deployment cycle (versus about 30 months) 
with scheduled deployments of up to 8 months (versus 6 to 7 months) is 
the optimal solution to maximize operational availability while 
maintaining stability and predictability for maintenance and training. 
Beyond scheduling, the O-FRP increases cohesiveness and stability in 
the composition of the teams we prepare for deployment by keeping the 
same group of ships and aircraft squadrons together in a CSG through 
successive cycles of training and deployment. The O-FRP also takes 
actions to make maintenance planning more predictable and maintenance 
execution more timely and cost-effective. It takes parallel steps in 
training by closely aligning the many inspections and exercises that 
units must complete in a predictable, rationalized sequence.
    Our PB-15 submission implements the O-FRP beginning in fiscal year 
2015 with the Harry S. Truman CSG, and will implement it in all other 
CSG and surface combatants as they prepare for and execute their next 
deployments. The O-FRP will subsequently be expanded to amphibious 
ships (ARG) and we are studying the desirability of expanding it to 
submarines and other unit types in the future.
    Fleet Readiness.--A central challenge in delivering the best Navy 
possible for the funds appropriated is properly balancing the cost of 
procuring force structure and capability with the cost of maintaining 
them at an appropriate level of readiness. When faced with a future of 
declining budgets, if we are returned to BCA revised caps funding 
levels in fiscal year 2016 and beyond, we are forced to make difficult 
decisions. Unstable budget levels (due to continuing resolutions and 
sequestration) force reductions in maintenance and training. Over time, 
this begins to take an untenable toll on our enduring ability to deploy 
forces that are sufficiently ready to complete their missions with 
acceptable risk and the ability of our ships and aircraft to reach 
their expected service lives. We are mandated to fund readiness. In a 
declining budget, we must look at reducing recapitalization and 
modernization. This can also have the consequences, of falling behind 
competitors in terms of capability and relevance, or we risk having too 
few ships and aircraft to execute certain missions in the future. As a 
result, we balance force structure capacity and capability with 
readiness in any financial situation.
    Despite the reduction in funding below levels planned in PB-14, PB-
15 strikes this balance and the result is a program that delivers 
sufficient readiness to meet our GFMAP presence commitments and provide 
sufficient ``surge'' capacity for contingency response.
    As part of our efforts to sustain fleet readiness, Navy continues 
to improve its maintenance practices for surface ships by increasing 
governance, transparency, and accountability. Over the last several 
years, these practices have enabled us to decrease the amount of 
backlogged ship maintenance caused by high operational tempo.
    Going forward, PB-15 funds Navy's fiscal year 2015 afloat readiness 
to the DOD guidelines and goals. As in previous years, a supplemental 
funding request will be submitted to address some deployed ship 
operations, flying, and maintenance requirements.
    Readiness and Investment Ashore.--To comply with fiscal 
constraints, we are compelled to continue accepting risk in shore 
infrastructure investment and operations. PB-15 prioritizes nuclear 
weapons support, base security, child development programs, and air and 
port operations. PB-15 funds facilities' sustainment to 70 percent of 
the DOD Facilities Sustainment Model, and prioritizes repair of 
critical operational facilities like piers and runways, renovation of 
inadequate barracks, and improving the energy efficiency of facilities. 
Less critical repairs to non-operational facilities will be deferred; 
however, this risk will compound over years and must eventually be 
addressed.
    Depot Maintenance Infrastructure.--Due to fiscal constraints, the 
Department of the Navy will not meet the mandated capital investment of 
6 percent across all shipyards and depots described in 10 U.S.C. 2476 
in fiscal year 2015. The Navy projects an investment of 3.5 percent in 
fiscal year 2015. PB-15 does, however, fund the most critical 
deficiencies related to productivity and safety at our Naval Shipyards. 
We will continue to aggressively pursue opportunities such as 
reprogramming or realignment of funds to find the appropriate funds to 
address this important requirement and mandate.
    Base Realignment and Closure (BRAC).--PB-15 continues to fund 
environmental restoration, caretaking, and property disposal at BRAC 
2005 and prior-round BRAC installations. We meet the legal mandates at 
all levels from previous BRAC rounds.
                          health of the force
    Compensation Reform and Quality of Service.--PB-15 addresses 
readiness by applying an important concept: Quality of service. Quality 
of service has two components: (1) quality of work, and (2) quality of 
life. Both are intrinsically tied to readiness. At work, the Navy is 
committed to providing our Sailors a challenging, rewarding 
professional experience, underpinned by the tools and resources to do 
their jobs right. Our obligations don't stop at the bottom of the brow. 
We support our Navy Families with the proper quality of life in terms 
of compensation, professional and personal development, and stability 
(i.e., deployment predictability). Our Sailors are our most important 
asset and we must invest appropriately to keep a high caliber all-
volunteer force.
    Over the last several years, Congress has been generous in 
increasing our benefits and compensation by approving pay raises, 
expanding tax-free housing, increasing healthcare benefits for 
retirees, and enhancing the GI Bill. This level of compensation and 
benefits, while appropriate, is costly and will exceed what we can 
afford.
    Personnel costs for military and civilian personnel make up about 
half of DOD's base budget--a share that continues to grow and force 
tradeoffs with other priorities. It is a strategic imperative to rein 
in this cost growth; therefore, we propose to slow rates of military 
pay raises, temporarily slow Basic Allowance for Housing growth, and 
reduce indirect subsidies provided to commissaries. Coupled with 
reductions in travel expenses, these reforms will generate $123 million 
in Navy savings in fiscal year 2015 and $3.1 billion across the FYDP. 
None of these measures will reduce our Sailors' pay.
    When my Senior Enlisted Advisor (the Master Chief Petty Officer of 
the Navy) and I visit Navy commands around the world, the message I get 
from our Sailors is that they want to serve in a force that is properly 
manned and one that provides them with the tools, training, and 
deployment predictability they need to do their jobs. Sailors tell us 
that these factors are as important as compensation and benefits. Any 
Navy savings from compensation reform, therefore, will be re-invested 
to quality of service enhancements that include:
  --Increases in travel funding for training.
  --Expansion of the Navy e-Learning online training system.
  --Improvement in training range and simulation capabilities, 
        simulated small arms training, and other shore-based simulators 
        and trainers for surface ship and submarine personnel.
  --Additional aviation spare parts.
  --Enhancements to aviation logistics and maintenance.
  --Enhancements to surface ship depot maintenance.
  --Increasing financial incentives for Sailors serving in operational 
        capacities at sea.
  --Increasing retention bonuses.
  --Enhancing Base Operating Support (BOS) funding to improve base 
        services for Sailors and their families.
  --Restoring of $70 million per year of funding for renovation of 
        single Sailors' barracks that we were previously compelled to 
        reduce due to fiscal constraints.
  --Military construction projects for five barracks and a reserve Navy 
        Operational Support Center (NOSC).
  --Improving berthing barges in Yokosuka, Japan that house Sailors 
        while forward based ships undergo depot maintenance.
  --Increasing support to active commands by Selected Reserve (SELRES) 
        personnel, thereby reducing workloads on active duty personnel.
  --Implementing an information technology (IT) solution that enables 
        Reserve personnel to remotely access Navy IT resources in 
        support of mission objectives.
  --Increasing funding for recapitalization projects at our flagship 
        educational institutions.
    For the same reasons we support reform of pay and other benefits, 
the Navy also supports DOD-wide proposals in PB-15 to reduce military 
healthcare costs by modernizing insurance options for dependents and 
retirees, and through modest fee and co-pay increases that encourage 
use of the most affordable means of care.
    Enduring Programs.--Along with the plans and programs described 
above, I remain focused on enduring challenges that relate to the 
safety, health, and well-being of our people. In June 2013, we 
established the Navy 21st Century Sailor Office (OPNAV N17), led by a 
flag officer, to integrate and synchronize our efforts to improve the 
readiness and resilience of Sailors and their Families. The most 
pressing and challenging problem that we are tackling in this area is 
sexual assault.
    Sexual Assault.--The Navy continues to pursue a deliberate strategy 
in combatting sexual assault. We continue to focus on preventing sexual 
assaults, supporting and advocating for victims, improving 
investigation programs and processes, and ensuring appropriate 
accountability. To assess effectiveness and better target our efforts, 
Navy's Sexual Assault Prevention and Response (SAPR) program is driven 
by a metrics-based strategic plan that focuses on care and support to 
victims, as well as individual, command and institutional efforts to 
prevent this destructive crime. We receive feedback directly from our 
Sailors through surveys, polls, and Fleet engagements, which steers our 
program and efforts. In fiscal year 2013, more Sailors than ever came 
forward to report incidents, many of which occurred months or even 
years prior.
    Sustaining a world-class response and victim advocacy system 
remains a top priority; preventing sexual assaults from occurring is an 
imperative. Our strategy focuses on creating a climate where behaviors 
and actions that may lead to sexual assault, as well as sexual assault 
itself, are not tolerated, condoned or ignored. This multi-faceted 
approach focuses on command climate; deterrence; and bystander 
intervention. To prevent more severe crimes in the continuum of harm, 
we are concentrating our leadership efforts on ending the sexist and 
destructive behaviors that lead up to them. Our metrics indicate that 
Sailors are reporting unacceptable behavior and that commands are 
taking it seriously.
    We will continue to measure, through surveys and reports, 
prevalence data, command climate and perceptions of leadership support, 
investigation length, and victim experience with our response and 
investigative system. We also measure key statistics about the 
investigative and adjudication process itself, such as length of time 
from report to outcome, as we continue to ensure a balanced military 
justice system for all involved. These metrics will be utilized to 
further improve and refine our prevention strategy, as well as inform a 
DOD-wide report to the President due in December 2014.
    Every Sailor and Navy Civilian deserves to work in an environment 
of dignity, respect, and trust. We hold our leaders accountable for 
creating a command climate that promotes these basic principles and 
thereby reduces the likelihood of an environment where sexual 
harassment might occur. We are strengthening our sexual harassment 
prevention policy by separating it from Equal Opportunity and aligning 
it with previous SAPR policy amendments, which have resulted in 
increased trust in our system to report incidents.
    When sexual assaults do occur, we ensure the victims' rights and 
preferences are respected throughout the investigative and disposition 
processes. In October 2013, we established the Victims' Legal Counsel 
(VLC) Program. The program is currently staffed by 25 Navy judge 
advocates acting as VLC, providing legal advice and representation to 
victims. The program will eventually expand to 29 VLC located on 23 
different installations, and VLC services are already available to all 
eligible victims worldwide. Our VLC work to protect and preserve the 
rights and interests of sexual assault victims, and in the case of 
investigation and prosecution, to ensure victims understand the 
process, can exercise their rights, and are able to have a voice in the 
process.
    However, work remains to be done. Despite 80 percent of Sailors 
reporting confidence in the Navy's response system to sexual assault 
and 86 percent agreeing that the Navy and their individual commands are 
taking actions to prevent sexual assault, nearly 50 percent cite ``fear 
of public exposure'' or ``shame'' as barriers to reporting. We continue 
to seek ways to overcome these perceived barriers.
    We greatly appreciate Congress's interest and support in our 
efforts to combat sexual assault, particularly the measures contained 
in the NDAA for fiscal year 2014. We are fully engaged in implementing 
the new requirements and we believe that given time to measure progress 
following full implementation, we will be able to better assess whether 
any additional legislative or policy measures are required. We remain 
committed to eradicating sexual assault within our ranks and ensuring 
that sexual assault cases are processed through a fair, effective, and 
efficient military justice system. We must ensure that all changes to 
the system do not adversely impact the interests of justice, the rights 
of crime victims, or the due process rights of the accused.
    Suicide.--Another critical problem we are focused on is suicides. 
Suicides in the Navy declined last year by 28 percent, from 65 in 2012 
to 47 in 2013. This is cautiously optimistic, but one suicide is still 
one too many. Preventing suicide is a command-led effort that leverages 
a comprehensive array of outreach and education. We cannot tell 
precisely what combination of factors compel an individual to 
contemplate suicide, so we address it by elevating our awareness and 
responsiveness to individuals we believe may in trouble. For example, 
all Sailors learn about bystander intervention tool known as ``A.C.T.'' 
(Ask-Care-Treat) to identify and encourage at-risk shipmates to seek 
support. We also know that investing in the resilience of our people 
helps them deal with any challenge they may face.
    Resilience.--Our research shows that a Sailor's ability to steadily 
build resilience is a key factor in navigating stressful situations. 
Education and prevention initiatives train Sailors to recognize 
operational stress early and to use tools to manage and reduce its 
effects. Our Operational Stress Control (OSC) program is the foundation 
of our efforts to teach Sailors to recognize stressors in their lives 
and mitigate them before they become crises. In the past year, we 
expanded our training capacity by 50 percent and increased OSC mobile 
training teams (MTT) from four to six. These MTT visit each command 
within 6 months of deployment and teach Sailors resiliency practices to 
better manage stress and avoid paths that lead to destructive 
behaviors.
    In addition, we are strengthening support to Sailors who are 
deployed in unfamiliar surroundings. We have started a program to 
assign trained and certified professionals as Deployed Resiliency 
Counselors (DRC) to our largest ships, the CVN and LHA/D. DRC are 
credentialed clinical counselors that can assist or provide support to 
Sailors who are coping with or suffering from common life events, 
common life stressors, and discrete traumatic events that may include 
sexual assault. This initiative extends the reach of Navy's resiliency 
programs to deployed commands and allows a ``warm hand-off'' to shore 
services when the Sailor returns to homeport.
    Character Development.--At all levels in the Navy, leadership, 
character, and integrity form the foundation of who we are and what we 
do. These bedrock principles are supported by our culture of 
accountability, command authority, and personal responsibility. 
Leadership failures and integrity shortfalls undermine our organization 
and erode public trust. We will continue to reinforce standards and 
hold those who violate the rules appropriately accountable.
    One avenue by which we instill character and ethics in our leaders 
is by teaching ethics education and character development in the 
College of Operational and Strategic Leadership at the Naval War 
College. Building on this effort and other guidance to the force, in 
January 2013, I approved the Navy Leader Development Strategy to 
promote leader character development, emphasize ethics, and reinforce 
Navy Core Values. This strategy provides a common framework to develop 
Navy leaders at every stage of a Sailor's career. We are implementing 
an integrated framework through a career-long continuum that develops 
our leaders with the same attentiveness with which we develop our 
weapons systems. The focus on character development in our professional 
training continuum has increased, and we employ techniques such as 
``360 degree'' assessments and peer mentoring to help young officers 
better prepare to be commanding officers. The Navy Leader Development 
Strategy reemphasizes and enhances the leadership, ethics, and 
professional qualities we desire in our force.
    Family Readiness Programs.--Family readiness is fully integrated 
into our Navy's call to be ready. The critical programs which support 
our families are also overseen by the policy and resourcing lens of our 
21st Century Sailor Office. These programs and services assist Sailors 
and their families with adapting to and coping with the challenges of 
balancing military commitment with family life. Fleet and family 
support programs deliver services in four key areas: Deployment 
readiness, crisis response, career support and retention, and sexual 
assault prevention and response.
    This past year, our Family Advocacy program (FAP) has implemented 
the DOD Incident Determination Committee (IDC) & Clinical Case Staff 
Meeting (CCSM) model Navy-wide. This model ensures standardization and 
consistency in child abuse and domestic abuse decisionmaking. It also 
guarantees that only those with clinical expertise in child abuse and 
domestic abuse are involved in determining treatment plans.
    Other career and retention support services include the family 
employment readiness program, personal financial management, and the 
legislatively mandated Transition Goals, Plan, Success program to 
assist separating Sailors. Increased stress and longer family 
separations have amplified program demand and underlined the importance 
of these support programs and services to ensure the psychological, 
emotional and financial well-being of returning warriors and their 
families. Financial issues are still the number one cause of security 
clearance revocation and our financial counselors have noted an 
increase in the number of Sailors entering the Service with debt, 
including student loan debt. We continually monitor the environment for 
predatory lending practices targeting Service Members and families.
    Auditability.--To be good stewards of the funding appropriated by 
Congress, effective internal controls over our business operations and 
auditability of our outlays is essential. It remains our goal to 
achieve full financial auditability by the end of fiscal year 2017. Our 
near-term objective is to achieve audit readiness on the Department of 
the Navy's Schedule of Business Activity (SBA) in fiscal year 2014, and 
thus far, 8 of the 10 components of Navy's SBA have been asserted as 
audit ready. In the area of property management, the Department has 
asserted audit readiness for 7 of 13 property subclasses, and 4 of 
those have been validated as audit ready. Continuing resolutions and 
sequestration in fiscal year 2013 and fiscal year 2014 have had no 
measurable impact on our ability to meet the fiscal year 2014 SBA 
auditability mandate, but they have increased risk to our ability to 
meet the fiscal year 2017 full financial auditability requirement.
                               conclusion
    We believe it is vital to have a predictable and stable budget to 
develop and execute an achievable program to conduct the 10 primary 
missions outlined in the DSG, and support the pillars and ``rebalance'' 
called for in the QDR.
    PB-15 proposes the best balance of Navy capabilities for the 
authorized amount of funding. It sustains sufficient afloat readiness 
in today's Navy but accepts more risk while building a future fleet 
that is able to conduct full-spectrum operations. I remain deeply 
concerned that returning to BCA revised caps spending levels in fiscal 
year 2016 will lead to a Navy that would be too small and lacking in 
the advanced and asymmetric capabilities needed to conduct the primary 
missions required by our current guidance: The DSG and the QDR.

    Senator Durbin. Thanks, Admiral.
    General Amos, let me join in the chorus of gratitude for 
your service to our Nation, but let me also add, Bonnie, your 
wife, who was kind enough to host us when some of the committee 
members joined me for dinner at your residence at the Marine 
Corps Barracks. She was a terrific hostess that evening, and I 
am sure has been a great partner as you have served our Nation 
so well.
    So thank you very much for that, and we appreciate your 
testimony.
STATEMENT OF GENERAL JAMES AMOS, COMMANDANT, UNITED 
            STATES MARINE CORPS
    General Amos. Mr. Chairman, thank you very much for those 
kind words.
    And I will pass that to Bonnie as well. She's been a great 
teammate for 44 years, and so it will be an emotional end to 
the year and an end to my commandancy and my time there.
    So, Chairman Durbin, Chairwoman Mikulski, thank you for 
being here and making the effort to come this morning, ma'am.
    Vice Chairman Cochran, Senator Shelby, thank you again for 
coming this morning.
    And, members of the committee, I am pleased to appear 
before you to speak about your United States Marine Corps this 
morning.
    Since our founding in 1775, Marines have answered the 
Nation's call, faithfully protecting the American people and 
maintaining a world-class standard of military excellence.
    Nothing has changed. Nothing will change in the future.
    And yet, we find ourselves today at a strategic inflection 
point. After 12 years of war, we are drawing down our forces in 
Afghanistan, resetting our institution and what we have called 
reawakening the soul of the Corps.
    Today we are challenged by fiscal uncertainty that 
threatens both our capacity and our capabilities, forcing us to 
sacrifice our long-term health for near-term readiness.
    I have testified before this committee many times that 
despite these challenges, I remain committed to fielding the 
most capable and most ready Marine Corps the Nation can afford.
    Our greatest asset is the individual marine, the young man 
or woman who wears my cloth.
    Our unique role, as America's signature crisis-response 
force, is grounded in the legendary character and warfighting 
ethos of our people.
    As we reset and prepare for future battles, all marines are 
rededicating themselves to those attributes that carried 
marines across the wheat fields and into the German machine 
guns at Belleau Wood in March 1918; those same attributes that 
enabled the raw combat-inexperienced young Marines to 
courageously succeed against a determined enemy at America's 
first offensive operation in the Pacific, the attack at 
Guadalcanal on August 7, 1942; and lastly, those timeless 
strengths of character and gut courage that enabled marines to 
carry the day in an Iraqi town named Fallujah, and against a 
determined enemy in the Taliban strongholds of Marjah and 
Sangin.
    Your corps is rededicating itself to those simple, timeless 
attributes of persistent discipline; faithful obedience to 
orders and instructions; concerned and engaged leadership 24 
hours a day, 7 days a week; and strict adherence to standards.
    These ironclad imperatives have defined our corps for 238 
years. They will serve us well in the decades to come.
    As we gather here today, some 30,000 marines are forward-
deployed around the world, promoting peace, protecting our 
Nation's interests, and securing our defense.
    But we do not do this alone. Our partnership with the Navy 
provides America an unmatched naval expeditionary capability. 
Our relationship with the Navy is a symbiotic one.
    My relationship with Admiral Jon Greenert, quite frankly, 
is unprecedented. This is why I share CNO's concerns about the 
impacts associated with a marked paucity of ships and 
shipbuilding funds.
    America's engagement throughout the future security 
environment of the next two decades will be naval in character, 
make no mistake about that. To be forward-engaged, and to be 
present when it matters most, we need capital ships. And those 
ships need to be loaded with United States Marines.
    Expeditionary naval forces are America's insurance policy. 
We are a hedge against the uncertain and unpredictable world. 
The Navy-Marine Corps team provides power projection from the 
sea, responding immediately to crises when success is measured 
in hours, not in days.
    From the super-typhoon that tragically struck the 
Philippines late last year, to the rescue of American citizens 
over Christmas in South Sudan, your forward-deployed naval 
forces were there. We carried the day for America.
    As the joint force draws down, and we conclude combat 
operations in Afghanistan, some argue that we are done with 
conflict. My view is different.
    As evidenced in the events currently unfolding in Central 
Europe, the world will remain a dangerous and unpredictable 
place.
    There will be no peace dividend for America, ladies and 
gentlemen, nor will there be a shortage of work for its United 
States Marines.

                           PREPARED STATEMENT

    Ladies and gentlemen, we will not do less with less. Quite 
frankly, we will do the same with less.
    In closing, you have my promise that we will only ask for 
what we need. We will continue to prioritize and make the hard 
decisions before ever coming before this committee.
    Once again, I thank the committee, your faithfulness to our 
Nation, your Navy forces, and your marines. And I am prepared 
to answer your questions.
    [The statement follows:]
              Prepared Statement of General James F. Amos
                    america's crisis response force
    The United States Marine Corps is the Nation's crisis response 
force. Since our founding in 1775, Marines have answered the Nation's 
call, faithfully protecting the American people and maintaining a 
world-class standard of military excellence. Today we are at a 
strategic inflection point. Fiscal uncertainty has threatened both our 
capacity and capabilities, forcing us to sacrifice our long-term health 
for near-term readiness. Despite these fiscal challenges, we remain 
committed to fielding the most ready Marine Corps the Nation can 
afford. Around the globe Marines stand ready to engage America's 
adversaries or respond to any emerging crisis. Thanks to the support of 
Congress, the American people will always be able to count on the 
Marine Corps to fight and win our Nation's battles.
    America is a maritime nation: Its security, resilience, and 
economic prosperity are fundamentally linked to the world's oceans. Our 
naval forces serve to deter and defeat adversaries, strengthen 
alliances, deny enemies sanctuary, and project global influence. The 
amphibious and expeditionary components of our naval force allow us to 
operate with assurance in the world's littoral areas. The Marine Corps 
and the Navy are prepared to arrive swiftly from the sea and project 
influence and power when needed. Operating from the sea, we impose 
significantly less political burden on our partners and allies, while 
providing options to our Nation's leaders. We remain committed to the 
mission of assuring access for our Nation's forces and its partners.
    Forward deployed naval forces enable our Nation to rapidly respond 
to crises throughout the world. The ability to engage with partnered 
nations, through highly trained and self-sustaining forces, maximizes 
America's effectiveness as a military power. For approximately 8 
percent of the Department of Defense's (DOD) budget, the Marines Corps 
provides an affordable insurance policy for the American people and a 
highly efficient and effective hedge against global and regional 
tensions that cause instability. We provide our Nation's leaders with 
time and decision space by responding to today's crisis, with today's 
forces . . . TODAY.
Naval Character
    We share a rich heritage and maintain a strong partnership with the 
United States Navy. Together we provide a fundamental pillar of our 
Nation's power and security--the ability to operate freely across the 
seas. Security is the foundation of our Nation's ability to maintain 
access to foreign markets and grow our economy through trade around the 
world. The Navy-Marine Corps relationship has never been better; we 
will continue to advance our shared vision as our Nation transitions 
from protracted wars ashore and returns its focus to the maritime 
domain.
    Throughout more than a decade of sustained operations ashore in 
Iraq, Afghanistan, and elsewhere, we continued to deploy thousands of 
Marines aboard amphibious warships around the globe. The Navy and 
Marine Corps remains postured to provide persistent presence and 
engagement, maintaining a constant watch for conflict and regional 
unrest. Well-trained Marine units embarked aboard U.S. Navy warships 
increase the Nation's ability to deter and defend against emerging 
threats. Our adaptability and flexibility provide unmatched 
capabilities to combatant commanders.
Unique Roles and Missions
    The Marine Corps provides unique, sea-based capabilities to the 
joint force. Our forward deployed amphibious based Marines have long 
played a critical role across the full range of military operations. We 
assure littoral access and enable the introduction of capabilities 
provided by other military services, Government agencies, 
nongovernmental organizations, allies, and international partners. The 
stability and vitality of the global economic system is dependent on 
this capability, especially where our Nation's vital interests are 
challenged.
    The Marine Corps provides operating forces that are a balanced air-
ground-logistics team. They are responsive, scalable and self-
sustaining. As our Nation's middle-weight force, we must maintain a 
high state of readiness, able to respond wherever and whenever the 
Nation requires. Crisis response requires the ability to expand the 
expeditionary force after its introduction in theater. The Marine Air-
Ground Task Force (MAGTF) modular structure lends itself to rapidly 
right sizing the force as the situation demands, to include a joint or 
combined force.
                 our commitment to the nation's defense
Global Crisis Response
    At our core, the Marine Corps is the Nation's crisis response force 
and fulfilling this role is our top priority. We have earned a 
reputation as the Nation's most forward deployed, ready, and flexible 
force. Our performance over the past decade underscores the fact that 
responsiveness and versatility are always in demand. Marines formed the 
leading edge of the U.S. humanitarian response to earthquakes in 
Pakistan and Haiti, and disasters in the Philippines and Japan, all 
while fully committed to combat operations in Iraq or Afghanistan.
    During 2013, four Marine Expeditionary Units (MEUs) and their 
partnered Amphibious Ready Groups (ARGs) participated in overseas 
operations and exercises. These forward deployed amphibious forces--
normally built around a three-ship amphibious squadron with 2,200 
embarked Marines--provided a uniquely trained and integrated task 
force, postured to immediately respond to emerging crises. The Marine 
Corps has placed increased emphasis over the past several years 
partnering with coalition nations. Through security cooperation 
activities we advance mutual strategic goals by building capacity, 
deterring threats, and enhancing our crisis response capabilities. 
Throughout the year, ARG-MEUs strengthened our relationships through 
major exercises and operations with partnered nations which include 
Saudi Arabia, Kuwait, United Arab Emirates, Jordan, Egypt, Qatar, Oman, 
India, Thailand, Australia, Japan and the Philippines.
    Super Typhoon Haiyan.--Typhoon Haiyan struck the Philippines on 
November 7, 2013 with winds gusting up to 195 mph, the fourth highest 
ever recorded. Even before the storm reached landfall, Marines and 
Sailors forward-based in Okinawa were preparing to respond. After 
returning to home port, elements of the 31st MEU embarked aboard USS 
Germantown and USS Ashland to support Typhoon Haiyan Humanitarian 
Assistance/Disaster Relief operations in the Philippines. Within eight 
hours, Marine Forces forward based in the Pacific Theater provided the 
initial humanitarian response. This effort was followed by a Marine 
Corps led Joint Task Force, to include Marine MV-22 and KC-130J 
aircraft that flew 1,205 sorties (totaling more than 2,500 flight 
hours), delivered more than 2,005 tons of relief supplies and evacuated 
18,767 Filipinos, 540 American citizens and 301 third country 
nationals. These efforts were closely coordinated on scene with the 
U.S. Agency for International Development's office of Foreign Disaster 
Assistance. With the long-standing partnership and trust built between 
our two nations, Marines were able to rapidly respond with critically 
needed capabilities and supplies in times of crisis. This operation 
underscores the point, that trust is established and nurtured through 
forward presence . . . trust cannot be surged.
    Special Purpose Marine Air-Ground Task Force Crisis Response (SP-
MAGTF CR).--Forward positioned in Spain, SP-MAGTF CR Marines are 
trained and equipped to support a wide range of operations. This unit 
is unique amongst other crisis response forces because it possesses an 
organic aviation capability that allows for SP-MAGTF CR to self-deploy. 
This force is primarily designed to support U.S. and partner security 
interests throughout the CENTCOM and AFRICOM theaters of operation, to 
include Embassy reinforcement, noncombatant evacuation operations, and 
tactical recovery of aircraft and personnel. The MV-22's unprecedented 
agility and operational reach enable the SP-MAGTF CR to influence these 
theaters of operation in a matter of hours. In 2013, SP-MAGTF CR 
collaborated with local authorities to establish a presence that could 
rapidly respond to the full spectrum of contingencies within AFRICOM's 
AOR. SP-MAGTF CR is also involved in bilateral and multilateral 
training exercises with regional partners in Europe and Africa.
    Late last year, we witnessed the security situation deteriorate 
within South Sudan. Weeks of internal violence threatened to erupt into 
a civil war as populations were being driven from their homes. On short 
notice, 150 Marines from the SP-MAGTF CR flew aboard MV-22 Ospreys over 
3,400 miles non-stop to stage for future operations at Camp Lemonier, 
Djibouti on the Horn of Africa. The next day, Marines flew to Uganda to 
prepare for a potential noncombatant evacuation operation and to 
bolster our East Africa Response Force. In January, Marines aboard two 
KC-130J Hercules aircraft evacuated U.S. Embassy personnel from harm's 
way.
Afghanistan
    Marines have been continuously at war in Afghanistan since 2001. In 
the past year, we have transitioned from counter-insurgency operations 
to training, advising, and assisting the Afghan National Security 
Forces (ANSF). With expanding capabilities and increased confidence, 
the ANSF is firmly in the lead for security in support of the 
Government of the Islamic Republic of Afghanistan throughout all of 
Helmand and Nimroz Provinces.
    Today, more than 4,000 active and reserve Marines are forward 
deployed in Regional Command South West (RC (SW)) and in full support 
of the Afghan National Police (ANP), and Afghan National Army (ANA). In 
2013, we reduced our coalition force advisory teams from 43 to 15, and 
we shifted our emphasis from tactical operations to Brigade-level 
planning, supply chain management, infrastructure management, and 
healthcare development. In January 2013, there were over 60 ISAF 
(principally U.S., UK, and Georgian) bases in RC (SW). Today only seven 
remain. In addition, we removed permanent coalition presence in 7 of 12 
districts with Marine forces located only in one remaining district 
center.
    Afghan district community councils currently operate in seven 
Helmand districts which represent 80 percent of the population. As a 
result, health and education services have markedly improved. With the 
presidential election approaching in April 2014, we are expecting a 
higher turnout than the previous presidential elections due to the 
population's increased understanding of the electoral process. 
Currently, there are 214 planned polling stations in Helmand Province. 
The upcoming election will be conducted with limited International 
Security Assistance Force (ISAF) military assistance.
Asia-Pacific Rebalance
    As our Nation continues to shift its strategic focus to the Asia-
Pacific, it is important to note that that the Marine Corps--
specifically, III Marine Expeditionary Force (III MEF)--has been 
forward based there since the 1940s. Marines have a long history in the 
Pacific, replete with many hard-won victories. We are ideally suited to 
operate within this maritime region and we are adjusting our force lay-
down to support the President's Strategic Guidance for the Department 
of Defense issued in January 2012. We remain on course to have 22,500 
Marines west of the International Date Line--forward based and 
operating within the Asia-Pacific theater.
    We have the experience, capabilities, and most importantly, the 
strategic relationships already in place within the region to 
facilitate the national security strategy. Marines forward deployed and 
based in the Asia-Pacific Theater conduct more than 70 exercises a 
year, all designed to increase interoperability with our regional 
partners, build theater security cooperation, and enhance prosperity 
and stability in this region. By strategically locating our forces 
across the region, we enable more active participation in cooperative 
security and prosperity. No forces are more suited to the Pacific than 
naval amphibious forces. We envision an Asia-Pacific region where our 
Marines' presence will continue to build upon the excellent cooperation 
with our regional partners and allies to advance our common interests 
and common values.
Security Cooperation
    The Marine Corps supports all six Geographic Combatant Commands 
(GCC) with task-organized forces of Marines who conduct hundreds of 
Theater Security Cooperation (TSC) activities with the armed forces of 
more than 50 partner nations each year. Per the Defense Strategic 
Guidance, our forward-engaged Marines conducted TSC with a focus on 
building partner capacity, amphibious capability, interoperability for 
coalition operations, and assured access for U.S. forces. Overall, the 
Marine Corps participated in over 200 security cooperation engagements 
in 2013, including TSC exercises, bilateral exercises, and military-to-
military engagements.
    In September 2013, the Commandant of the Marine Corps, Chief of 
Naval Operations, and Commandant of the Coast Guard signed the Maritime 
Security Cooperation Policy (MSCP). This tri-service policy prescribes 
a planning framework for Marine Corps, Navy, and Coast Guard 
headquarters, regional components, and force providers with the goal of 
achieving an integrated maritime approach to security cooperation in 
support of national security objectives.
    Black Sea Rotational Force (BSRF).--Forward postured in Romania, 
the BSRF engages partner nations and operates in multiple countries 
throughout the Black Sea-Eurasia region. Engagements included 
peacekeeping operations training events, technical skills 
familiarization events, and various professional symposia throughout 
the Caucasus region.
    SP-MAGTF Africa 13 (SP-MAGTF AF).--As a sub-component of SP-MAGTF 
CR, SP-MAGTF Africa 13 is forward based in Italy, consisting of a 
company-sized Marine element that engages with partnered countries in 
Africa. SP-MAGTF AF 13 focused on training African troops primarily in 
Burundi and Uganda, bolstered militaries attempting to counter groups 
affiliated with al-Qaeda operating across the Maghreb region, and 
provided security force assistance in support of directed Africa Union 
Mission in Somalia (AMISOM).
    Marine Rotational Force--Darwin (MRF-D).--In 2013, a company sized 
element of MRF-D Marines deployed to support PACOM requirements and 
emphasize the U.S. commitment to the Asia-Pacific region. During their 
stay in Darwin, Marines conducted bilateral training with the 
Australian Defense Forces. In conjunction with the 31st Marine 
Expeditionary Unit--from August through September 2013--MRF-D supported 
the bilateral Exercise KOOLENDONG at the Bradshaw Field Training Area 
in Australia to serve as a proof of concept in preparation for the 
expected arrival of 1,150 Marines in 2014. This next deployment--the 
first step of Phase II, expands the rotational force from company to 
battalion sized rotational units. The intent in the coming years is to 
establish a rotational presence of a Marine Air-Ground Task Force of up 
to 2,500 Marines. The presence of Marines in Australia reflects the 
enduring alliance and common security interests in the region and 
improves interoperability between the United States and Australia
                   fiscal year 2015 budget priorities
    For fiscal year 2015, the President's budget provides $22.8 billion 
in our baseline budget, down from our fiscal year 2014 budget of $24.2 
billion. This budget has been prioritized to support a highly ready and 
capable Marine Corps focused on crisis response. The capabilities we 
prioritized in this year's budget submission protect near-term 
readiness while addressing some shortfalls in facility sustainment, 
military construction, equipment recapitalization and modernization. 
The Marine Corps budget priorities for 2015 include:
    Amphibious Combat Vehicle.--The development and procurement of the 
Amphibious Combat Vehicle (ACV) is my top acquisition priority. The 
modern battlefield requires both highly mobile and armor-protected 
infantry forces. The ACV will be designed to provide the capabilities 
required to meet current and future amphibious operations. This program 
is critical to our ability to conduct surface littoral maneuver and 
project Marine units from sea to land in any environment; permissive, 
uncertain, or hostile. The Marine Corps requires a modern, self-
deployable, survivable, and affordable amphibious vehicle as a once-in-
a-generation replacement for the existing Amphibious Assault Vehicles, 
which have been in service for more than 40 years.
    Marine Aviation.--The Marine Corps continues to progress towards a 
successful transition from 13 types of aircraft to 6. This 
transformation of our aviation combat element will provide the Marine 
Corps and the future naval force with highly advanced fixed-wing, tilt-
rotor, and rotary-wing platforms capable of operating across the full 
spectrum of combat operations. As the Marine Corps moves towards a 
future battlefield that is digitally advanced and connected, the F-35B/
C Joint Strike Fighter's (JSF) fifth-generation capabilities will 
enable the collection, fusion, and dissemination of information to all 
elements of the MAGTF. Additionally, MV-22 Osprey vertical flight 
capabilities coupled with the speed, range, and endurance of fixed-wing 
transports, are enabling effective execution of current missions that 
were previously unachievable on legacy platforms.
    Modernization and sustainment initiatives are required to enhance 
the capabilities of Marine Aviation's legacy platforms to maintain 
warfighting relevance. Specifically, modernization and relevancy of F/
A-18A-D Hornet and AV-8B Harrier aircraft are vital as the Marine Corps 
completes the transition to the F-35B Short Take-Off and Vertical 
Landing (STOVL) JSF in 2030. The F-35B is critical to our ability to 
conduct future combined arms operations in expeditionary environments.
    Resetting our Ground Equipment.--We have made significant strides 
in resetting our equipment after 12 years of wartime wear and tear. We 
are executing a reset strategy that emphasizes both our commitment to 
the American taxpayer and the critical linkage of balancing reset and 
readiness levels. Over 75 percent of the Marine Corps equipment and 
supplies in RC (SW) have been retrograded. The Marine Corps requires 
continued funding to complete the reset of equipment still being 
utilized overseas, to reconstitute home station equipment, and to 
modernize the force.
    The current rate of equipment returning from theater will allow the 
Corps to reset our ground equipment by 2017, but this will require the 
continued availability of Overseas Contingency Operations funding for 
fiscal year 2015 through fiscal year 2017 to support our planned 
schedule of depot level maintenance. We are not asking for everything 
we want; only what we need. We have consciously chosen to delay 
elements of modernization to preserve current readiness. These short-
term solutions cannot be sustained indefinitely without cost to our 
future capabilities.
    Joint Light Tactical Vehicle (JLTV).--We remain firmly partnered 
with the U.S. Army in fielding a Joint Light Tactical Vehicle that 
lives up to its name, while also being affordable. The JLTV is needed 
to provide the Marine Corps with modern, expeditionary, light-combat 
and tactical mobility while increasing the protection of our light 
vehicle fleet. By replacing only a portion of our High Mobility 
Multipurpose-Wheeled Vehicle (HMMWV) fleet, the JLTV will help to 
preserve our expeditionary capability with a modern level of protected 
mobility.
    Military Construction (MILCON).--For fiscal year 2015, the Marine 
Corps is requesting $331 million for MILCON programs to support 
warfighting and critical infrastructure improvements. This fiscal year 
2015 budget represents a 61-percent funding level decrease from our 
fiscal year 2014 request of $842 million and a significant decrease 
from the Marine Corps' previous 6-year average. Our primary focus is 
toward the construction of Joint Strike Fighter (F-35B) and Osprey (MV-
22) facilities that support unit relocations to Hawaii and Japan. We 
have prioritized environmental and safety corrections such as water 
plant improvements and emergency communication capabilities. Funding is 
also included for the continued consolidation of the Marine Corps 
Security Force Regiment and its Fleet Antiterrorism Security Teams from 
the Norfolk area to Yorktown, Virginia. Finally, we are providing 
funding to continue the renovation, repairs and modernization of junior 
enlisted family housing units located in Iwakuni, Japan.
Readiness and Risk in the Fiscal Year 2015 Budget
    The Marine Corps remains committed to building the most ready force 
our Nation can afford, but this comes at a risk. As our Nation 
continues to face fiscal uncertainty, the Marine Corps is responsibly 
building a relevant and lean force for the 21st century. The emerging 
security threats to our Nation demand that America has a globally 
responsive, truly expeditionary, consistently ready, maritime crisis 
response force.
    While today's fiscal constraints may make us a leaner force, we are 
committed to maintaining our readiness--the real measure of our ability 
to meet unforeseen threats. Our innovative spirit, strong leadership, 
and enduring stewardship of the Nation's resources will guide our 
modernization efforts. We will invest in our Marines as they are the 
foundation of the Marine Corps. We will continue to reset our 
warfighting equipment and reconstitute our force after more than a 
decade of combat operations. We will maintain our investments in the 
research and development of new equipment and technologies that ensure 
our Nation's crisis response force remains relevant and ready well into 
the 21st century.
    In a fiscally constrained environment, it is critical that we 
maximize every taxpayer dollar entrusted to the Marine Corps. Our 
ability to efficiently manage our budget is directly related to our 
ability to properly account for every dollar. To that end, for the 
first time, the Marine Corps achieved an ``unqualified'' audit opinion 
from the DOD Inspector General. We became the first military service to 
receive a clean audit, which provides us with the ability to have a 
repeatable and defendable process to track, evaluate and certify each 
dollar we receive. We are particularly pleased that this audit will 
give the American people confidence in how the Marine Corps spends 
taxpayer money.
    As fiscal realities shrink the Department of Defense's budget, the 
Marine Corps has forgone some important investments to maintain near-
term readiness. To protect near-term readiness, we are taking risks in 
our infrastructure sustainment and reducing our modernization efforts. 
These trades cannot be sustained long term and portend future increased 
costs. As America's crisis response force, however, your Corps does not 
have a choice. We are required to maintain a posture that facilitates 
our ability to deploy today. As we continue to face the possibility of 
further budget reductions under sequestration, we will be forced into 
adopting some variation of a less ready, tiered status, within the next 
few years.
    As we enter into fiscal year 2015 and beyond, we are making 
necessary trade-offs to protect near-term readiness, but this comes at 
a risk. Today, more than 60 percent of our non-deployed units are 
experiencing degraded readiness in their ability to execute core 
missions. Approximately 65 percent of non-deployed units have equipment 
shortfalls and 35 percent are experiencing personnel shortfalls 
necessitated by the effort to ensure that forward deployed units are 
100 percent manned and equipped. The primary concern with out-of-
balance readiness of our non-deployed operating forces is an increased 
risk in the timely response to unexpected crises or large-scale 
contingencies. The small size of the Marine Corps dictates that even 
non-deployed units must remain ready to respond at all times as they 
are often the Nation's go-to forces when unforeseen crises occur.
    The risk to the Nation is too great to allow the readiness of the 
Marine Corps to be degraded. Through Congressional support we will 
continue to monitor our Five Pillars of Readiness: High Quality People, 
Unit Readiness, Capability and Capacity to Meet the Combatant Command 
Requirements, Infrastructure Sustainment, and Equipment Modernization. 
Our current funding levels protect current readiness; however, it does 
so at the expense of the infrastructure sustainment and equipment 
modernization efforts, which are keys to protecting future readiness. 
This is a rational choice given the current fiscal situation, but it is 
not sustainable over time. Ignoring any of these areas for long periods 
will hollow the force and create unacceptable risk for our national 
defense.
                        shared naval investments
    Naval forces control the seas and use that control to project power 
ashore. The fiscal and security challenges we face demand a seamless 
and fully integrated Navy-Marine Corps team. Achieving our shared 
vision of the future naval force requires strong cooperation. Now more 
than ever, the Navy-Marine team must integrate our capabilities to 
effectively protect our Nation's interests.
    Amphibious Warships.--The force structure to support the deployment 
and employment of two Marine Expeditionary Brigades (MEBs) 
simultaneously is 38 amphibious warfare ships. However, considering 
fiscal constraints, the Navy and Marine Corps have agreed to sustain a 
minimum of 33 amphibious warfare ships. The 33-ship force accepts risk 
in the arrival of combat support and combat service support elements of 
a Marine Expeditionary Brigade (MEB), as well as meeting the needs of 
the naval force within today's fiscal limitations.
    The LX(R) program is the next major amphibious ship investment 
necessary to replace our aging fleet of LSDs. As we move forward with 
this program we should take advantage of the knowledge developed in 
building the LPD 17 class of ship. It is imperative that this is a 
warship capable of delivering Marines to an objective in a non-
permissive environment. Replacing the LSD with a more capable platform 
with increased capacity for command and control, aviation operations 
and maintenance, vehicle storage, and potential for independent 
operations gives the Geographic Combatant Commander a powerful and 
versatile tool, and permit independent steaming operations.
    Maritime Prepositioning Force (MPF).--The second method of 
deployment for the Marine Expeditionary Brigade is the MPF, which 
combines the speed of strategic airlift with the high embarkation 
capacity of strategic sealift. The two remaining Maritime 
Prepositioning Ship Squadrons (MPSRONs), each designed to facilitate 
the deployment of one MEB, carry essential combat equipment and 
supplies to initiate and sustain MEB operations for up to 30 days. With 
the introduction of the seabasing enabling module, which includes Large 
Medium Speed Roll-On/Roll-Off (LMSR) vessels, Dry Cargo and Ammunition 
ships (T-AKE) and Mobile Landing Platforms (MLP), MPSRON-supported 
forces will have enhanced capability to operate from a seabase.
    Ship-to-Shore Connectors.--Ship-to-shore connectors move personnel, 
equipment and supplies, maneuvering from a seabase to the shoreline. 
These are critical enablers for any seabased force. Modern aerial 
connectors, such as the MV-22 Osprey extend the operational reach of 
the seabased force and have revolutionized our ability to operate from 
the sea. The Navy is in the process of modernizing the surface 
connector fleet by replacing the aging Landing Craft Air Cushion (LCAC) 
and the 50-year-old fleet of Landing Craft Utility (LCU). Continued 
funding of the maintenance and extended service life programs of our 
existing fleet of connectors as well as investment in recapitalization 
of the surface connector capability through procurement of the Ship-to-
Shore Connector (SSC) and Surface Connector will be critical for future 
security environments. We need to continue to push science and 
technology envelopes to develop the next generation of connectors.
                our vision: redesigning the marine corps
    As we drawdown the Marine Corps' active component end strength from 
war time levels of 202,000 Marines, we have taken deliberate steps to 
construct a force that we can afford to operate and sustain in the 
emerging fiscal environment. Over the past 3 years, we have undertaken 
a series of steps to build our current force plan. In 2010, our Force 
Structure Review Group utilized the Defense Strategic Guidance and 
operational plans to determine that the optimum size of the active 
component Marine Corps should be a force of 186,800. Under the 
constraints of the 2011 Budget Control Act and the 2012 Defense 
Strategic Guidance, we estimated that a force of 182,100 active 
component Marines could still be afforded with reduced modernization 
and infrastructure support. More recently, as we entered into the 
Quadrennial Defense Review (QDR), we came to the difficult conclusion 
that, under the threat of continued sequestration or some variant, an 
active duty force of 175,000 Marines (175K) is what our Nation can 
afford, along with very steep cuts to USMC modernization accounts and 
infrastructure. This significantly reduced force is a ``redesigned'' 
Marine Corps capable of meeting steady state requirements. We will 
still be able to deter or defeat aggression in one region, however with 
significant strain on the force and increased risk to mission 
accomplishment.
    The redesigned force is built to operate using the familiar Marine 
Air-Ground Task Force-construct, but it places greater emphasis on the 
``middleweight'' Marine Expeditionary Brigades by establishing standing 
MEB Headquarters. These MEB Headquarters will be prepared to serve as a 
ready crisis response general officer-level command element for the 
joint force. The redesigned force will deploy Special Purpose Marine 
Air Ground Task Forces (SP-MAGTF) and Marine Expeditionary Units (MEU) 
to provide combatant commanders ready forces for a broad range of 
missions from forward presence to crisis response.
    Maintaining a high state of readiness within the current and near-
term fiscal climate will be challenging for Marines and their 
equipment. For example, the desired 186.8K force supported a 1:3 
deployment-to-dwell ratio to meet emerging steady state demands. A 
redesigned force of 175K reduces that to a 1:2 dwell ratio for our 
operational units during a peacetime environment. This 1:2 ratio is the 
same operational tempo we have operated with during much of the past 
decade while engaged in combat and stability operations in Iraq and 
Afghanistan.
    The redesigned force size implements the Strategic Choices 
Management Review (SCMR) directed 20 percent headquarters reduction, 
and it includes the elimination of one 3-star Marine Expeditionary 
Force Headquarters. Our ground forces will be reduced by one Regimental 
Headquarters and eight battalions (six infantry, two artillery), as 
well as a reduction of an additional 27 companies or batteries. Our 
aviation forces will be reduced by three Group Headquarters and 13 
squadrons. Our logistics forces will be reduced by 3,294 Marines (14 
percent) and one battalion while conducting an extensive reorganization 
to gain efficiencies from reduced combat service support resources. In 
ground force terms, our aggregate cuts across the force comprise a 
reduction in nearly a Marine Division's worth of combat power.
    The redesigned force will retain the ability to generate seven 
rotational MEUs, with the capacity to deploy one from the East Coast, 
one from the West Coast, and one from Okinawa every 6 months. New 
Special Purpose MAGTF (SP-MAGTF) force structure responds to greater 
demand for multi-role crisis response forces in several Geographic 
Combatant Commands under the so-called ``New Normal'' security 
environment.
    In support of the rebalance to the Pacific, we prioritized our 
Pacific theater forces and activities in the new force structure. 
Despite end strength reductions, III Marine Expeditionary Force--our 
primary force in the Pacific--remains virtually untouched. We also 
restored Pacific efforts that were gapped during Operation Enduring 
Freedom, including multiple exercises and large parts of the Unit 
Deployment Program. A rotational presence in Darwin, Australia also 
expands engagement opportunities and deterrence effects.
    In support of CYBERCOM and in recognition of the importance of 
cyberspace as a warfighting domain, we are growing our cyberspace 
operations forces organized into a total of 13 teams by the end of 
2016. The teams will provide capabilities to help defend the Nation 
from cyber-attack, provide support to Combatant Commanders, and will 
bolster the defenses of DOD information networks and the Marine Corps 
Enterprise network.
    Lastly, the Marine Corps remains fully committed to improving 
Embassy security by adding approximately 1,000 Marine Corps Embassy 
Security Guards (MCESG) as requested by Congress. The redesigned force 
structure consists of the Marines necessary to maintain our steady-
state deployments and crisis-response capabilities in the operating 
forces as well as the additional Marines for MCESG. We have absorbed 
new mission requirements while reducing our overall force size.
Expeditionary Force 21
    Expeditionary Force 21 (EF 21) is the Marine Corps' capstone 
concept that establishes our vision and goals for the next 10 years and 
provides a plan for guiding the design and development of the future 
force. One third of the Marine Corps operating forces will be forward 
postured. These forces will be task-organized into a greater variety of 
formations, capable of operating from a more diverse array of ships 
dispersed over wider areas, in order to meet the Combatant Commanders' 
security cooperation and partner engagement requirements. In the event 
of crises, we will be able to composite these distributed formations 
into larger, cohesive naval formations.
    Expeditionary Force 21 will inform future decisions regarding how 
we will adjust our organizational structure to exploit the value of 
regionally focused forces. A fixed geographic orientation will 
facilitate Marine Commanders and their staffs with more frequent 
interactions with theater- and component-level organizations, 
establishing professional bonds and a shared sense of the area's 
challenges and opportunities.
    Expeditionary Force 21 provides the basis for future Navy and 
Marine Corps capability development to meet the challenges of the 21st 
Century. The vision for Expeditionary Force 21 is to provide guidance 
for how the Marine Corps will be postured, organized, trained, and 
equipped to fulfill the responsibilities and missions required around 
the world. Through Expeditionary Force 21 we intend to operate from the 
sea and provide the right sized force in the right place, at the right 
time.
                            the reawakening
    As we drawdown our force and focus the Marine Corps toward the 
future, we see an opportunity to re-set our warfighting institution and 
foster a Reawakening within our Corps. For the past 12 years of war, 
Marines have performed heroically on the battlefield. In Iraq and 
Afghanistan, Marines have carried on the Corps' legacy of warfighting 
prowess, and every Marine should be proud of that accomplishment. But 
as the preponderance of our Marine forces return from Afghanistan and 
we are focusing our efforts on the foundations of discipline, 
faithfulness, self-excellence and concerned leadership that have made 
us our Nation's premier, professional fighting force. This is the time 
to reset and prepare for future battles.
Focus on Values
    There is no higher honor, nor more sacred responsibility, than 
becoming a United States Marine. Our record of accomplishment over a 
decade of conflict will be in vain if we do not adhere to our core 
values. Our time honored tradition and culture bears witness to the 
legions of Marines who have gone before and who have kept our honor 
clean. Marine Corps leadership has long recognized that when resetting 
the force following sustained combat, Marines must embrace change. We 
are mindful of the many challenges that lie ahead; there is much work 
left to be done.
    Our purposeful and broad-range efforts to reset the Corps have to 
be successful. We must retain our focused observance to the basic 
principles and values of our Corps. We refer to them as the soul of our 
Corps. As such, all Marines are rededicating themselves to persistent 
discipline; faithful obedience to orders and instructions; concerned 
and engaged leadership; and strict adherence to standards. These iron-
clad imperatives have defined our Corps for 238 years. As we reset and 
Reawaken the Corps, our focus on the individual soul of the Corps is 
crucial.
    The Marine Corps is fully committed to improve diversity and 
opportunity for the men and women who wear our uniform and we are 
actively seeking innovative solutions to improve our Corps. Over the 
last year, I have personally sought out successful women leaders in the 
corporate sector to help us better understand how they are achieving 
success in the areas of diversity, inclusion and integration of women 
in the workplace. This has paid immeasurable dividends, as we have 
gained a better appreciation for the dynamics on how to address and 
positively affect culture change within our ranks.
Marine Corps Force Integration
    The Marine Corps continues its deliberate, measured, and 
responsible approach to researching, setting conditions, and 
integrating female Marines in ground combat arms Military Occupational 
Specialties (MOS) and units. We welcome the chance to broaden career 
opportunities for all Marines that the Secretary of Defense's 
overturning of the Direct Ground Combat Assignment Rule offers us. 
Beginning in 2012, we assigned qualified female Marine officers and 
Staff Non-Commissioned Officers (SNCO) to 21 previously closed combat 
arms battalions in the assault amphibian, tank, artillery, low-altitude 
air defense and combat engineer fields. Since the elimination of the 
assignment policy restriction last year, we began conducting infantry-
specific research by providing an opportunity for female officer 
volunteers to attend the Infantry Officer Course (IOC) following 
completion of initial officer training at The Basic School.
    In 2013, we continued this infantry-specific research by providing 
an opportunity for enlisted female Marine volunteers to attend the 
Infantry Training Battalion (ITB) following graduation from recruit 
training. As a result of these assignment and early training 
assessments, the Marine Corps currently offers opportunities to female 
Marines in 39 of 42 occupational fields representing over 90 percent of 
our primary individual MOSs and in more than 141,000 positions world-
wide. Know that your Marine Corps will continue to maintain high levels 
of combat readiness, while integrating female Marines into previously 
closed occupational fields and units to the maximum extent possible. We 
will continue to conduct the research and assessment of these 
integration efforts to ensure all Marines are provided an equitable 
opportunity for success in their chosen career path.
Sexual Assault Prevention and Response
    Sexual assault is criminal behavior that has no place in our Corps; 
we are aggressively taking steps to eradicate it. Over the past 2 
years, we have tackled the sexual assault problem head on and have seen 
measurable improvements in three specific areas--prevention, reporting, 
and offender accountability.
    The Marine Corps continues to implement its Sexual Assault 
Prevention and Response Campaign Plan. Launched in June 2012, the SAPR 
Campaign Plan called for large-scale institutional reforms, to include 
the implementation of SAPR training programs on an unprecedented scale 
and frequency. This includes the continued refinement of prevention 
training Corps-wide, while strengthening capabilities for victim care, 
offender accountability, and program assessment. Our reforms have 
yielded many positive results that affect Marines on an individual 
level, while steadily transforming the Corps into a leading institution 
in both preventing and responding to this crime. The most promising 
result of the Campaign Plan thus far has been the continued rise in 
reporting.
    In fiscal year 2013, reports of sexual assault in the Marine Corps 
increased by 86 percent continuing a trend started in fiscal year 2012, 
which saw a 31 percent reporting increase. In addition, 20 percent of 
all fiscal year 2013 reports were made for incidents that occurred 
prior to the victim joining the Corps; 17 percent were made for 
incidents that took place over 1 year ago. With sexual assault being a 
historically under-reported crime, we believe that these trends speak 
directly to the trust and confidence that Marines have in their 
immediate commanders and the overall Marine Corps' program. These 
encouraging developments suggest that our efforts are working to 
increase awareness of SAPR resources and to establish a healthy 
environment of respect and dignity where victims feel confident in 
coming forward.
    With this increased sexual assault reporting, I anticipated an 
increased demand within the military justice system. Consistent with 
this prediction, between fiscal year 2012 and fiscal year 2013, the 
number of child and adult sex offense prosecutions increased from 59 to 
119. The number of those cases that were contested increased by over 
160 percent. These numbers reinforce the need to continue building and 
manning a first-rate legal practice in the Marine Corps, comprised of 
quality judge advocates and legal service specialists, that anticipates 
and adapts to evolving legal challenges.
    In 2012, I restructured the model for the delivery of legal 
services in the Marine Corps in order to elevate the practice of law 
and better handle complex cases, such as sexual assaults. This new 
model does two key things: (1) it centralizes supervision of the 
military law practice; and (2) it puts more competent and experienced 
attorneys in charge of the military justice system. Without question, 
the restructuring of our legal community dramatically improved our 
performance in prosecuting, defending, and judging sexual assault and 
other complex trials. I am committed to reinforcing the success gained 
by this reorganization.
    We are continuing to evaluate and assess the new demands placed on 
our military justice system and our legal community. These include the 
creation and expansion of the Victims' Legal Counsel Organization 
(VLCO) and the extension of the requirement to provide military justice 
experts to the Office of Military Commissions (OMC). To meet these 
increasing demands and new legislative initiatives affecting our 
justice system, I have directed an internal review of our retention and 
assignment policies to ensure we can continue to operate a first class 
military justice system. This review will have two goals. In the short 
term, we must ensure we have a sufficient number of qualified judge 
advocates to confront the immediate requirements. In the long term, we 
must ensure that judge advocates serve in assignments that will 
maximize their military justice expertise, while maintaining their 
credibility and skills as unrestricted Marine Officers, to include 
operational law and traditional Marine Corps leadership assignments.
Recruiting and Retaining High Quality People
    We make Marines, win battles, and return quality citizens back to 
their homes across America, citizens who, once transformed, will be 
Marines for life. Your Corps must be comprised of the best and 
brightest of America's youth. To operate and succeed in volatile and 
complex environments, Marines must be physically fit, morally strong, 
and possess the intelligence required to make good decisions and 
operate advanced weapon systems. It is a complex and ever-evolving 
profession.
    The Marine Corps utilizes a variety of officer and enlisted 
recruiting processes that stress high mental, moral, and physical 
standards. Additionally, all processes are continuously evaluated and 
improved to ensure that recruits meet or exceed the highest standards 
possible. Retaining the best and most qualified Marines is accomplished 
through a competitive career designation process for officers, and a 
thorough evaluation process for enlisted Marines, both of which are 
designed to measure, analyze, and compare our Marines' performance, 
leadership and accomplishments.
Civilian Marines
    Our civilian Marines serve alongside our Marines all around the 
world. Our civilian Marine workforce remains the leanest of all 
services with a ratio of one civilian to every 10 active duty Marines 
(1:10). Additionally, our civilian labor represents less than 5 percent 
of the Marine Corps' total Operations and Maintenance (O&M) budget. 
More than 95 percent of our civilians are located outside the Pentagon 
at our bases, stations, depots and installations. Civilian Marines 
provide stability in our training and programs when our Marines rotate 
between units, demonstrating that our ``best value'' for the defense 
dollar applies to the total force.
    The Marine Corps supports measures that enhance consistency, 
efficiency and cost effectiveness of our workforce. Since 2009, we have 
restrained growth by prioritizing civilian workforce requirements. 
Additionally, we have realigned resources to retain an affordable and 
efficient workforce. In reaction to Defense Departmental reductions, we 
stood up an Executive Steering Group to determine how to minimize 
stress to our workforce. As we move forward we will continue to keep 
faith with our All-Volunteer Force of Federal civilians.
                                summary
    Marines are key components to the range of military missions our 
national security demands. We are proud of our reputation for frugality 
and remain one of the best values for the defense dollar. In these 
times of budget austerity, the Nation continues to hold high 
expectations of its Marine Corps, and our stewardship of taxpayer 
dollars. The Marine Corps will continue to meet the needs of the 
Combatant Commanders as a strategically mobile force optimized for 
forward-presence, and crisis response.
    As we continue to work with Congress, the Department of the Navy, 
and the Department of Defense, your Marine Corps remains focused on 
today's fight and the Marines in harm's way. The United States Marine 
Corps will remain the Nation's premier crisis response force. We will 
remain most ready, when the Nation is least ready . . . always faithful 
to our Marines, Sailors and families.

    Senator Durbin. Thanks, General Amos.
    Vice Admiral Braun.
STATEMENT OF VICE ADMIRAL ROBIN BRAUN, CHIEF, UNITED 
            STATES NAVY RESERVE
    Admiral Braun. Thank you. Chairman Durbin, Madam Chairwoman 
Mikulski, Vice Chairman Cochran, and distinguished members of 
the committee: Thank you for the opportunity to appear before 
you today on behalf of the 61,000 Navy Reserve sailors from 
communities across America who serve our Navy.
    Today's Navy Reserve is a fully aligned and integrated 
element of the Navy Total Force. Our sailors bring skill sets 
that have been honed by both military and civilian training. It 
is this depth and breadth of experience unique to the citizen 
sailor that enhances operational readiness and strengthens our 
force.
    Since 9/11, our operational support has included over 
70,000 mobilizations of Navy Reserve sailors. At this moment, 
almost 3,500 Reserve sailors are mobilized across the globe.
    These sailors provide unit-level surge capacity in support 
of combatant commander requirements, such as our Reserve Seabee 
battalions that are on the ground now in Afghanistan.
    Reserve sailors also shoulder the majority of the Navy's 
Individual Augmentation commitment, and fill critical at-sea 
billets where needed, such as onboard the USS Ponce, an Afloat 
Forward Staging Base.
    At home, Reserve sailors serve as instructors onboard Naval 
Station Great Lakes, molding the Navy's newest recruits into 
sailors, and in the Naval Air Training Command, honing the 
technical skills of our best and brightest.
    They bring experience and expertise to evolving programs, 
like unmanned systems and cyber-operations, and to new missions 
such as the Reserve Female Support Technicians, who deploy with 
our SEAL teams.
    The Navy Reserve is the sole provider of the Navy's organic 
airlift. Flexibility, efficiency, and responsiveness are what 
make our air logistics fleet a primary enabler for the Navy's 
forward-presence in every corner of the globe.
    Our C-40 cargo aircraft deliver where and when it matters, 
removing combat-essential aircraft parts to CENTCOM (Central 
Command), to transporting entire LCS (littoral combat ship) 
crews to PACOM (Pacific Command).
    On any given day, approximately 25 percent of the Navy 
Reserve is providing operational support. Our citizen sailors 
are Mayo Clinic neurosurgeons that have used their expertise to 
allow wounded warriors to walk again. They are corporate I.T. 
professionals who use their cutting-edge skills to train the 
fleet in cyber-protection. They are police officers, engineers, 
airline pilots, and business leaders from across America.
    The value they bring in terms of civilian and military 
experience, operational capability and capacity, and overall 
maturity, is substantial.

                           PREPARED STATEMENT

    The President's budget leverages the unique advantages 
found in the Reserve component. In fact, of the Navy's total 
military personnel cost, our portion is just over 6 percent, 
yet we comprise 15 percent of the Navy's total end-strength.
    On behalf of our Reserve sailors, I would like to again 
offer my sincere thanks for the committee's ongoing support and 
dedication. I look forward to your questions. Thank you.
    [The statement follows:]
           Prepared Statement of Vice Admiral Robin R. Braun
    Chairman Durbin, Ranking Member Cochran, and distinguished members 
of the subcommittee: Thank you for this opportunity to present an 
update on the United States Navy Reserve. I have had the honor of 
leading over 61,000 dedicated Reserve Sailors over the past year and a 
half, and I look forward to sharing my thoughts with you on their 
strategic and operational importance as a part of the Navy's Total 
Force. Navy Reserve Sailors live and serve in every State and territory 
and are also deployed forward at sea and ashore to every theater. I am 
honored to appear here today to represent them and on their behalf 
would like to extend my heartfelt thanks for the support you continue 
to provide.
    Next spring, we will recognize a significant milestone as we 
celebrate the 100th anniversary of the Navy Reserve. Our beginnings 
actually predate 1915, as citizen Sailors augmented the Continental 
Navy during the first days of our Republic. Our role expanded during 
WWII, a conflict in which five future U.S. presidents served in the 
Navy Reserve. Today's Navy is structured and operating as a fully 
aligned and integrated Total Force where the Reserve Component (RC) 
provides critical capability and surge support at tremendous value. The 
Reserve Component accounts for approximately 15 percent of the Navy's 
military end strength at just over 6 percent of the Navy's total 
military personnel cost.
    Every year in the planning, programming and budgeting process, Navy 
leadership analyzes force structure and capabilities. Where periodic 
and predictable missions align with operational prudence, the Navy 
tasks the Reserve Component, in whole or in part, with execution of 
these missions. Reserve Sailors are used in augmenting, mirroring, or 
complementary roles depending on the type of mission, required response 
timeline, and associated costs.
    In January 2014, we published our annual Navy Reserve Strategic 
Plan, embodying concepts that are in alignment with the Chief of Naval 
Operations' Sailing Directions. This plan also outlines the Navy 
Reserve's mission, vision, and strategic focus areas:
      Mission.--The mission of the Navy Reserve is to deliver strategic 
        depth and operational capability to the Navy, Marine Corps, and 
        Joint Forces.
      Vision.--The Navy Reserve provides essential naval warfighting 
        capabilities and expertise, strategically aligned with mission 
        requirements--valued for our readiness, innovation, and 
        agility.
      Strategic Focus Areas.--Deliver a Ready and Accessible Force; 
        Provide Valued Capabilities; and Enable the Service of Our 
        Sailors and Civilians.
    The Navy Reserve Strategic Focus areas are purposefully derived 
from the CNO's Tenets: Warfighting First, Operate Forward, and Be 
Ready. As an integral part of the Navy, we continue to be fully 
committed to these guiding principles and focus our resources to align 
with the CNO's strategic vision. The Navy Reserve routinely and 
deliberately focuses on Total Force alignment and integration with the 
Active Component (AC). The result is a Navy manned by Active and 
Reserve Shipmates serving steadfastly alongside each other--Sailors who 
have distinct skills and strengths, but whose commitment and patriotism 
are indistinguishable.
        warfighting first: deliver a ready and accessible force
    Reserve Sailors are deployed in every theater supporting the 
ability to deter, influence and win during this era of uncertainty. 
Since 11 September 2001, the Navy Reserve has completed 70,060 
mobilizations in support of contingency operations around the world. 
These requirements were filled by 54,476 Selected Reserve Sailors, with 
22 percent (12,218) supporting multiple mobilizations. In fiscal year 
2013, 4,360 Sailors were mobilized in support of Global Force 
Management Allocation Plan (GFMAP) Combatant Commander (CCDR) 
requirements--a level of operational support that constitutes 78 
percent of the Navy's Individual Augmentation (IA) effort. As U.S. 
force levels adjust in Afghanistan, the Navy Reserve will mobilize to 
fill most of the remaining IA requirements, allowing AC Sailors to fill 
critical sea duty billets. In fiscal year 2014, we estimate 2,650 
Reserve Sailors will be mobilized to support 81 percent of the Total 
Force IA commitment.
    On any given day, approximately 25 percent of Sailors serving in 
the Navy Reserve are providing operational support to AC commands. Our 
Reserve Force remains flexible, responsive, and innovative--attributes 
that will continue to provide a solid foundation for the Navy's focus 
on putting Warfighting First. The President's budget for fiscal year 
2015 (PB-15) will allow the Reserve Component to continue to provide 
the following operational capabilities:
      Expeditionary.--Mirroring AC force structure in the RC provides 
        surge capability that increases Total Force capacity. Sailors 
        assigned to Navy Expeditionary Combat Command (NECC) represent 
        the single largest community of Sailors mobilized in 2013. They 
        have served brilliantly in the U.S. Central Command (CENTCOM) 
        area of responsibility (AOR) conducting a variety of missions. 
        RC Seabees serve across Afghanistan providing critical combat 
        construction support and conducting training missions building 
        partner nation capacity. Seasoned RC Sailors in our Seabee 
        Battalions bring the added benefits of valuable civilian skill 
        sets, experience, and maturity. Navy Expeditionary Logistics 
        Support Group supports the multi-modal retrograde of rolling 
        stock, containers, and equipment from Afghanistan to ports in 
        Kuwait, United Arab Emirates, Jordan, and Oman. Coastal 
        Riverine Squadrons provide command and control and waterside/
        landward protection to U.S. Navy installations and other 
        designated high-value assets in selected CENTCOM and U.S. 
        Africa Command (AFRICOM) ports.
      Naval Special Warfare (NSW).--SEAL Teams 17 and 18 provide 
        Special Operations capabilities to CCDRs by deploying SEAL, 
        Special Warfare Combatant Craft (SWCC) and combat service 
        support personnel to support Theater Special Operations 
        Commands. Of specific note, the role of women in the NSW 
        community is expanding. Reserve Female Support Technicians are 
        a vital augment to Navy SEAL Teams and are currently deployed 
        to Afghanistan. The maturity, continuity, and expertise of our 
        Reserve Sailors provide a unique capability for the NSW 
        community as these Sailors operate throughout every CCDR AOR.
      Rotary Wing Aviation.--The Reserve Component provides rotary wing 
        squadrons that deliver key capabilities to the fleet and 
        Combatant Commanders. HSC-84 and 85 currently provide standing 
        crisis response detachments in support of Naval Special Warfare 
        and joint special operations forces in the CENTCOM and PACOM 
        AORs. HSL-60 is the Navy Reserve's only Light Airborne Multi-
        Purpose System (LAMPS) Mark-III squadron and deploys SH-60B 
        helicopters aboard surface combatants in support of fleet 
        requirements. Helicopter Mine Countermeasure Squadrons, HM-14 
        and HM-15, are AC squadrons that employ a composite AC/RC force 
        structure. Flying the MH-53E Super Stallion, their rapidly 
        deployable airborne mine countermeasures capability is 
        necessary for crisis response to any location in the world 
        where a mine threat may exist.
      Maritime Patrol and Reconnaissance Aviation.--Reserve Maritime 
        Patrol squadrons (VP-62 and VP-69) flying P-3 Orion aircraft 
        have been mobilized and deployed to meet PACOM GFMAP 
        requirements. Fulfilling operational commitments normally met 
        by AC units, this forward presence is helping to enable the 
        Maritime Patrol and Reconnaissance Force (MPRF) transition to 
        the P-8 Poseidon. The squadrons operate in support of missions 
        including Humanitarian Assistance/Disaster Relief (HA/DR), 
        Anti-Submarine Warfare, and Intelligence, Surveillance, and 
        Reconnaissance (ISR) sorties throughout the Western Pacific 
        region.
      Navy Air Logistics.--The Navy Unique Fleet Essential Airlift 
        (NUFEA) community provides the air logistics capability that 
        resides exclusively in the Reserve Component. This mission is 
        conducted using C-40A, C-130T, C-9B, and C-20G cargo and 
        passenger aircraft. NUFEA is a force multiplier providing 
        flexible, responsive, and efficient logistics capability to 
        support the Navy's forward presence around the globe. In fiscal 
        year 2013 NUFEA transported 23 million pounds of cargo and 
        118,000 personnel resulting in an estimated cost avoidance of 
        $900 million compared to alternative DOD/commercial 
        transportation options.
      The C-40A Clipper cargo and passenger aircraft showcased its 
        capabilities by executing the first Littoral Combat Ship ``Crew 
        Swap'' mission, traveling over 8,000 miles in 25 hours to 
        transport 76 USS Freedom (LCS-1) Core and Surface Warfare 
        Mission Module crew members to Singapore. Additionally, Navy C-
        40A crews delivered a load of time-sensitive, safe-for-flight 
        replacement components for grounded Navy and Marine Corps F/A-
        18 Hornets in CENTCOM within 72 hours of the grounding, 
        minimizing the operational impact.
      Reserve Information Technology (IT) Skill-Diversity.--RC Sailors 
        bring the unmatched benefit of their skills and experience from 
        civilian careers. Over the past year, RC Sailors used their 
        civilian IT security certifications to train and qualify Active 
        Component personnel as Computing Technology Industry 
        Association (CompTIA) Security professionals. Leveraging 
        Reserve Component expertise in this manner helps enable Navy's 
        compliance with DOD IT directives.
              operate forward: provide valued capabilities
    Reserve Sailors provide surge capacity and valued capabilities 
throughout the Navy, Marine Corps, and Joint Force. Our Sailors 
continue to actively seek opportunities to gain knowledge and 
experience while supporting operational needs. The RC delivers 
additional value by fulfilling periodic and predictable requirements 
which releases Active Component manpower to focus on other emergent 
operational demands.
    Information Dominance.--Reserve Sailors serving in the Information 
Dominance Corps Reserve Command (IDCRC) bring relevant civilian 
expertise to the Navy. This unique RC benefit greatly enhances Navy's 
ability to achieve superiority in the information domain. The IDCRC 
brings together Sailors across multiple communities--Intelligence, 
Information Warfare, Cyber Warfare, Information Professionals, Space 
Cadre, and Oceanography--to provide operational advantages by 
integrating functions, capabilities, and resources. This collaborative 
environment produces a synergy that fosters forward-thinking 
innovation, helps optimize decisionmaking and maximizes operational 
effects. These Sailors can provide direct front line operational 
support from Joint Reserve Intelligence Centers (JRICs) across the 
Nation. Whether providing reach back capability or forward deployed 
support, IDCRC Sailors provide critical analysis and awareness to Joint 
and Navy commands and combat support agencies.
    Aviation Training.--The process-oriented, programmatic approach to 
Naval Aviation training capitalizes on seasoned prior-service aviators. 
In addition to on-demand surge capacity, fleet experienced Reserve 
aviators bring stability, continuity, and corporate knowledge to the 
training environment. Embedding RC instructors in Fleet Replacement 
Squadrons provides a scalable, responsive, and cost-effective 
production capacity.
    Within the Naval Air Training Command, Reserve instructor pilots 
and flight officers are fully integrated into Active Component training 
squadrons and have proven essential in the production of Naval Aviators 
for the Navy, Marine Corps, and Coast Guard. In fiscal year 2013, Navy 
Reserve aviators comprised approximately 13 percent of the Instructor 
Pilot population and provided 20 percent of the instructional flight 
hours. This translates to over 52,900 hours directly supporting 
multiple Carrier Qualification, Weapons, Familiarization, and Formation 
detachments.
    Four Reserve squadrons provide over 80 percent of the Navy's 
dedicated Red Air support. They also provide current operations 
intelligence briefs to Fleet personnel, keeping our deploying forces 
abreast of the most recent developments in threat aircraft, equipment, 
and pilot tactics. Using their significant tactical aviation expertise 
and experience, these RC aviators fly legacy F/A-18 and F-5 aircraft 
simulating modern airborne threats in order to prepare fleet aviators 
for the rigors of air-to-air combat. Support sorties span the full 
spectrum of combat aviation preparation from Unit Level Training, Fleet 
Replacement Pilot instruction, Carrier Air Wing pre-deployment 
exercises, and TOP GUN Red Air instruction.
    Religious Ministry Support.--Navy Reserve Chaplains and Religious 
Program Specialists fill both a complementary role as the sole source 
of religious program support to the Marine Forces Reserve and an 
augment role by supporting the Navy's Chaplain Corps. Religious 
Ministry Teams are embedded into every level of command throughout the 
Marine Corps and are assigned to lead prevention efforts in critical 
areas such as Sexual Assault, Suicide, and Domestic Violence. These 
teams also provide surge capacity to the Chaplain Corps for the full 
range of religious ministry requirements.
    Strategic Sealift Officers (SSO).--Reserve Sailors in the Strategic 
Sealift community are prime examples of an operationalized strategic 
asset. These professionals leverage their civilian skills, experience, 
and best practices to enable strategically important wartime logistics 
missions while minimizing manpower costs. Strategic Sealift Officers 
(SSOs) are a Navy Reserve community of professional mariners with vital 
specialized skills and experience essential in supporting national 
defense sealift requirements and capabilities. These alumni of maritime 
academies throughout the country serve in the maritime industry while 
meeting their military obligation in the Navy Reserve after graduation. 
The knowledge and experience these Reserve Sailors bring to the table 
does not exist elsewhere in the Navy--they are unique force multipliers 
and innovation enablers.
    Crisis Response and Defense Support to Civil Authorities (DSCA).--
Reserve augmentation units throughout the fleet provide staffs with 
pre-planned and on-demand surge capacity in times of high workload, 
such as major exercises and crisis response. The Reserve Component 
often brings area expertise, continuity, and operational planning 
skills. When international concern mounted over the potential use of 
chemical weapons by the Syrian government, Reserve Component Officers 
surged forward to support U.S. European Command (EUCOM) planning 
efforts within 72 hours of notification. Reserve Sailors supported 
Expeditionary Strike Group SEVEN when they were called upon to conduct 
Operation DAMAYAN, providing HA/DR following the devastating typhoon in 
the Philippines. This planning and staff augmentation capability is 
also regularly employed in response to domestic tasking. Reserve 
Officers serve as Navy Emergency Preparedness Liaison Officers (NEPLO) 
to provide support, information, and situational awareness to State and 
Regional Commanders during emergency events. Supporting Navy's role in 
conducting HA/DR and Defense Support to Civil Authorities, Reserve 
NEPLOs surge in response to national tasking and provide a low-cost 
alternative to full-time manning.
    Waterfront Ship Maintenance.--Reserve Sailors provide routine 
support maintaining damage control and electrical internal 
communications systems and performing corrosion control. By augmenting 
AC crews during planned preventative maintenance efforts, RC Sailors 
increase command maintenance capacity. This is especially beneficial in 
a constrained fiscal environment where these efforts enable AC crew 
members to spend more time conducting operational training and 
maintaining appropriate levels of readiness.
    Sustaining Forward Presence.--PB-15 will allow the RC to continue 
providing forward presence in support of sustaining new and innovative 
platforms like the Afloat Forward Staging Base (AFSB). USS Ponce, the 
first AFSB in CENTCOM, is employing a balanced manpower solution where 
the Reserve Component is filling a large portion of the required 
billets. RC Sailors are serving in many aspects of the ship's mission, 
from running air operations to providing intelligence analysis.
    Navy Reserve Medicine.--Reserve Component medical professionals are 
a critical component of the Navy's healthcare delivery system. 
Leveraging cutting edge civilian expertise and skills, members of the 
Navy Reserve medical team bring valuable experience and exceptional 
abilities that increase readiness. Navy Reserve Medicine provides long-
term support to overseas contingency operations, operational support to 
HA/DR missions, and is structured to optimize surge response and 
maximize support to the Active Component.
    Military Funeral Honors.--Navy Reserve Sailors are deeply embedded 
foundational members of communities across the country. In this role 
they are the Navy's ambassadors to the citizens whose lives they have 
sworn to protect. Operating out of our 122 Navy Operational Support 
Centers, Navy Reserve Sailors provide a majority of Navy funeral honors 
and chaplaincy support in all 50 States, Guam and Puerto Rico. In 
fiscal year 2013 RC Sailors played a pivotal role in paying tribute to 
our deceased veterans by providing Military Funeral Honors on behalf of 
a grateful nation at over 35,000 funerals.
  be ready: enable the service of our sailors, civilians, and families
    ``Ready Now. Anytime. Anywhere.'' Our motto is a pledge to our 
Sailors, our Navy and our Nation that we will provide trained and ready 
Sailors when and where needed. Though the majority of our Sailors serve 
in uniform on a part-time basis, they live the Navy core values of 
Honor, Courage, and Commitment every day. We are committed to providing 
these Sailors the Quality of Service tools, including resources and 
training, that enable them to succeed. Also critical to that success is 
the support of their families and employers. Our Sailors are able to 
succeed in their assigned missions because of the strong support and 
resources they receive. The current fiscal environment necessitates 
that we continue to assess and focus our efforts on how we train and 
how we best support the Total Force.
    Enabling Operational Training.--PB-15 provides discretionary RPN 
(Reserve Personnel, Navy) funding, in the form of Active Duty for 
Training (ADT) funds, that is the primary catalyst of a trained and 
ready Navy Reserve force. The Navy Reserve primarily employs ADT funds 
to improve the knowledge, skills, and abilities of our Sailors. This 
training can have the added benefit of providing operational support to 
the Active Component, thereby enhancing the Total Force concept. ADT 
funds can be quickly re-allocated so Reserve Sailors can meet emergent 
needs and fill critical fleet gaps. Maintaining funding levels for 
Discretionary RPN has a direct correlation to maintaining operational 
support to the Total Force.
    Reserve Facilities Programs.--The Navy Reserve is a tenant at over 
45 installations, maximizing taxpayer value by sharing facilitates 
wherever possible. Our Military Construction (MILCON) and Facilities 
Sustainment, Restoration, and Modernization (FSRM) programs consist of 
important projects throughout the Navy Reserve Force. Investments 
include direct support to operational missions such as a new C-40A 
aircraft hangar, two new Joint Reserve Intelligence Centers, base 
security upgrades, and airfield pavement repairs. It also includes 
other facility investments including replacing two antiquated and 
inefficient facilities with new Navy Operational Support Centers 
(NOSCs) and comprehensive repairs to several older NOSCs. These 
programs are vital to readiness and morale and provide significant 
improvements in force protection compliance, facility condition and 
configuration, and energy efficiency.
    Information Technology (IT) Initiatives.--The Navy Reserve 
continues to be a leader in IT innovation, having recently fielded 
initiatives that improved connectivity, communication, and 
collaboration capabilities like the deployment of commercial Wi-Fi 
capability to our Navy Operational Support Centers and other Navy 
Reserve facilities. Continuing our efforts to better support our 
Sailors, we have implemented a second phase to increase bandwidth and 
create additional access points at high demand locations. This year we 
are piloting a commercial cloud capability which has the potential to 
significantly improve secure access to Navy computing resources from 
personal devices. These transformative IT delivery avenues will provide 
increased efficiency, effectiveness, and security, thereby improving 
Quality of Service for our Sailors.
    Continuum of Service.--The Navy's missions are accomplished through 
the combined efforts of Active and Reserve Sailors, and the Continuum 
of Service provides opportunities to adjust a Navy career to suit 
changing life circumstances and personal goals. Sailors can transition 
between full-time active duty (365 days per year) and part-time reserve 
duty (minimum one weekend per month and 2 weeks per year) through a 
range of programs. Continuum of Service tools are designed to smooth 
the transition between the Active and Reserve Components and within 
units of the Navy Reserve. The Career Navigator Program and support 
programs such as Transition, Goals, Plans, Success (Transition-GPS) 
enable the Continuum of Service, ultimately allowing the Navy to retain 
our most valuable assets--experienced Sailors.
    Career Navigator Program.--The Career Navigator Program debuted in 
2013, giving our enlisted Sailors the tools to plan and execute career 
decisions faster and more efficiently than ever before. Career 
Navigator supports key Sailor career decisions by employing a group of 
IT systems including Career Waypoints (formerly Fleet RIDE), Career 
Management System-Interactive Detailing (CMS-ID), Career Information 
Management System (CIMS), and Navy Standard Integrated Personnel System 
(NSIPS). Career Waypoints provides Sailors a single point of access to: 
communicate intentions to reenlist; view opportunities for rating 
conversion or reclassification; view opportunities and apply for 
transition between the Active Component and Reserve Component; and 
receive approval to apply for billet assignment. Eventually, Career 
Waypoints will encompass a Sailor Portal, providing an online window 
for Sailors to be able to review their career information, take career 
interest inventory, explore their career options, view their enlistment 
applications, and access career development tools. In addition to 
making it easier for Sailors to manage their careers, our ability to 
balance the force is expedited as we are now able to electronically 
process applications for Reserve Component Sailors to fill critically 
undermanned Active Component billets and for shifting manning to cover 
high priority Reserve jobs.
    Transition, Goals, Plans, Success (Transition-GPS).--We also 
fulfill our commitment to Sailors returning from mobilization by 
equipping them with a roadmap to a smooth transition back to civilian 
life through the Transition-GPS program. Transition-GPS is a critical 
part of the plan to reduce veteran unemployment through the Vow to Hire 
Heroes Act and is a DOD Total Force program that includes: Pre-
separation counseling; a military-to-civilian skills review; a 
Department of Veterans Affairs benefits briefing; financial planning 
support; a Department of Labor workshop on job search skills and resume 
preparation; and a tailored individual transition plan. Full program 
implementation began in 2013 with the Navy Reserve coordinating with 
the staffs of Navy Mobilization Processing Sites (NMPS) and Fleet and 
Family Support Centers to optimize scheduling and participation in the 
5-day classroom curriculum. We are committed to continually improving 
our execution of the program as we integrate this concept into the 
Reserve military life cycle.
    Employer Support of the Guard and Reserve (ESGR).--Employers are a 
key pillar of support for our Reserve Sailors. By partnering with ESGR 
we are able to develop synergy in connecting with, educating, and 
thanking employers in order to strengthen support for Reserve service. 
Every year we recognize employers who provide extraordinary support to 
their Navy Reserve employees. The Navy Reserve Employer Recognition 
Event showcases the Navy's capabilities and highlights the essential 
nature of the contributions provided by their employees during periods 
of military service. Employers have the opportunity to interact with 
Reserve Sailors and view equipment to learn about the capabilities in 
the expeditionary, special operations, surface, and aviation 
communities. The day's activities also give us the opportunity to 
recognize them for their commitment to the service of their citizen-
Sailor employees.
    Yellow Ribbon.--The Yellow Ribbon Reintegration Program (YRRP) 
provides our Sailors and their families with deployment and 
reintegration information to assist them in meeting the challenges 
associated with mobilization. In collaboration with our partners which 
include ESGR, the Department of Veterans Affairs, and community-based 
networks of care, the YRRP provides information, referrals and outreach 
to military members, their families, employers and immediate support 
network. Our flagship program under the YRRP is the Navy Reserve's 
Returning Warrior Workshop (RWW). The RWW is a post-deployment event 
that facilitates the reintegration process for Reserve Sailors and 
their spouse or designated individual of their choice. The RWW honors 
the sacrifices of servicemembers and their families and can identify 
psychological health issues to connect Sailors with needed follow-on 
care. This Navy program has been described as a ``best practice'' 
within the DOD YRRP and has served over 14,000 attendees since 2008. 
Always looking for innovative ways to make it easier for Sailors and 
families to serve, the Navy Reserve recently produced the ``Deployment 
and Transition Guide,'' a tool that provides significant breadth and 
depth of information to prepare Sailors and their families for all 
phases of a military deployment. If history is a reliable indicator of 
the future, the need for reintegration programs will outlast the 
conflicts that precipitate the requirement.
    Suicide Prevention.--The Navy Reserve is committed to suicide 
prevention and education. We have implemented a comprehensive series of 
programs to foster resiliency and encourage bystander intervention, and 
reduce the stigma associated with seeking help. We are encouraged that 
suicides declined 50 percent among Reserve Sailors from 2012 to 2013 
and that at-risk Sailors are more frequently seeking help. The 
Psychological Health Outreach Program (PHOP) ensures that Reserve 
Sailors and their family members understand the psychological 
healthcare services available. PHOP Outreach Teams educate and equip 
Reserve Sailors and family members as they interact during site visits. 
They also support Returning Warrior Workshops and maintain regular 
contact with recently demobilized Sailors.
    Sexual Assault Prevention.--The Navy Reserve engages in a wide 
variety of initiatives to improve readiness and prevent subversive and 
destructive behavior. Our sexual assault prevention program remains one 
of our most important initiatives. Our message is unwavering and 
persistent--sexual assault has no place in the Navy's culture of honor, 
courage, and commitment. We have appointed a full-time program manager 
to provide oversight and coordination for our Sexual Assault Prevention 
and Response (SAPR) initiatives. Our Sailors have led and participated 
in prevention and response training at all levels: SAPR-Fleet, SAPR-
Leadership, General Military training, and a SAPR stand-down. This 
training is embedded in our leadership courses and prioritized at all 
levels of the chain-of-command. Commanding Officers are directed to 
have a Command Climate Survey within 90 days of assuming command and 
they are required to review the results with their reporting senior and 
brief unit members. There is still work to be done, but we are making 
progress in breaking down barriers to reporting within the Navy 
Reserve. Sexual assault is unacceptable within our ranks, and we remain 
committed to eradicating it from our Force. We are ensuring any sexual 
assault cases are handled by the military justice system in a timely, 
fair, and effective manner and we are committed to meeting the needs of 
victims while respecting their rights and preferences.
                           manning our force
    Our most important asset is our people. Recruitment and retention 
of quality Sailors continues to be a high priority for the Navy 
Reserve. The demands of the Fleet require an aggressive strategy to 
provide the proper inventory of trained and ready personnel. Despite a 
31-percent reduction in end strength over the past 10 years, the Navy 
Reserve continues to fill critical roles in Navy's Total Force mission 
across almost every designator and rating. Successful recruiting and 
retention strategies are vital in attracting and retaining the right 
skill sets and talent to support the Navy's needs. These efforts focus 
on matching individual qualifications to billet requirements and are 
supported by a targeted and tiered bonus structure.
    Recruiting.--In fiscal year 2013, Navy Recruiting achieved success 
in Selected Reserve enlisted recruiting programs, but did not meet RC 
officer goals in the Unrestricted Line (URL) and Medical Corps 
communities. Navy Recruiting attained 77 percent of the overall general 
officer recruiting and 75 percent of the RC Medical Department officer 
goals. Strong AC retention equates to smaller numbers of officers 
leaving active duty which significantly reduces the prior service pool, 
the RC's primary source for URL officers. In some Restricted Line and 
Staff Corps communities, Direct Commission Officer (DCO) programs have 
been extremely successful in recruiting officers with no prior service 
to supplement the pool of officers leaving active duty.
    Accessing Health Care Professionals remains our greatest recruiting 
challenge. Thanks to past Congressional action, the Navy Reserve has 
authority to expend resources to attract and retain these officers for 
critically undermanned wartime specialties. However, lack of awareness 
about Reserve service, impact of mobilizations on medical practices, 
and significant income loss during military service continue to hinder 
medical officer recruiting.
    Retention.--We are encouraged to see high retention rates across 
the Navy Reserve Force. We gauge retention by quantitatively monitoring 
attrition, and current attrition rates are more than 2 percent below 
the previous 5 year average. In fiscal year 2013, officer attrition was 
10.18 percent and enlisted attrition was 17.15 percent. The first 
quarter of fiscal year 2014 indicates similar performance can be 
anticipated, as we are observing very similar attrition rates. The Navy 
Reserve is able to manage planned Officer and Enlisted reductions 
through voluntary means by reducing total accessions below natural 
attrition and focusing special/incentive pays to shape manning in 
critically undermanned ratings and designators.
    Special Bonus and Incentive Pay.--A Selective Reenlistment Bonus is 
used to improve retention of Enlisted Sailors in targeted specialties, 
while affiliation and enlistment bonuses are used to recruit Sailors in 
targeted ratings and specialties from both prior service veterans and 
direct accessions of non-prior service recruits. Officer accession and 
affiliation bonuses and Special Pays (to include Special Pay for the 
retention of Healthcare Professionals) are used to maintain or increase 
inventory by targeting undermanned pay grades in critical and 
undermanned skill sets. Additionally, Navy has received ``critical'' 
designation for Naval Special Warfare (SEAL) officers, authorizing a 
limited Critical Skills Retention Bonus in an effort to further reduce 
attrition. This authority is especially important today because the 
accession pool for Reserve URL officers, such as those in the SEAL 
communities, is predominantly limited to previously designated officers 
leaving active duty and is directly impacted by high Active Component 
retention.
                          equipping our force
    The Reserve Force depends on modernized and well-maintained 
equipment to accomplish our assigned missions. To that end, I would 
like to personally thank the committee for the support you provide to 
the Navy Reserve. In fiscal year 2015, we will accept delivery of two 
C-40As, bringing our total inventory to 14 aircraft, and a 15th C-40A 
will be delivered in fiscal year 2017. The procurement of two 
additional aircraft is needed to fulfill the risk-adjusted requirement 
of 17 C-40As, which will allow the Navy to complete the divestiture of 
aging, inefficient, and costly C-9B and C-20G legacy aircraft. The Navy 
Reserve C-40A cargo and passenger aircraft program places the Fleet 
closer to realizing a more capable and cost-effective lift capability.
                         looking to the future
    Today's Navy Reserve serves as a hedge against uncertainty by 
providing agility, capability and capacity to the Total Force--
delivering ready and capable Sailors where it matters, when it matters. 
The Navy relies on its Reserve Component as a dependable source of 
strength to mitigate risk and offset cost whether augmenting 
warfighting requirements overseas, supporting major contingencies at 
home, or providing enduring core capabilities. We will continue to 
evaluate integration of effort, and the balance of roles and 
responsibilities between Active and Reserve components as the Navy 
rebalances toward the Asia-Pacific.
    Littoral Combat Ship (LCS).--With the addition of LCS to the Fleet, 
Reserve Sailors are providing waterfront seaframe maintenance, 
security, watchstanding, Mission Module support, and LCS Squadron 
logistics and administrative support to the Navy's newest ships. They 
are also engaged in Train-to-Qualify (T2Q) pipeline training onboard 
LCS seaframes. As the LCS fleet grows, Navy Reserve will add additional 
support capacity.
    Cyber.--Cyber operations are a core component of each of the three 
pillars identified in the Navy's Information Dominance Strategy. 
Reserve Cyber operational support teams are at the forefront of their 
field, participating in exercises that shape the defense of critical 
national infrastructure and key resources. Additionally, Reserve 
Sailors continue to actively develop and test pre-planned responses to 
cyber threats, preparing fleet Sailors to properly and reliably respond 
to various scenarios. The Navy Reserve will continue to leverage the 
skills of all our Information Dominance professionals and will look for 
opportunities to further strengthen AC/RC integration within the 
Information Dominance Corps.
    Unmanned Systems.--As the Navy continues to introduce unmanned 
systems to the fleet, the Reserve Component offers cost effective 
solutions for this mission. Reserve Sailors have been mobilized in 
support of Tigershark/Copperhead UAS conducting counter Improvised 
Explosive Device (IED) missions in Operation ENDURING FREEDOM. We have 
also been providing support to the Persistent Ground Surveillance 
System (PGSS) which provides Forward Operating Base ISR coverage at 
sites throughout Afghanistan.
    The Navy has already integrated Reserve Component manpower in the 
Fire Scout program and is currently developing plans for the MQ-4C 
Triton. The periodic and predictable nature of Triton's operating 
construct is particularly well suited for the Navy Reserve. Utilizing 
RC manpower can provide flexibility, on-demand surge capacity, and 
potentially reduce personnel and operating costs through pragmatic and 
innovative solutions. We stand ready to fill roles in all areas of 
unmanned systems.
    Aviation Force Structure.--Within the arena of manned systems, in 
addition to the requirement to complete the recapitalization of the Air 
Logistics fleet, other areas of specific focus are Airborne Electronic 
Attack and Maritime Patrol and Reconnaissance. Reserve Component 
aviators developed and led training in support of the MPRF Active 
Component's P-8 transition utilizing their extensive commercial Boeing 
737 experience. We will continue to seek further opportunities to 
utilize these highly skilled aviators in a more operational role.
    VAQ-209, formerly an EA-6B Prowler Squadron, completed a homeport 
shift to NAS Whidbey Island in order to align more closely to the 
Navy's base for AEA force structure. They are currently completing 
their transition to the EA-18G Growler and will deploy in support of 
CCDR requirements on the fiscal year 2015 GFMAP.
    High Value Unit Escort.--The High Value Unit (HVU) escort mission 
involves providing protection for vessels as they transit in and out of 
port. The Navy is assuming this mission from the U.S. Coast Guard, 
leveraging the capabilities of RC Sailors assigned to NECC's Coastal 
Riverine Force. This Reserve Component solution is enabling the Navy's 
previously scheduled AC units to maintain their established operational 
deployment schedule. Beginning in fiscal year 2015, the Navy Reserve is 
expected to expand our HVU escort mission to additional stateside 
ports.
    Joint High Speed Vessel.--Reserve Sailors are serving as the 
Military Detachment Headquarters providing command and control (C2) 
capability in support of USNS Spearhead's 3-month maiden deployment. As 
the C2 element for 80+ Active Component Sailors and Marines, these 
Reserve Sailors will work in concert with Spearhead's crew of civilian 
mariners conducting a variety of missions within the EUCOM and AFRICOM 
AORs. This ad hoc solution showcases the versatility and adaptability 
of the RC in supporting evolving missions.
                               conclusion
    For almost a century the Navy Reserve has answered the Nation's 
call. Today's Navy Reserve Sailors continue to serve as a force 
multiplier and have been relied upon to support a wide spectrum of 
mission areas across the globe. The Navy Reserve remains postured to be 
the go-to force for integrating and augmenting the Navy, Marine Corps, 
and Joint Forces. The President's fiscal year 2015 budget request 
provides resources to support a Navy Reserve force structure of 57,300 
Sailors. We will continue to seek opportunities to further align Active 
and Reserve force structure, manpower, and missions, leverage the 
unique advantages found in the Reserve Component, and enhance Quality 
of Service for every Sailor. In so doing we will deliver surge capacity 
and operational capability to the Navy, Marine Corps and Joint Forces, 
posturing the United States Navy for success today and in the future 
security environment. On behalf of your Navy Reserve Sailors, I would 
like to again offer sincere thanks for your continued support.

    Senator Durbin. Thank you very much.
    Lieutenant General Mills.
STATEMENT OF LIEUTENANT GENERAL RICHARD MILLS, CHIEF, 
            UNITED STATES MARINE CORPS RESERVE
    General Mills. Chairman Durbin, Vice Chairman Cochran, Vice 
Chairwoman Mikulski, distinguished members of the subcommittee: 
It is my honor to appear before you today to speak about your 
Marine Corps Reserve.
    Mr. Chairman, we welcome your leadership, and I am very 
grateful for your support, and the subcommittee's continued 
support of the Marine Corps Reserve and its associated 
programs, programs that help us sustain ourselves as a ready, 
relevant, and responsive component of the Marine Corps Total 
Force.
    With me today is force Sergeant Major Anthony A. Spadaro. 
Sergeant Major Spadaro's engaged leadership with our Reserve 
enlisted Marine members--for the members who collectively are 
the strength of the Marine Corps Reserve, his leadership is 
truly inspiring.
    Since taking command last August, I have been deeply 
impressed by the professionalism, the competence, and the 
dedication of our magnificent reservists. Like their Active-
Duty brothers and sisters, they sacrifice so much of their 
time, and so much of themselves, to protect and serve our great 
Nation.
    The way they balance their family responsibilities, their 
civilian lives, their schools, their jobs, and their careers, 
and still stay 100 percent Marine, truly inspires me.
    Our reservists share the same culture of deployment and 
expeditionary mindset that has dominated the Marine Corps 
culture, ethos, and thinking since our service's beginning more 
than two centuries ago.
    I am proud to say that since 9/11, almost 63,000 marines 
from the Ready Reserve have executed a total of more than 
82,000 sets of mobilization orders.
    A critical enabler for our operational tempo has been the 
Navy's Bureau of Medicine's continued support of behavioral 
health through various independently contracted programs, 
programs such as the post-deployment health reassessment, the 
mental-health assessments, and the psychological health 
outreach program that help our marines immeasurably.
    These programs have proven effective in the overall 
management and identifying those marines and sailors who need 
behavioral health assistance, and then it provided an avenue to 
those servicemembers so they can seek behavioral health 
assistance.
    We continue to enjoy strong demand for affiliation with our 
units, as seen by our increased accessions from the Active 
component, as Active component marines leave the active 
service.
    We also enjoy high rates of retention. Our retraining, our 
inactive-duty travel reimbursement, our bonus program, and our 
incentive programs for Reserves have proven to be essential 
tools in achieving nearly 100 percent of our authorized end-
strength in fiscal year 2013.
    The continued uses of these programs are critical enablers 
for us, as we seek to optimally align our inventory to our 
requirements.
    In regard to ground-equipment readiness, the Reserve 
component continues to carry a historical maintenance 
requirement that uses a combination of field-maintenance 
capabilities and contracted logistical-support maintenance 
teams. This is an enduring requirement to support field-
maintenance operations, and the combination of those two 
programs I spoke about help us sustain over 97 percent ground-
equipment readiness of our force.

                           PREPARED STATEMENT

    The Marine Corps is our Nation's crisis-response force, and 
will continue to be most ready when our Nation is least ready. 
As part of the Marine Corps Total Force, Marine Corps Forces 
Reserve is appropriately organized, manned, equipped, and 
trained to provide forces to augment, reinforce, sustain, and 
act as a shock absorber to the Active components' requirements.
    Again, thank you for your demonstrated support for our 
reservists, for their families, and for their employers. 
Chairman Durbin and fellow members, I look forward to your 
questions.
    [The statement follows:]
       Prepared Statement of Lieutenant General Richard P. Mills
    Chairman Durbin, Ranking Member Cochran, and distinguished members 
of the subcommittee: It is my honor to report to you on the state of 
the Nation's Marine Corps Reserve and our Reservists, who 
enthusiastically and professionally contribute to the balanced air-
ground-logistics team that underscores our Nation's crisis response 
force--the U.S. Marine Corps. Although the present times are difficult 
due to fiscal impacts on the Marine Corps, I am extremely grateful for 
your continued support of our Corps. Your continued support helps 
sustain us as a ready, relevant, and responsive Reserve Force that is 
an essential shock absorber for the Marine Corps Total Force.
                              introduction
    I share the sentiment Commandant of the Marine Corps General James 
F. Amos stated in testimony before Congress last year--the Marine Corps 
provides an insurance policy to the American people. As an integral 
part of the Total Force, Marine Forces Reserve plays a key role in 
providing that insurance policy. We have been fully engaged on the 
global stage for more than 12 years now, serving as the essential shock 
absorber for the Active Component, and 2013 was no different. 
Reservists from each of our major subordinate commands--4th Marine 
Division, 4th Marine Aircraft Wing, 4th Marine Logistics Group, and 
Force Headquarters Group--made a tremendous impact across a diverse 
spectrum of operations in support of every geographic combatant 
commander's operational and theater security cooperation requirements, 
as well as Service commitments.
    The Marine Corps' commitment to the American people is as strong 
today as ever in its 238-year history. That commitment is backed 
equally by bold Active and Reserve Component Marines and Sailors who 
are experienced in taking the fight directly to the enemy across the 
globe since 2001. Our Marines have been doing what they have done best 
since 1775: Standing shoulder-to-shoulder to fight and win the Nation's 
battles. We don't differentiate; all Marines--whether Reserve or Active 
Component--are disciplined, focused, and lethal. We are a Total Force, 
and as such, the Marine Corps Reserve continues to be integrated in all 
areas of the Marine Corps.
    I am deeply impressed by the professionalism, competence, and 
dedication of our magnificent Reservists. Like their Active-Duty 
brothers and sisters, they sacrifice so much of their time--and so much 
of themselves--to protect and serve our great Nation. The way they 
balance their family responsibilities, civilian lives, school, jobs, 
and careers--and still stay Marine--inspires me. They do it with 
humility, without fanfare, and with a sense of pride and dedication 
that is consistent with the great sacrifices of Marines of every 
generation.
    I believe Active-Component Marines and senior leadership at all 
levels appreciate a highly experienced and competent Reserve Force. As 
an integral element of the Total Force Marine Corps, our Marines and 
Sailors share the culture of deployment and expeditionary mindset that 
has dominated Marine Corps culture, ethos and thinking since our 
Service's beginning more than two centuries ago. Accordingly, the U.S. 
Marine Corps Reserve is organized, manned, equipped, and trained to 
provide a professionally ready, responsive, and relevant Force as a 
Marine Corps solution to enable joint and combined operations. We are, 
and will remain, a key component in the Corps' role as the Nation's 
Expeditionary Force in Readiness.
                             a total force
    During the previous 13 years, the Marine Corps Reserve has been 
engaged in combat operations in Iraq and Afghanistan, as well as in 
regional security cooperation and crisis prevention activities in 
support of the various geographic combatant commanders. This 
operational tempo has built a momentum among our war fighters and a 
depth of experience throughout the ranks that is unprecedented in 
generations of Marine Corps Reservists.
    As of January 1, 2014, 62,688 Marines from the Ready Reserve 
executed a total of 82,424 sets of mobilization orders. This 
operational tempo has enabled Marine Forces Reserve to remain an 
operationally relevant Force over the last 13 years. Marine Forces 
Reserve has sourced preplanned, rotational, and routine combatant 
commander and Service requirements across a variety of military 
operations. We routinely supported operations in Afghanistan while 
simultaneously sourcing other combatant commander requirements 
worldwide, such as Special Purpose Marine Air-Ground Task Force in 
support of U.S. Africa Command; Georgia Deployment Program in support 
of U.S. European Command; Unit Deployment Program in support of U.S. 
Pacific Command; Security Cooperation/Security Force Assistance Teams 
in support of U.S. Northern Command and U.S. Central Command; and 
Counter-Drug/Counter-Narcotics teams in support of U.S. Southern 
Command. Additionally, Marine Forces Reserve has continued to support 
geographic combatant commander exercise and theater security 
cooperation global requirements, which increases our operational 
readiness while enabling Total Force integration and the rapid 
transition to operational roles and support to major contingency 
operations.
    During calendar year 2013, Marine Forces Reserve operations 
continued on a high operational tempo as our four major subordinate 
commands were called upon to provide 1,414 Marines and Sailors to 
support combatant commander operational requirements, and we plan to 
deploy 443 Marines and Sailors during calendar year 2014. In addition, 
Marine Forces Reserve will deploy thousands of Marines to a multitude 
of theater-specific exercises and cooperative security events that are 
designed to increase interoperability with our allies, as well as for 
developing theater security cooperation activities in Morocco, 
Cameroon, Niger, South Africa, Uganda, Burundi, Senegal, Mauritania, 
Turkey, Romania, Slovenia, Georgia, Mexico, Bahamas, Honduras, 
Guatemala, Belize, Dominican Republic, Jordan, and with our partners in 
the Pacific Rim, the Republic of Korea and the Kingdom of Thailand.
    Marine Forces Reserve's operational focus will continue to directly 
support the geographic combatant commanders in various roles that 
include multiple multilateral and bilateral exercises, such as African 
Lion in Morocco, Ssang Yong in South Korea, and Maple Flag in Canada. 
The way ahead for Marine Forces Reserve includes deploying forces to 
meet high priority combatant commander requirements while providing 
continued support to Operation Enduring Freedom (OEF). Principal among 
these combatant commander requirements is the continued deployment of 
highly qualified Marines to Europe in order to train Georgian forces 
prior to their deployment to Afghanistan, the continued deployment of 
Marines to Mexico to train Mexican Marines, and the deployment of a 
Communications Detachment to support the Commander, Combined Joint Task 
Force Horn of Africa.
    In addition to operational requirements, Marine Forces Reserve 
personnel and units conducted significant regional and more than 389 
local community relations events nationwide during calendar year 2013. 
Due to the command's unique geographic dispersion, Marine Forces 
Reserve personnel and units are advantageously positioned to interact 
with the American public, telling the Marine Corps story to our fellow 
citizens who typically have little or no contact with the Marine Corps. 
Therefore, for the preponderance of the American public, their 
perception of the Marine Corps is informed by dialogue with our 
Reservists during the many community outreach events that occur 
throughout the year across the country.
    Marine Forces Reserve continues to monitor the mobilization 
viability of the Individual Ready Reserve, which consists of more than 
67,000 contractually obligated Marines who have fulfilled their Active 
service commitment, but have returned to civilian life. The 
mobilization potential of the Individual Ready Reserve is monitored 
through the use of muster events, which are conducted at multiple 
locations across the country and includes no less than one-sixth of the 
Individual Ready Reserve population. The Muster event is the Marine 
Corps' opportunity to physically inspect contractually obligated 
Marines to ensure they are capable of mobilization. During this event, 
a Marine is given the opportunity to address any administrative issues 
and get assistance. If needed, they complete a mental health and post-
deployment screening, review the Reserve obligations and opportunities 
information, meet with military-friendly employers, meet prior service 
recruiters, and get an opportunity to reconnect with fellow Marines. 
During fiscal year 2013, Marine Forces Reserve mustered 9,684 Marines 
during 44 muster events.
    In addition to participating in operational requirements across the 
globe and in community relations events here at home, our Active-Duty 
Marines who are assigned to our Inspector--Instructor and Reserve Site 
Support staffs dutifully execute the significant responsibility of 
casualty assistance. Continued operational efforts in OEF have required 
that these Marines and Sailors remain ready at all times to support the 
families of our fallen Marines in combat abroad, or in unforeseen 
circumstances at home. By virtue of our geographic dispersion, Marine 
Forces Reserve personnel are well-positioned to accomplish the vast 
majority of all Marine Corps casualty assistance calls and are trained 
to provide assistance to the families. Historically, our personnel have 
been involved in the majority of all Marine Corps casualty 
notifications and follow-on assistance calls to the next of kin. During 
calendar year 2013, our Inspector--Instructor and Reserve Site Support 
staffs performed 85 percent--169 of 198--of the total casualty calls 
performed by the Marine Corps. There is no duty to our families that we 
treat with more importance, and the responsibilities of our Casualty 
Assistance Calls Officers (CACOs) continue well beyond notification. We 
ensure that our CACOs are well trained, equipped, and supported by all 
levels of command through the combination of in-class and online 
training. Once a CACO is designated, that Marine assists the family 
members from planning the return of remains and the final rest of their 
Marine to assist with filing for benefits and entitlements. In many 
cases, our CACOs provide a long-lasting bridge between the Marine Corps 
and the family while providing assistance during the grieving process. 
The CACO is the family's central point of contact and support, and 
serves as a representative or liaison to the funeral home, government 
agencies, or any other agency that may become involved.
    Additionally, Marine Forces Reserve units and personnel provide 
significant support for military funeral honors for our veterans. The 
Inspector--Instructor and Reserve Site Support staffs, with 
augmentation from their Reserve Marines, performed 91 percent--17,075 
of 18,756--of the total funeral honors rendered by the Marine Corps 
during calendar year 2013. We anticipate providing funeral honors to 
more than 18,000 Marine veterans during 2014. As with casualty 
assistance, we place enormous emphasis on providing timely and 
professionally executed military funeral honors.
                             predictability
    The Marine Corps Reserve remains an integral part of the Total 
Force Marine Corps and continues to serve as an operationally focused 
Force whether it is integrated with Marine Forces in Afghanistan, 
serving as a Special Purpose Marine Air-Ground Task Force, or filling 
training and advising roles with security force assistance teams in 
direct support of combatant commanders' requirements. Consequently, the 
Reserve Force continues to maintain a high level of operational 
experience as it continues to serve side-by-side with our Active-
Component counterparts. However, we clearly recognize the potential 
effect of the fiscal environment on our operational readiness, 
especially as we consider how to maintain the operational experience of 
the Reserve Force.
    Revisions to our Force Generation Model rotate Marine Reserve units 
through a 5-year Training and Readiness Plan to ensure units and 
personnel are ready to meet any challenge. The Training and Readiness 
Plan establishes a program that enables the Reserves to have two 
infantry battalions, an artillery battalion, a combat logistics 
battalion, and aviation capabilities, as well as an assortment of other 
forces combat-ready at any given time. This results in more than 3,000 
Marines who are trained and ready to augment and reinforce a Marine 
Air-Ground Task Force, whether in support of a contingency response or 
part of a pre-planned, budgeted for, theater security cooperation 
mission.
    Our Training and Readiness Plan continues to provide a level of 
predictability for both planners and Reservists while maintaining the 
``train as we fight'' philosophy. The Plan provides our Reservists, 
their families, and their employers, the ability to plan for upcoming 
duty requirements in their lives 5 or more years out. This empowers 
servicemembers to achieve the critical balance between family, civilian 
career, and service to our Nation while enabling employers to plan for 
and manage the temporary loss of valued employees. The key element in 
the Training and Readiness Plan is the integration of Reserve units, 
detachments, and individuals into Service- and Joint-level exercises, 
creating an environment of interoperability in years 2, 3, and 4 of the 
5-year plan's cycle. The units are scheduled to be assessed in a 
culminating Integrated Training Exercise during the fourth year of the 
training cycle. The Training and Readiness Plan assures integration 
with the Active Component in training exercises conducted in the United 
States and overseas, and continues to facilitate the Total Force 
approach in the manner in which the Marine Corps achieved success over 
the last 13 years of integrated operations in the combat zones of Al 
Anbar province, Iraq, and Helmand province, Afghanistan.
                               personnel
    Marine Forces Reserve comprises a large percentage of the Selected 
Reserve's authorized end strength of 39,600, which will decrease to 
38,500 Marines by fiscal year 2017. Additionally, Marine Forces Reserve 
administers approximately 67,000 Marines who serve in the Individual 
Ready Reserve, which is projected to continue to increase due to the 
Active Component end strength draw down. The Selected Reserve is 
comprised of Marines in Reserve units and the Active Reserve program, 
as well as Individual Mobilization Augmentees (IMAs) and servicemembers 
in initial training. The planned reductions in the Selected Reserve's 
end strength will come primarily from the junior enlisted ranks and 
IMAs. The Reserve Component is currently over manned in its junior 
enlisted ranks and the decreased demand for mobilized Reservists 
augmented to Active Component units will enable the Marine Corps 
Reserve to reduce its IMA manning levels and encourage noncommissioned 
officers and staff noncommissioned officers to affiliate with Marine 
Corps Reserve units.
    We continue to enjoy strong demand for affiliation as seen by 
increased accessions from the Active Component, as well as high rates 
of retention. Our retraining, inactive duty travel reimbursement, 
bonus, and incentive programs for Reserves were essential tools in 
achieving nearly 100 percent of our authorized end strength in fiscal 
year 2013. We fully expect to meet our Selected Marine Corps Reserve 
unit recruiting goals again this fiscal year. The continued use of 
these programs are critical enablers for us as we seek to optimally 
align our inventory to our requirements, maintain individual and unit-
level readiness, address shortfalls in staff noncommissioned officer 
leadership, and maximize deployability for our incumbent personnel.
    I am pleased to report that the Marine Corps/Navy Reserve team is 
as strong as ever. Marine Forces Reserve remains fully integrated with 
Navy manpower assets from the Active, Reserve, and Full-Time Support 
(FTS) communities. A total compliment of 279 officer and enlisted 
personnel from the Active Component and FTS component provides 
continuous medical and religious ministries support to the Marines and 
Sailors throughout Marine Forces Reserve. In addition, more than 1,400 
Reserve-Component Sailors augment Marine Forces Reserve in deployments, 
administrative functions, and major exercises with 300 of these 
positions being officers in the various medical professions. These 
invaluable Navy assets can be found at any of our 160 Reserve Training 
Centers throughout the United States.
    Our company grade officer manning continues to dramatically 
improve. Company grade officer manning stands at 74 percent, up from a 
low of 21 percent in 2006. Historically, the Active Component Marine 
Corps has been the exclusive source of senior lieutenants, captains, 
and pilots for the Marine Corps Reserve, and it remains a source of 
strength in meeting these requirements.
    Reserve officer commissioning initiatives focus exclusively on the 
most crucial challenge of staffing the Marine Corps Reserve with 
quality company grade officers. Two of these Reserve commissioning 
initiatives are the Reserve Enlisted Commissioning Program (RECP), 
which is available to qualified Active-Duty enlisted Marines in 
addition to qualified Reserve-enlisted Marines; and Officer Candidate 
Course--Reserve (OCC-R). Since 2004, these programs helped produce a 
total of 710 lieutenants for the Marine Corps Reserve. The OCC-R 
program has been the most productive of the Reserve commissioning 
initiatives, producing 610 officers. The OCC-R program historically 
focused on ground billets with an emphasis on ground combat and combat 
service support within specific Reserve units that were scheduled for 
mobilization. These programs, combined with our prior service 
recruiting efforts, are projected to provide at least 90 percent 
staffing of critical combat arms and engineer company grade officer 
billets by September 30, 2015, with overall officer staffing reaching 
this level 1 year later.
    Civilian Marines are critical enablers to Marine Forces Reserve's 
ability to meet Service requirements. Our civilian work force across 
Marine Forces Reserve--more than 350 members--continues its unwaverable 
service and dedication to the Marine Corps Reserve even during these 
past few years of uncertainty concerning pay and entitlements. They are 
integral for continuity of operations and for ensuring family readiness 
across the Reserve Force. Unfortunately, the recent budgetary upheaval 
and civilian furlough has created significant stress and decline in 
morale for many of our employees.
    As the Marine Corps continues to draw down Active Component end 
strength, the option to continue to serve in the Reserve Component has 
become increasingly appealing to young Marines leaving Active Duty. 
Marines who are approaching the end of their current contracts--Active 
or Reserve Component--receive more focused counseling on the tangible 
and intangible aspects of remaining associated with, or joining, a 
Selected Marine Corps Reserve unit. We continue to ensure that each 
transitioning Active Component Marine is educated on continued service 
opportunities in the Marine Corps Reserve through the Marine Corps' 
transition assistance and educational outreach programs.
    In 2013, the Direct Affiliation Program was introduced as a pathway 
for transitioning Active Component officers and enlisted servicemembers 
to affiliate with a Selected Marine Corps Reserve unit just prior to 
separation, facilitating a seamless transition and transitional TRICARE 
benefits that underscores the Continuum of Service. Additionally, all 
commanders and senior enlisted leaders across Marine Forces Reserve are 
tasked to retain quality Marines through example, mentoring, and 
information and retention programs. This takes place across the Marine 
experience, not just in the final days of a Marine's contract--Active 
or Reserve. Your continued support regarding enlistment, affiliation, 
and re-enlistment bonuses along with other initiatives that promote 
service to this great Nation underscores our ability to gain and retain 
the very best servicemembers.
                               equipment
    A decade of war and generous funding has enabled the Marine Corps 
Reserve to achieve a warfighting competence that surpasses anything in 
our past, but it also comes at an unparalleled cost in maintenance as 
it applies to equipment readiness. Additionally, the introduction of 
nonstandard equipment, the fielding of new systems, and the overall 
increase in the scale and complexity of what today's units are 
maintaining has compounded the challenge of increased maintenance 
costs. Effective equipment maintenance requires our leaders to have a 
mindset of accountability and responsibility for all equipment, 
especially since Selected Marine Corps Reserve units present unique 
challenges due to geographic dispersion.
    Although we have been engaged in combat operations for more than 12 
years, our ground equipment readiness rates for maintenance have 
remained steady at about 97 percent. This last decade has demonstrated 
the need to maintain a significant Reserve Force readiness posture that 
enabled Marine Forces Reserve to be an essential shock absorber for the 
Active Component.
    Several resources and programs combine to form the Reserve 
Component approach to maintenance. Routine preventive and corrective 
maintenance is performed locally by operator and organic maintenance 
personnel. This traditional approach to field maintenance was expanded 
during calendar year 2008 to include highly effective contracted 
logistics support and depot-level capabilities. We continue to 
experience significant success with contracted logistics support and 
contractors have helped us with performing the work and providing 
valuable training to our Marines and Sailors at our 160 Reserve 
Training Centers. This field maintenance augmentation effort has 
directly improved our equipment readiness by providing valuable hands-
on occupational skills training to our Marines while returning time to 
our Marines to accomplish very important individual training.
    The Reserve Component continues to carry a historical maintenance 
requirement that uses a combination of field maintenance capabilities 
and contracted logistics support maintenance teams. There is an 
enduring requirement to support field maintenance operations, 
contracted logistics support, or some combination of the two in order 
to sustain the ground equipment readiness of the Force.
    Two additional programs have proven highly effective in improving 
readiness of the Force. The Marine Corps' Enterprise Lifecycle 
Maintenance Program provides for the rebuilding and modifying of an 
array of principal end items, such as the Light Armored Vehicle, the 
Amphibious Assault Vehicle, and our entire motor transport fleet. The 
Marine Corps Corrosion Prevention and Control Program continues to 
provide significant benefits. Collectively, these initiatives and the 
hard work and dedication of our Marines and civilian Marines across 
Marine Forces Reserve are responsible for our high readiness rates.
    Unlike our Active Component counterparts, Reserve units can 
establish a Training Allowance, which allows unit commanders to have 
enough equipment on-hand to train to mission essential tasks, but 
recognizes the reality that Selected Marine Corps Reserve units have 
limited manpower, facility space, and fiscal resources, as well as 
competing operational and individual training requirements, that can 
prevent them from effectively maintaining, managing, and accounting for 
a full Table of Equipment. Reducing Training Allowance equipment-sets 
to minimal levels necessary to train is one way to offset the equipment 
maintenance burden; however, it cannot mitigate the loss of 
supplemental funding. Active Duty Operational Support and contracted 
logistics support funding remain essential to sustain acceptable 
Reserve Component equipment readiness.
    National Guard and Reserve Equipment Appropriation (NGREA) funding 
has been a large resource for procurement of Reserve Component 
equipment. Fiscal year 2012 NGREA funding was used to procure five 
containerized Flight Training Devices (FTDs)--one for the CH-53E, two 
for the MV-22B, and two for the UH-1Y. These devices are currently in 
the contracting phase of procurement and are projected to be delivered 
during fiscal year 2015. Additionally, $120 million of fiscal year 2013 
NGREA funding is being used to maintain the ageing KC-130T fleet until 
the fielding of the new KC-130J, which begins in fiscal year 2014, is 
complete. The NGREA funding used to replace the KC-130T Weather Radar 
System and to upgrade the Electronic Propeller Control System will 
enable the Reserve Component to continue to meet training requirements 
while transitioning to the new KC-130J airframe. Fiscal year 2013 NGREA 
funding will also enable the Reserve Component to complete hardware 
upgrades for the Indoor Simulated Marksmanship Trainer. The Indoor 
Simulated Marksmanship Trainer is an interactive videodisc-based 
weapons training system. The Indoor Simulated Marksmanship Trainer 
includes rifle and pistol ranges, combat scenarios, and shoot/no shoot 
scenarios that enable Reserve Component Marines to train and range 
qualify as a basic rifleman when access to physical ranges is not 
tenable or is cost-prohibitive.
    As funding cuts throughout the DOD strain already dwindling 
training budgets, it is beneficial that Marine Forces Reserve has the 
ability to procure simulation devices we can use to adequately train 
our Marines. These simulators aid greatly in maintaining the 
operational readiness required to ensure Marine Forces Reserve can 
mobilize and deploy units or individuals to augment, reinforce, or 
sustain the Active Component. To be sure, NGREA funding continues to be 
used for its contribution to the modernization, training, and sustained 
readiness of the Reserve Component.
                                training
    During June 2014, Marine Forces Reserve will conduct its second 
Service-level Integrated Training Exercise, which is an assessed 
regimental-level live-fire and maneuver exercise featuring Reserve-
Component forces as the Marine Air-Ground Task Force elements--command, 
ground, air, and logistics. The Integrated Training Exercise ensures 
maximum training benefit for the ground, aviation, and logistics combat 
elements under the command and control of a regimental headquarters. 
The Integrated Training Exercise is an indispensable component of our 
Training and Readiness Plan and serves as an annual capstone exercise, 
which is the principal mechanism for examining our training and 
readiness levels, as well as assessing our operational capabilities. 
The Integrated Training Exercise also measures our ability to provide a 
cohesive Marine Air-Ground Task Force-trained and ready capability to 
the Service or combatant commander on a predictable, reliable, and 
cyclical basis. Conducted aboard Marine Corps Air-Ground Combat Center 
Twenty-nine Palms, California, the Integrated Training Exercise is a 
Marine Air-Ground Task Force deployment vice a compilation of numerous 
annual training events. Units are participating based on their future 
activation potential according to the Marine Forces Reserve fiscal 
years 2014-2018 Training and Readiness Plan. The Integrated Training 
Exercise provides all Marine Air-Ground Task Force elements an 
opportunity to undergo a Service assessment of their core competencies 
that are essential to expeditious forward-deployed operations. 
Additionally, individuals serving on the regimental command element 
staff receive valuable training that enables them to competently 
perform as individual augments to Marine Air-Ground Task Forces and/or 
Joint staffs. In summary, the Integrated Training Exercise enables 
improved readiness, more efficient Total Force integration, and faster 
activation response times.
    At our Reserve Training Centers, we continue to maximize training 
efficiencies by utilizing simulators wherever possible to preserve 
fiscal and materiel resources. For Reserve Component Indoor Simulated 
Marksmanship Trainers (ISMTs), Marine Forces Reserve obligated $12.3 
million of NGREA to fund a future software upgrade and its service 
contract. The ISMTs directly benefit remote site locations that are 
distant from DOD training ranges by preserving valuable training time 
and vehicle wear and tear during drill weekends. Access to ISMTs and 
other simulation systems ensures Reserve Marines are trained to the 
same tasks, conditions, and standards applicable to Active-Component 
Marines, assuring capabilities remain consistent across the Total 
Force.
    Language and culture training continues to be a significant 
investment opportunity that is yielding a large return on investment 
for all Marine Reservists. Through the Marine Corps-wide initiative 
called the Regional, Culture, and Language Familiarization program, our 
Marines will have a career-long course of study designed to ensure 
Reserve Marines are regionally focused and globally prepared to 
effectively navigate the culturally complex 21st century operating 
environment. Marine Forces Reserve's culture and language programs are 
delivered via a variety of techniques from live instruction to portable 
media to Web-based tutorials and applications. Our language and culture 
section remains fully operationally capable. This enhanced capability 
enables us to support all units within Marine Forces Reserve with 
virtual training and required testing. Additionally, we also support 
other DOD partners in their testing and training. With our Marines 
deploying around the globe, we access and leverage a variety of other 
sources of language and cultural training, such as the Marine Corps' 
Center for Advanced Operational Culture and Language, the Defense 
Language Institute, and Regional Language Centers. These enhanced 
language and culture learning opportunities enable our critical core 
competencies and postures Marine Forces Reserve for success in the 
complex operating environment of the 21st century.
    The Marine Corps is built on trust and teamwork shared between 
individual Marines and their leaders, and considers Equal Opportunity 
training as part of basic leadership development. The policy of the 
Marine Corps is to provide equality of treatment and opportunity for 
all Marines to achieve their full potential based solely upon 
individual merit, fitness, and ability regardless of age, color, 
gender, race, religion, or national origin.
    During 2013, the Marine Forces Reserve Equal Opportunity Advisor 
held three Equal Opportunity Representative Courses and three Senior 
Leadership Workshops. In total, the Marine Forces Reserve Equal 
Opportunity Advisor trained 75 Active and Reserve Component 
servicemembers from across our four major subordinate commands. The 
attendees of the courses received training that consisted of Marine 
Corps and command policies, the forms of discrimination to include 
sexual harassment, identification of behaviors, personnel 
responsibilities, and characteristics of a hostile work environment. 
Additionally, training explained the procedures for seeking resolution 
of Equal Opportunity issues, to include a breakdown of the Informal 
Resolution System, selecting the best method for filing complaints, how 
and when to file formal complaints, how to address reprisal, 
explanation of the complaint timelines, and other external methods to 
seek redress.
    Finally, Marine Forces Reserve continues to integrate safety 
programs with a wide variety of training to reinforce Force 
preservation. The benchmark of an effective safety culture is the 
reduction of mishaps. By continuing the Culture of Responsible Choices 
initiative begun in 2012, all members of the Force, both military and 
civilian, have demonstrated a positive mindset toward making it their 
personal mission to conduct themselves with a focus toward their own 
safety and the welfare of others. Leadership, at every level, continues 
to stress the basic tenets of personal responsibility and 
accountability for decisionmaking and behavior--not only during work, 
but at home, in leisure activities, and in our personal lives as well. 
This engaged leadership technique empowers our personnel to get 
involved when something is just not right.
    No program can capture and mitigate all hazards. Accordingly, we 
continue to focus on the leading cause of death of our personnel, which 
is motor vehicle accidents. Our training center at Naval Air Station, 
Joint Reserve Base, New Orleans, is a tangible example of how we 
incorporate training to fully support our Culture of Responsible 
Choices initiative. At the Center, personnel receive training in the 
safe operation of their motor vehicles, which includes both cars and 
motorcycles. I'm pleased to report that from fiscal year 2012 to 2013, 
fatal motorcycle mishaps and automobile/truck fatalities were reduced 
by 13 percent and 11 percent, respectively.
                               facilities
    Marine Forces Reserve occupies facilities in 47 States, the 
District of Columbia, and the Commonwealth of Puerto Rico. These 
facilities include 27-owned and 133-tenant Reserve Training Centers, 
three family housing sites, a Bachelor Enlisted Quarters, and General 
Officer Quarters A in New Orleans, Louisiana. Although some Reserve 
Training Centers are located on major DOD bases and National Guard 
compounds, most of our centers are openly located within civilian 
communities. Therefore, the condition and appearance of our facilities 
informs the American people's perception of the Marine Corps and the 
Armed Forces throughout the Nation. The largest part of the facilities 
budget is used to sustain the existing physical plant, focusing on 
infrastructure maintenance that enables Marine Forces Reserve to meet 
Service and combatant command operational requirements.
    The cost of maintaining the physical plant steadily increases with 
the age of the buildings. Authoritative Navy property records list 70 
of our 160 Reserve Training Centers as more than 30 years old and 35 
Reserve Training Centers as more than 50 years old. While supporting 
formal Force structure adjustments and as part of our commitment to 
consolidate to gain efficiencies during the previous 2 years, Marine 
Forces Reserve made a deliberate reduction of more than 10 percent in 
the number of Reserve Training Centers. We improved the overall 
readiness of our facilities inventory and corrected some chronic 
facility condition deficiencies through Marine Forces Reserve 
Facilities Sustainment, Restoration, and Modernization (FSRM) support.
    The Marine Corps' Military Construction, Naval Reserve (MCNR) 
program focuses on new footprint and recapitalization of our aging 
facilities. The construction provided by the annual authorization of 
MCNR funding has been an important factor in moving Marine Forces 
Reserve forward in its facilities support mission. The combined effects 
from our targeted consolidation, FSRM, and MCNR programs have steadily 
reduced the number of inadequate or substandard Reserve Training 
Centers to below 60 percent. Continued annual funding for our 
facilities program will enable Marine Forces Reserve to improve the 
physical infrastructure that supports and reinforces mission readiness 
of our units.
    Beyond the obvious requirements to build, maintain, repair and 
recapitalize our physical inventory are the operational costs 
associated with occupancy. The ``must pays'' of utilities bills are 
relatively constant and immutable. The discretionary costs of 
associated services, such as landscaping, snow removal, and janitorial 
service, are investments in preventive maintenance that keep the 
physical plant accessible, safe, and clean. While these service levels 
are discretionary, inadequate support over time can serve to hasten the 
deterioration of associated infrastructure, especially at sites where 
tree roots intrude on water/sewer lines and snow accumulations and 
thaws combine to damage pavement. Accelerated degradation may result 
from underfunded services, which can amplify future program costs.
    In an attempt to lessen some of the burden on the energy budget, 
and in accordance with national mandates, Marine Forces Reserve 
completed energy assessments at our owned sites and continues to 
implement the recommendations from those assessments as funds are 
available. Priority is given to the sites that are the biggest energy 
users nationally and those projects which offer the best return on 
investment. Since 2010, 30 solar/photovoltaic, energy, HVAC efficiency, 
direct digital control, and efficient lighting projects have been 
completed at Reserve Training Centers and 18 more solar/photovoltaic 
projects are earmarked for funding during fiscal year 2014. 
Applicability of renewable energy credits will continue to be pursued. 
Three small--100 kilowatt hour--wind turbines installed last year 
continue to yield savings for the Department of the Navy in Illinois, 
Michigan, and Texas. Our investment in these renewable energy 
technologies improves energy security, efficiency, and protection 
against future rate hikes for our geographically dispersed sites. There 
are still significant opportunities to improve the energy and water use 
efficiency of Reserve Training Centers and to expand use of renewable 
sources contingent on available funds to do so.
    To implement sustainable design principles, Marine Forces Reserve 
uses the U.S. Green Building Council's (USGBC) Leadership in Energy and 
Environmental Design (LEED) Rating System for New Construction and 
Major Renovation. LEED is a performance-oriented system based on 
accepted energy and environmental principles where credits are earned 
for satisfying criteria designed to address specific environmental 
impacts inherent in design, construction, operations, and maintenance 
of buildings. During fiscal year 2013, the Marine Forces Reserve 
headquarters building was recognized as meeting LEED Silver criteria. 
In addition, every new FSRM or MCNR project is designed for energy 
efficiency and sustainability in accordance with LEED principles.
    Our environmental program continues to excel. I consider 
environmental compliance a priority for the command, and reinforce 
environmental compliance by directing continual training for our 
Marines and Sailors at each unit and site. As agents of the Federal 
Government, we are entrusted by the public to make environmental 
considerations an integral part of installation and range management 
programs, training activities, equipment fielding, and construction 
planning processes. The Marine Forces Reserve Environmental Management 
System provides the Force with a systematic approach to integrate these 
environmental considerations and establishes a framework for continual 
environmental improvement over the long term. Furthermore, our 
environmental program supports the FSRM and MCNR programs by ensuring 
compliance with the National Environmental Protection Act for each 
project and action. Due to the geographic disparity of our sites, 
appropriate long-term funding is necessary to assure consistent 
environmental monitoring and associated training programs across the 
Force, as well as to avoid an increased risk of noncompliance.
    Marine Forces Reserve manages its national training infrastructure 
portfolio strategically. Marine Forces Reserve collaborates with all of 
our different hosts to meet installation support delivery and 
infrastructure efficiency objectives while simultaneously maintaining 
unit combat readiness. Implementation of the U.S. Marine Corps' Force 
Structure Review decisions provided an opportunity to better align 
mission changes with reduced facilities infrastructure. As the process 
moves forward, the total impacts will be analyzed to gain efficiencies 
and reduce the backlog of unfunded MCNR projects, which enables 
targeted investment in those sites that provide the best operational 
return on investment. Marine Forces Reserve will exploit opportunities 
to consolidate multiple smaller sites within the same geographic area 
into robust sites to reduce overall facility footprint, and associated 
operational and sustainment costs.
                 health services and behavioral health
    Our focus on Marines, Sailors, and their families remains our 
highest priority. Therefore, we are keenly attentive to maintaining 
their health and total fitness. During dwell, our health services 
priority is to attain and maintain the DOD goal of 75 percent Fully 
Medically Ready. In fiscal year 2013, Marine Forces Reserve individual 
medical and dental readiness rates were 73 percent and 87 percent 
respectively. We aggressively worked towards improving medical 
readiness by effective utilization of Medical Readiness Reporting 
System capabilities to enable accurate monitoring and identify unit-
level actions necessary to attain readiness goals. Supporting efforts 
will focus on advocating funds and tailoring support for various 
Reserve Component Medical/Dental Health Readiness Programs including 
utilizing to the fullest extent possible a combination of programs to 
significantly aid in sustaining our total readiness, such as our 
Reserve Health Readiness Program contract services, Post-Deployment 
Health Reassessment, Reserve TRICARE Medical and Dental Programs, and 
the Psychological Health Outreach Program. Additionally, our personnel 
participate in Force Readiness Assistance & Assessment Program unit 
inspections. These inspections provide oversight for the current health 
status of the Force, specifically at unit levels that provides an 
ability to monitor compliance requirements, policy adherence, and 
meeting unit goal initiatives.
    The Reserve Health Readiness Program (RHRP) is the cornerstone for 
individual medical and dental readiness and Marine Forces Reserve has 
benefited from increases in overall readiness as a result of this 
program. This program funds contracted medical and dental specialists 
to provide medical and dental-specific services to units that do not 
have direct medical or dental support personnel assigned and are not 
supported by a military treatment facility. This RHRP contract was 
further renewed for fiscal year 2014. During fiscal year 2013, the RHRP 
performed 20,036 Periodic Health Assessments, 15,057 in combined Post-
Deployment Health Reassessments/Mental Health Assessments, and 13,945 
Dental Procedures. In addition, the TRICARE Reserve Select for medical 
coverage and TRICARE Dental Program are two premium-based, cost-
effective healthcare programs offered for voluntary purchase to our 
Reserve Marines, Sailors, and their families.
    The Marine Corps has a robust behavioral health program to address 
a myriad of issues including Substance Abuse, Suicide, Operational 
Stress, Domestic Violence, and Child Abuse. They work in conjunction 
with Navy Medicine programs addressing behavioral health. In regard to 
specific fitness efforts, Marine Forces Reserve has instituted 
Operational Stress Control and Readiness (OSCAR) training at all 
levels. This training provides knowledge, skills, and tools required to 
assist commanders to prevent, identify, and manage combat and 
operational stress concerns as early as possible. This training is 
provided to servicemembers of units that are deploying for more than 90 
days during pre-deployment training.
    Navy Bureau of Medicine continues to support behavioral health 
through various independent contracted programs, such as the Post-
Deployment Health Reassessment/Mental Health Assessments and the 
Psychological Health Outreach Program. The Post-Deployment Health 
Reassessment identifies health issues with specific emphasis on mental 
health concerns, which may have emerged since returning from 
deployment. The Psychological Health Outreach Program addresses 
postdeployment behavioral health concerns and crisis-related 
interventions through social worker contractors. These social workers 
provide an array of referral services in the community to include 
follow-up with servicemembers. These programs have proven effective in 
the overall management of identifying those Marines and Sailors who 
need behavioral health assistance and have provided an avenue to those 
servicemembers who seek behavioral health assistance.
    Given that signs of operational and combat stress and suicide can 
manifest long after a service member returns home from deployment, 
there are unique challenges presented to Reservists who can be isolated 
from the daily support network inherent in one's unit and vital medical 
care. Encouraging Marines to acknowledge and vocalize mental health 
issues is also a ubiquitous challenge facing our commanders. We are 
actively combating the stigma associated with mental healthcare through 
key programs, such as the Yellow Ribbon Reintegration Program, within 
demobilization and reintegration processes of our Reserve Marines 
following deployment. Further, we market all our behavioral health 
initiatives and programs through our Marine Forces Reserve portal Web 
site and during key Marine Corps forums throughout the year. Your 
continued support of these programs is greatly appreciated.
    There are five suicide prevention initiatives that we leverage for 
our Reserve Marines and Sailors: (1) In-theater Assessment. Reservists 
who exhibit or are struggling with clinically significant issues should 
be seen by competent medical authorities and evaluated for post-
deployment treatment with follow-up decisions made prior to their 
return home; (2) Post Deployment Health Reassessment. It is important 
that if any issues emerge during the Reservist's Post Deployment Health 
Reassessment that they are immediately evaluated and referred for 
treatment by the clinician interviewer. This includes referral 
recommendations based on available local resources, such as the VA or 
private mental health providers; (3) Psychological Health Outreach 
Program. I enthusiastically recommend continued delivery of the 
Psychological Health Outreach Program, which is an essential program 
for treatment referral and follow up to ensure our service members are 
receiving the appropriate behavioral health services; (4) Care 
Management Teams. This suicide prevention initiative includes the VA's 
OIF/OEF care management teams that are a readily available resource for 
our Reservists. The VA assigns a primary care manager, who is 
responsible for referral and follow-up, to any Reservist who has a 
healthcare issue; (5) Never Leave a Marine Behind Suicide Prevention 
Course. We continue to implement the Marine Corps' Junior Marine, Non-
Commissioned Officer, Staff Non-Commissioned officer, and Officer 
modules of the Never Leave a Marine Behind Suicide Prevention Course. 
The Never Leave a Marine Behind series provides the best skills and 
tools available to Marines, Sailors, and their leaders so that they can 
better cope with the challenges of combat and the rigors of life both 
deployed and in garrison. Marine Forces Reserve has trained hundreds of 
Marines who can deliver the Course at our 160 Reserve Training Centers 
throughout the country.
    Additionally, any Reservist and their family can access Marine 
Corps installations' behavioral health programs through Marine Corps 
Community Services programming while they are on any type of Active-
Duty orders. When they are not on Active-Duty orders, Military 
OneSource provides counseling, resources, and support to Reserve 
service members and their families anywhere in the world. The Marine 
Corps' DSTRESS Line is also now available to all Reserve Marines, 
Sailors, and family members regardless of their activation status.
    Another significant resource is our Chaplain Religious Enrichment 
Development Operations (CREDO) Program, which is run by our Active and 
Reserve Chaplains and Religious Program Specialists. The CREDO program 
at Marine Forces Reserve conducts two distinct retreat programs: 
Marriage Enrichment Retreats, which supports our efforts to strengthen 
our families, and Personal Resiliency Retreats, which are designed to 
foster individual service member's health and wellness. The direct 
effort to improve a culture of responsible choices and build resiliency 
across the Force is accomplished at numerous strategically remote 
training sites usually away from the resources of large military bases. 
During fiscal year 2013, a total of 278 married couples and 35 
individuals participated in 10 Marriage Enrichment Retreats and 4 
Personal Resiliency Retreats respectively. For fiscal year 2014, seven 
Marriage Enrichment Retreats and nine Personal Resiliency Retreats are 
projected. Anecdotal evidence based on testimonials and survey feedback 
by participants strongly suggests that these retreats are effective in 
strengthening military marriages and individuals' core values, which in 
turn, enhance the readiness of our Force.
                 sexual assault prevention and response
    Eradicating sexual assault throughout Marine Forces Reserve is a 
top priority. Efforts towards this goal have continued with increased 
momentum. In order to improve victim response capabilities, we have 
added five professional full-time civilian positions to our Sexual 
Assault Prevention and Response staff at our headquarters office. 
Together, along with the Sexual Assault Prevention and Response Program 
Manager, they manage the Sexual Assault Prevention and Response Program 
at all of the Marine Forces Reserve sites throughout the United States 
and provide case management to victims once a report is made. In 
addition to the civilian staff, more than 300 Marines and Sailors were 
screened and trained, and achieved certification through the DOD Sexual 
Assault Advocate Certification Program. Once certified, they were 
appointed by their commanders to be Uniformed Victim Advocates at their 
respective Reserve Training Centers. Our prevention strategy is 
holistic, and emphasizes setting the example of discipline from all 
levels of command. I, along with the four commanding generals of our 
major subordinate commands, again provided in-person Sexual Assault 
Prevention and Response training to all of our colonel-level 
commanders. The focus of this 2-day training highlights how sexual 
assault is inconsistent with our Marine Corps ethos and core values. 
Multiple all-hands training events are held throughout the year and all 
non-commissioned officers continue to receive additional ``Take a 
Stand'' bystander intervention training.
                            quality of life
    We remain passionate in ensuring an appropriate balance and 
effective performance of our quality of life programs and services to 
guarantee our programs and services meet the needs and expectations of 
our Active-Duty personnel and Reservists, including our Reserve 
servicemembers in the Individual Ready Reserve. In doing so, we 
continue to operate Family Readiness Programs, revitalize services, and 
proactively reach out to and keep faith with our Marines, Sailors, and 
their families.
    To meet the challenge of deployments, and to maintain a constant 
state of readiness, the Marine Corps continues to promote family 
support through our Family Readiness Officer (FRO) Program. This 
program is staffed by either civilians or Active-Duty Marines at the 
battalion/squadron level and above. Additionally, we continue to 
leverage modern communication technologies and social media, such as 
the e-Marine Web site, to better inform and empower family members--
spouses, children and parents--who have little routine contact with the 
Marine Corps and often live considerable distances from large military 
support facilities.
    Our Marine Corps Family Team Building (MCFTB) programs offer 
preventative education and family readiness training to our Marines, 
Sailors, and family members. MCFTB training events were delivered in 
person and through interactive webinars at Marine Corps units across 
the United States. During fiscal year 2013, MCFTB conducted 224 
training events in which 8,861 Marines, Sailors, and family members 
received critical and vital information and support.
    In regard to personal and professional development, Reservists take 
advantage of our partnership with tutor.com, which offers access to our 
Marines, Sailors, and their families to 24/7 no-cost, live online 
tutoring services for K-12 students, college students, and adult 
learners. Active and Reserve Marines and their families are also 
provided remote access to language courses through Marine Corps 
Community Services Transparent Language Online program. This program 
supports more than 90 languages and delivers English as a Second 
Language. Additionally, the Marine Corps' partnership with the 
Peterson's Online Academic Skills Course helps build math and verbal 
skills to excel on the job, pass an exam, advance in a career, or 
continue education. This program diagnoses the current level of reading 
comprehension, vocabulary, and math skills and teaches the concepts and 
skills needed to increase proficiency in each of these academic areas. 
This course is free for servicemembers and their families.
    Our Semper Fit program remains fully engaged to deliver quality, 
results-based education and conditioning protocols for our Marines and 
Sailors. The High Intensity Tactical Training (HITT) program includes 
hands-on strength and conditioning courses, online physical fitness 
tools, a mobile application for servicemembers to access anywhere at 
any time, and recorded webinars, as well as instruction on injury 
prevention, nutrition, and weight management. Our Marines' and Sailors' 
quality of life is also increased through various stress management and 
esprit de corps activities, such as unit outings and participation in 
competitive events. These programs are key to unit cohesion, 
camaraderie, and motivation.
    The Marine Corps' partnership with Child Care Aware of America 
(formerly known as the National Association of Child Care Resource and 
Referral Agencies) continues to provide great resources for Marines and 
their families in selecting child care before, during, and after a 
deployment. Our off-base child-care subsidy program helps families of 
our Reservists locate affordable child care that is comparable to high-
quality, on-base, military-operated programs. This program provides 
child-care subsidies at quality child care providers for our Reservists 
who are deployed in support of overseas contingency operations and for 
those Active-Duty Marines who are stationed in regions that are 
geographically separated from military bases and stations. 
Additionally, our Marine families--Active and Reserve--who are enrolled 
in the Exceptional Family Member Program are provided a case manager 
and offered up to 20 hours of free respite care per month for each 
qualified exceptional family member. This gives our families confidence 
that their family member will be taken care of when they are in need of 
assistance.
    The Yellow Ribbon Reintegration Program has been integrated into 
the Marine Corps Unit, Personal, and Family Readiness Program at every 
command level with full-time Reserve and Deputy Reserve Family 
Readiness Officers (FRO). The responsibility of executing Yellow Ribbon 
in accordance with the legislation, and further defined by Marine 
Forces Reserve policy, resides with the individual unit commander. This 
ensures commanders remain engaged with the challenges and issues facing 
their Marines, Sailors, and families, and is in line with Force 
Preservation efforts.
    In fiscal year 2013, Marine Forces Reserve hosted 103 events and 
participated in 10 Joint Service events with a total of 4,651 
attendees, which includes Marine Forces Reserve Marines, Sailors, and 
their qualifying guests. The highest frequency of events were 
predeployment trainings.
    In fiscal year 2014, the Marine Corps anticipates continuation of 
the Yellow Ribbon Reintegration Program, but recommends a reduction in 
the number of events due to an anticipated decrease in combat 
operations. In light of future budgetary concerns, Marine Forces 
Reserve has worked internally during fiscal year 2013 with its Marine 
Corps Family Team Building staff and Family Readiness Officers to 
develop alternative methods of delivery of the Yellow Ribbon training 
in order to ensure that the Yellow Ribbon mission can be accomplished 
regardless of funding levels. This includes developing webinars, mail-
outs, and working with the Family Readiness Officers to leverage local 
resources at no cost.
    We continue to be supportive of Military OneSource, which provides 
our Marines, Sailors, and their families with an around-the-clock 
information and referral service via toll-free telephone and Internet 
access for counseling and on subjects such as parenting, child care, 
education, finances, legal issues, deployment, crisis support, and 
relocation.
    Our Marines, Sailors, and their families, who sacrifice so much for 
our Nation's defense, should not be asked to sacrifice quality of life. 
We remain a staunch advocate for these programs and services and 
continue to reintegrate and align our programs and services to meet 
current and future challenges. The combined effect of these programs is 
critical to the readiness and retention of our Marines, Sailors, and 
their families, and your continued support of these programs is greatly 
appreciated.
   supporting our wounded, ill, or injured marines and their families
    We continue to work closely with the Wounded Warrior Regiment (WWR) 
to ensure there is one standard of care for all Wounded, Ill, or 
Injured (WII) servicemembers--whether they are Active or Reserve. The 
WWR holds high levels of subject matter expertise concerning the unique 
challenges faced by Marine Reservists and has established care assets 
accordingly. For example, the WWR has dedicated staff--the Reserve 
Medical Entitlements Determinations Section--to specifically maintain 
oversight of all cases of Reservists who require medical care beyond 
their contract period for service-connected ailments. We requested 
increased partnerships with the WWR and in April 2013, the Regiment 
assigned a liaison to my headquarters command to provide care and 
support to our WII Marines and unit command elements. Additionally, the 
WWR dedicated five Reserve-specific Recovery Care Coordinators to 
provide one-on-one transition support and resource identification 
required to support WII Reservists and families who are often living in 
remote and isolated locations. The WWR also has District Injured 
Support Coordinators--geographically dispersed mobilized Marine 
Reservists--who assist Reserve Marines throughout the country, which 
includes face-to-face contact.
    Regardless of the global security environment, recovery care 
support must be enduring. We will continue to work with the WWR to 
establish resources and programs that address the unique needs of our 
Reserve population.
                               conclusion
    The Marine Corps is our Nation's crisis response force and will 
continue to be most ready when our Nation is least ready. As part of 
the Marine Corps Total Force, Marine Forces Reserve's commitment to 
organize, man, train, equip, and provide forces to augment, reinforce, 
and sustain the Active Component in support of combatant commander 
requirements remains so very vital now and for the future. We live in a 
world of increasingly complex security challenges across the globe and 
fiscal uncertainty at home, but we stand ready, relevant, and 
responsive to meet any current operational requirements and 
energetically respond to future emergent contingencies. Your continued 
unwavering support of the Marine Corps Reserve and its associated 
programs is greatly appreciated. Semper Fidelis!

    Senator Durbin. Thank you very much.
    We have a roll call vote at 11 o'clock. I am going to try 
to make sure that we have one full round here before that 
occurs. So it will be about 4 or 5 minutes for each of us, and 
let me start.
    Mr. Secretary, sexual assault is a very serious problem, 
and we just debated it at length in the Senate. Two competing 
views on what should be done, Senator McCaskill representing 
one, Senator Gillibrand, the other.
    In the 2012-2013 school year, there were 15 reported cases 
of sexual assault at the Naval Academy. The latest Department 
of Defense report found that one in seven midshipmen said they 
experienced unwanted sexual contact within the last year.
    The Navy recently disqualified 151 sailors from positions 
of trust, ranging from sexual assault counselors to recruiters, 
after a review directed by the Secretary of Defense.
    This subcommittee included $25 million to expand the 
Special Victims' Counsel pilot program to all the services. It 
will ensure every victim has the legal assistance and support 
that he or she needs throughout the criminal justice process.
    I realize we just passed this a few months ago, but I would 
like to have your comments on what we have suggested, and can 
you tell us what is being planned or what you are doing to 
ensure that sailors are ethically qualified and properly 
trained to serve in positions of trust?

                   SEXUAL ASSAULT PREVENTION EFFORTS

    Mr. Mabus. Thank you, Senator.
    We are doing a wide range of things, and I want to thank 
this committee and thank Congress for changing a lot of the 
ways we can attack sexual assault in the military.
    At the very beginning of my tenure, I established a sexual 
assault response officer who reported directly to me, and I see 
her on a very routine basis.
    And one of the things that we have seen, particularly in 
the last 2 years, is we have seen the number of reports go up 
dramatically in both the Navy and the Marine Corps. And we 
believe this is because people are beginning to be more 
comfortable and more confident in the process that they face 
when they report sexual assault.
    There is far more work to be done, but we do think we are 
getting traction. For example, we looked at where the major 
problems in sexual assault were, and they were not at boot camp 
in Great Lakes, but they were immediately following that, in 
the A schools that most of our sailors go to, and so we put a 
special emphasis on that.
    We are doing interactive role playing with sailors, and we 
visited every base and fleet concentration area around the 
world.
    The senior leadership in both the Navy and Marine Corps has 
been exceptionally involved in this. We are doing things like 
running shore patrols at night in fleet concentration areas. 
And we are moving to treat the Naval Academy exactly the same 
way we treat the fleet, because we are finding ways in the 
fleet to attack this terrible, insidious issue.
    And in the remainder of my time, I would like to talk just 
for a second about that 151 number. The Navy removed five 
people from positions of trust for serious issues. The other 
146, when we took a wider look, were mainly for administrative 
things. They hadn't gotten one piece of paper signed. There 
were four people at the Naval Academy who didn't have Ph.D's 
and needed it to teach. It had nothing to do with sexual 
assault.
    The five that we removed, we found that we removed them 
because we didn't find them in our first screening process 
because we only went back 36 months, so we have changed that. 
We are going back through an entire career now.
    And we have this very, very rigorous prescreening process. 
Before you can become a recruiter, before you can become a 
drill sergeant, before you can deal with sailors or marines, we 
take you through this screening process. I think that is one of 
the reasons the numbers are so low, five for the Navy, and zero 
for the marines.
    Senator Durbin. Mr. Secretary, I can't speak for any other 
Senators, but for myself, this is an issue which we will 
continue to monitor, which we must, at our level and at your 
level as well.
    Senator Cochran.

                         ASIA-PACIFIC REBALANCE

    Senator Cochran. Thank you, Mr. Chairman.
    Mr. Secretary, thank you for your cooperation and 
attendance here, and the entire panel.
    I first want to congratulate you for your leadership and 
the serious way in which you are handling your 
responsibilities.
    In looking toward some of the issues that have been before 
the committee as we try to allocate resources across an ever-
growing challenge, there is not enough money to do all the 
things we would like to be able to do in defense of our 
country, but we have to pick and choose.
    We heard a lot about rebalancing the Navy toward the 
Pacific. Several months ago, that seemed to be the issue that 
was being carefully weighed and was the subject of hearings. I 
wonder now, with the developments in Eastern Europe and 
elsewhere, are we ahead of ourselves? Are we reassessing the 
rebalancing toward the Pacific in exchange for more attention 
to where the action seems to be now, the Crimean Peninsula, 
particularly?
    Mr. Mabus. Thank you, Senator.
    The rebalance to the Pacific continues, and it continues to 
be a focus for the Navy, and I can give you example after 
example, moving from 55 percent of our fleet to 60 percent of 
our fleet in the Pacific, another amphibious ready group to 
move in a couple of years there, moving marines rotationally 
into Australia, rotationally and permanently to Guam, the 
forward-stationing of four littoral combat ships in Singapore, 
and the placing of our most modern, most up-to-date platforms 
in the Pacific.
    None of that is to take away from the other 
responsibilities that the Navy has. And one of the reasons the 
CNO, the Commandant, and I have stressed so much shipbuilding 
and presence is so that we can respond to wherever the Nation 
needs us to respond.
    We are a global Navy, and the defense strategic guidance 
that was put out by the President in 2012 said that we should 
focus on three areas. One was the western Pacific, but one was 
the Arabian Gulf, and that part of the world, the Central Asia 
part of the world, and one was on building partnerships.
    The Navy, the Marine Corps, have been focused on that so 
that when a crisis arises whether in the Black Sea or anywhere 
else in the world, that we are there with the appropriate tools 
to take on whatever task the Nation and the Commander in Chief 
gives us.
    Admiral Greenert. Senator Cochran, 30 seconds. I have a 
little folder in front of you. It has the Asia-Pacific 
rebalance. I just thought somebody might ask about it.
    But anyway, it shows we are on this track.
    I call your attention--we have 21 ships in the EUCOM arena 
right now, or area of responsibility, and we are putting four 
destroyers in Rota, so we are, as the Secretary said, forward-
stationing in the European region as well as in the Pacific 
region.
    I think we have it covered reasonably well, sir.
    Senator Cochran. Thank you.
    General, would you like to comment on the role of the 
Marine Corps in this?
    General Amos. Senator, I would be happy to.
    First of all, we have been aggressively rebalancing to the 
Pacific, although we never left. Today, as we meet, we will 
have about 20,000 marines--we do today--about 20,000 marines 
west of the International Date Line.
    If you remember, Secretary Panetta said, ``I want 22,500 
marines,'' so we are headed out that direction.
    I think back to the strategy though, we need to first--we 
do, as the Service Chiefs--look at the joint force. Yes, we may 
be rebalancing to the Pacific, but there are other elements of 
the joint force that are available for Europe.
    And my sense is that when the DSG was rolled out 2 years 
ago, it was maybe marketed just a little bit misleadingly. 
There was never the intent for any of the Chiefs to vacate 
Europe or vacate Africa or SOUTHCOM (Southern Command). It was 
simply to take the major spotlight and turn it on the Pacific.
    I think today, what is happening in Central Europe verifies 
and validates the fact that we still need to have a very close, 
watchful eye on that part of the world, because it is a 
dangerous part of the world in dangerous times.
    Senator Cochran. Thank you, Mr. Chairman.
    Senator Durbin. Thank you.
    Senator Mikulski.
    Senator Mikulski. Mr. Chairman, Senator Cochran, first of 
all, I am very proud of this committee and the way we have 
supported the United States military. And we have worked on 
both sides of the aisle, and we have worked on both sides of 
the dome.
    And the fact that this Appropriations Committee and this 
subcommittee, we were able to take the Murray-Ryan budget and 
actually turn it into a real appropriations committee.
    So I am sure that for you, it was important--all of you--
that it gave you two things. It gave you certainty, and it 
canceled sequester, which has been a source of heartburn to the 
leadership and your ability to turn.
    We hope to be able to, again, do this for fiscal 2015. We 
are moving in a very brisk way to meet our obligations. We are 
going to want to talk with you as we move through our process, 
supporting the President's goals, the outline of your excellent 
testimony today is, if we continue this momentum of 2014 and 
2015, how could it get derailed or diluted in fiscal 2016 if we 
go back to sequester?
    So we want you to continue to have these building blocks 
that you need. So that is just an overall statement.
    But again, we are going to continue the effort that is the 
hallmark of this subcommittee and so on, bipartisan, bicameral, 
to support our United States military.

      MILITARY CULTURE, GENDER EQUALITY, SEXUAL ASSAULT PREVENTION

    So this, though, gets to my question. We support your goals 
and the President's goals of the military having the best 
tools, the best ships, the best planes, and the technology, but 
it is as only as good as the people, which takes me to the 
culture.
    Senator Durbin has raised the question of sexual assault. 
My concerns about this are well-known.
    But I wonder, what is being done by the leadership to get 
the entire Navy and Marine Corps ready for the new demography? 
You are going to have more women serving in combat roles. They 
were outlined in great detail in General Amos's testimony. We 
have more women serving in more combat positions.
    You are going to have more openly gay members serving in 
the military. And we continue to have this issue of assault not 
only on women, but on men as well.
    So where does the culture come in terms of the training so 
that they then continue to be one of the most esteemed 
institutions in this country? The military is the most esteemed 
institution.
    I am going to turn to you, Secretary Mabus, and then to our 
Admirals and our Generals.
    Because the Durbin question, which is an excellent 
question, and the women have worked on what happens with victim 
assistance, prosecutorial reforms, great things. But those are 
after the fact.
    What do we do in terms of a culture that prevents these 
things from happening, where men and women in the military 
continue to respect other men and women in the military, 
regardless of who they are, what they look like, or their 
personal affections?
    Mr. Mabus. That is the most important thing that we are 
trying to do, Senator.
    The changes that we have made in terms of how you treat 
shipmates with respect, how an attack such as sexual assault is 
an attack. It is a crime. It is not worthy of this military. 
And it has the ability to fray and undo a lot of the good 
things that the military has done.
    Very briefly, in terms of integrating women into the Navy, 
we have now opened up every single MOS (Military Occupation 
Specialty) and position in the Navy, except for Special Forces, 
and that is not a decision that Navy gets to make.
    I was at Kings Bay, our submarine base. I asked there how 
the integration of women on submarines has gone, and the big 
news was there was absolutely no news. It was just a matter of 
course. And nobody saw anything even remotely remarkable or 
unusual about that.
    I think the same thing with the end of Don't Ask, Don't 
Tell, and having gays and lesbians serving openly in the 
military. There just has not been the feared or maybe even 
anticipated reaction to that, and I think that shows a change 
in the culture of our military.
    Admiral Greenert. Madam Chairwoman, we found that we do a 
pretty good job, and this is based on statistics of how people 
behave, what their conduct is, and our feedback when they enter 
the service. In other words, a recruit training center and in 
our A schools, the kids, based on how they perform, how they 
behave, they get it.
    But then they go out to sea and we say, how do you refresh 
them? Because it is a relentless, continuing challenge to make 
sure that they understand what is expected of them and how we 
work together in character development and leadership 
development.
    So we have stood up, as you are well-aware, at the Naval 
Academy, we have an Ethical and Leadership Center, which has 
fed a part of our development of officers, both at the Academy 
and otherwise. And we need to continue that through their 
career.
    So what we have is we have a leadership and character 
development center----
    Senator Mikulski. Excuse me, Admiral. I can see my 
colleagues are getting edgy. If we could keep the question or 
answer short, or maybe you need to submit this for the record. 
I am very sensitive to the fact that there are three other 
Senators that have to ask questions.
    Admiral Greenert. I will summarize. It is a continuum, 
ma'am, from E-1 to E-10, E-9, O-1 to O-10.
    I will submit it for the record.
    [The information follows:]

    Understanding the realities of sexual assault and the conditions 
under which they occur is a primary, continuous activity. Prevention 
initiatives continue using a multi-faceted approach focusing on command 
climate; deterrence; and bystander intervention. Navy commanders are 
charged with fostering an environment where behaviors and actions that 
lead to sexual assault, as well as sexual assault itself, are not 
tolerated, condoned or ignored.
    To prevent assaults, the Navy needs to eliminate behaviors on the 
left side of the continuum of harm. These behaviors include sexist 
behaviors (comments, jokes, and behaviors meant to demean people based 
on their sex or sexual orientation), and sexual harassment (unwanted 
behaviors of a sexual nature that create a hostile work environment). 
In addition to focusing on the elimination of sexual harassment, the 
Navy continues to provide multi-faceted messaging about the Sexual 
Assault Prevention and Awareness program, Cultural awareness, and the 
effects of alcohol on interpersonal relationships and individual 
decisionmaking. The first step in helping to eliminate these behaviors 
is through training.
    The Navy has an established training continuum for Enlisted 
Personnel:
      Recruits.--Receive 3 hours of Command Managed Equal Opportunity/
        Sexual Harassment training during week three of recruit 
        training. (SAPR-Fleet)
      Pre-Technical Training.--Per NETCINST 1500.11, Navy Military 
        Training Program comprises 2 hours of training delivered to all 
        enlisted sailors attending formal schoolhouse courses during 
        their first year of service following recruit training. Other 
        relevant topics in this 2-day course include: Decisionmaking; 
        Hazing; Sexual Harassment; Fraternization; Blue-on-Blue 
        Violence; and Sexual Activity. Each Sailor also receives 4.5 
        hours of focused Bystander Intervention skills training during 
        the same introductory course period. Further, ``No Zebras'' and 
        other ``edutainment'' training funded by DON SAPRO has been 
        expanded to concentrate on ``A'' school locations
      Chief Petty Officer/Petty Officer Indoctrination.--All selectees 
        (Chief Petty Officer, First Class Petty Officer, Second Class 
        Petty Officer, and Third Class Petty Officer) attend leadership 
        courses to receive 1 hour of training on Equal Opportunity/SH 
        policy, in addition to a one hour Sexual Assault Awareness and 
        Prevention Module.
      Senior Enlisted Academy (SEA).--Senior Enlisted personnel (E7-E9) 
        receive 5 hours of Command Climate training during the SEA 
        Residence Course in Newport, Rhode Island.
      Command Master Chief/Chief of the Boat (CMC-COB)/Command 
        Leadership School.--SAPR-CLS is delivered during 2 hours of 
        focused time on the topic of sexual assault prevention and 
        response. Additional focus on the responsibilities of command 
        leaders to foster climates free of destructive behaviors is 
        delivered in both case study and seminar format throughout the 
        course of instruction. The audience includes CMC-COB students, 
        together with PCO, PXO, and MC students in small groups.
      Command Indoctrination.--Per OPNAVINST 1740.3C, a Command 
        Indoctrination Program must include Navy Pride and 
        Professionalism (NP&P) training and be provided to all newly 
        reporting personnel within 30 days upon arrival. NP&P includes 
        such topics as: Diversity; Pride in Self and Core Values; 
        Violent Behavior Awareness; and Sexual Harassment. Additional 
        command indoctrination topics include Sexual Assault awareness 
        training.
      General Military Training (GMT).--Per NAVADMIN 386/11, Sexual 
        Assault Prevention and SH Training is delivered face-to-face 
        annually.
    The Navy has an established training continuum for Officers:
      Naval Reserve Officer Training Core (NROTC).--Students receive 
        two hours of training during fall and spring indoctrination and 
        prior to summer cruise. It is also mandated that all Naval ROTC 
        units 4/C-2/C Midshipmen receive SAPR-F training, while all 1/C 
        Midshipmen receive SAPR-L.
      Officer Candidate School (OCS).--Students receive one hour of 
        training during week one of the school.
      Officer Development School (ODS).--Staff Corps Officer Students 
        receive one hour of training during week one of the school.
      United States Naval Academy (USNA).--Students receive Sexual 
        Harassment and Prevention Education on a progressive schedule, 
        to include both SAPR-F and SAPRL through-out all 4 years at the 
        Academy.
      Command Indoctrination.--Per OPNAVINST 1740.3C, a Command 
        Indoctrination Program must include Navy Pride and 
        Professionalism (NP&P) training and be provided to all newly 
        reporting personnel within 30 days upon arrival. NP&P includes 
        SH training.
      General Military Training (GMT).--Per NAVADMIN 386/11, Sexual 
        Assault Prevention and SH Training is delivered face-to-face 
        annually.
      Commanding Officer (MC, CO, XO)/Command Leadership School 
        (CLS).--SAPR-CLS is delivered during two hours of focused time 
        on the topic of sexual assault prevention and response. 
        Additional focus on the responsibilities of command leaders to 
        foster climates free of destructive behaviors is delivered in 
        both case study and seminar format throughout the course of 
        instruction. The audience includes PCO, PXO, and MC students, 
        together with CMC-COB students in small groups.
    Every Sailor, E-1 to O-10, received targeted SAPR training through 
either SAPR-Leadership (SAPR-L), SAPR-Fleet (SAPR-F), SAPR-General 
Military Training for Khakis (SAPR-GMTK), the DOD directed SAPR-Stand 
down, or any combination of the training efforts.
    To ensure the right dosage of training in the Fleet, decentralized 
training is ongoing in fiscal year 2014. General Military Training 
(GMT) remains an annual requirement that is directed by legislation. 
The SAPR GMT syllabus has been updated to align with DOD core 
competencies and Learning Objectives. To meet NDAA 2012 requirements, 
the Navy's Professional Military Education (PME)/leadership course 
curriculum has been updated where SAPR training gaps existed.
    Bystander Intervention (BI) is another key element of our 
prevention efforts. Bystander Intervention has three major goals: Raise 
the awareness of Sailors about the continuum of behaviors that can lead 
to battering, sexual harassment, sexual assault and other forms of 
abuse; challenge Sailors to play an active role in reducing sexual 
violence, harassment, and abuse and discourage them from being passive 
bystanders; and, empower Navy leaders to mentor and educate their peers 
and Sailors on these issues. Specifically:
  --All Training Support Center/``A'' schools deliver BI training to 
        post-recruit training Sailors (see above).
  --SAPR-Fleet training is completed during recruit training.
  --The Coalition of Sailors Against Destructive Decisions chapters 
        provides peer-to-peer mentoring and SAPR strategic messaging.
  --Fleet Workshops and Personnel Readiness Summits are delivered to 
        the Fleet concentration areas; programs incorporate Bystander 
        Intervention training and innovative sexual assault training 
        edutainment (e.g., Sex Signals, No Zebras, InterAct).
    In Q1 of fiscal year 2015 we are taking BI even further with 
``Bystander Intervention to the Fleet'' whereby we will create a cadre 
of Sailors to deliver Fleet-specific skills based training. This cadre 
of Trainers will travel to Fleet concentration areas, both CONUS and 
OCONUS, ashore and afloat, to deliver training. Fleet wide training 
would reach beyond the SAPR realm and address other destructive 
behaviors on the continuum of harm.
    In 2015, we will also introduce a new generation of training 
tentatively titled ``Living our Core Values: Charting the Course.'' 
This training would address the grey area between sexual harassment and 
sexual assault--those left side of the continuum of harm behaviors that 
when left unchecked lead to a detrimental command climate where 
undesirable outcomes are inevitable. The training would include 
comprehensive, personal leadership development (Resilience) which could 
include physical fitness, leadership, ethics, and justice training 
(including self-assessment), bystander effectiveness training (for 
drugs, alcohol, SAPR, harassment, hazing, bullying and other issues 
which are related to destructive behaviors), operational stress control 
and suicide prevention, and alcohol abuse training. These are positive, 
developmental initiatives which allow individuals to transcend human 
behavioral issues, and are underscored by personal accountability.

    Senator Durbin. Thank you very much, Admiral.
    Senator Shelby.
    Senator Shelby. Thank you.
    Senator Mikulski. All of it for the record.

                    LITTORAL COMBAT SHIP WAY FORWARD

    Senator Shelby. Mr. Secretary, the Department of Defense, 
as you well know, has decided to reduce the overall purchase of 
LCS ships from 52 to 32, in favor of what we have heard is a 
more capable service combatant, whatever that means.
    I understand the decision about the future of the program 
will go one of three ways, possibly. It could stay on track. It 
could be modified. Or the Navy could draw up an entirely new 
design.
    Last week, you commented that you saw the modification 
option perhaps as a viable option in the future. Could you 
discuss that for the committee today?
    Mr. Mabus. Senator, I will be happy to, and I think it is 
very important to look at exactly what the Secretary of Defense 
said about LCS.
    First, he said that we should not engage in contract 
negotiations past 32 ships. And getting to 32 ships will take 
us almost completely through this 5-year defense plan.
    Second, you are absolutely correct that there were three 
options and Navy has set up a team, the CNO has set up a team, 
to look at our options, and the three options that you gave--
continue the LCS, continue a modified LCS, or a brand new 
design.
    The last two things, though, that the Secretary pointed out 
was that we had to take cost into account, and we had to take 
delivery time to the fleet into account, because overall, we 
need the 52 small surface combatants that we have said that we 
need.
    We will have this review done in order to inform the 2016 
fiscal year.
    And, Senator, one other point I would like to make, this is 
not unusual in Navy ships. We are about to start building 
flight 4, flight 3, but there was a 2 and a 2A, on our DDG-51s 
that are built in Maine and Mississippi. We are about to begin 
flight 4 on our Virginia-class submarines.
    So we take a look at these programs and change as 
requirements change, as technology changes. And the great thing 
that a ship like LCS brings is that, as technology changes, as 
missions change, because it is modular, you don't have to 
change the whole ship, you just change the weapons system.
    And the final thing I will say is that the price of LCS, 
one of the things I am most happy about, the first ships of 
those classes, both varieties, built in Alabama and Wisconsin, 
cost more than $750 million. The ships coming out, the 10th 
ship on the block buy from each one will cost around $350 
million.
    Senator Shelby. So the more you buy, the price comes down. 
Isn't that just basic economics?
    Mr. Mabus. It is basic economics, and it is true for every 
ship. I want to point that out.
    Senator Shelby. How important, Mr. Secretary, for the 
record, is LCS to the Navy?
    Mr. Mabus. Well, a small surface combatant is critical to 
the Navy. And if you listen to our combat commanders, if you 
listen to the needs that they require, we have to have the 
counter-mine capability, the counter-surface capability, and 
the counter-submarine capability that these ships are designed 
to bring.
    And in terms of the counter-mine and counter-submarine, the 
weapon systems that LCS has today are better than what we have 
in the fleet.

                        JOINT HIGH SPEED VESSEL

    Senator Shelby. Admiral Greenert, the joint high speed 
vessel, the Navy made the decision last year to stop production 
of the joint high speed vessel at 10 ships. Could you describe 
the benefits that the joint high speed vessel brings to the 
Navy's mission and bottom line? And limiting it to 10 ships, 
what would that do to partnership training and engagement 
capabilities?
    Admiral Greenert. Senator, we limit it to 10 because we are 
going to forward-station them. And we are still sorting through 
that.
    Senator Shelby. I know you are.
    Admiral Greenert. That need may grow. But it was built for 
predominantly high-speed logistics. It can do so much more. It 
can do counter-piracy, counterterrorism, theater security 
cooperation, and things we don't even know yet.
    During the Sochi Olympic Games, the Spearhead, the No. 1, 
was standing by to evacuate folks, if needed. That is called 
noncombatant evacuation. It could take 1,200 people. We just 
needed life preservers.
    My point is: It is still evolving. I think we have a host 
of capabilities in that ship that we don't know about yet. But 
I have a team on it.
    Senator Shelby. Thank you. The Navy will revisit that 10-
ship number?
    Admiral Greenert. Sir, we revisit the 10-ship--in fact, we 
are going to do a force structure assessment this summer, due 
to the QDR. But we revisit all of our ship types.
    Senator Shelby. Mr. Chairman, I have one quick question. I 
know everybody wants to ask them.
    The amphibious class ship, General Amos, how important is 
that?
    General Amos. Sir, that is the Swiss army knife of the 
United States Navy-Marine Corps team. It does everything.
    Senator Shelby. It is essential, isn't it?
    General Amos. It is absolutely critical. It is the bread 
and butter of what we do.
    Senator Shelby. Do you have enough of them?
    General Amos. No, sir, we don't.
    Senator Shelby. Okay.
    Thank you, Mr. Chairman.
    Senator Durbin. If you buy more, they are cheaper.
    Senator Collins.
    General Amos. Sir, I would like to add 54 of them. It is 
just a function of money.

               SEQUESTRATION IMPACTS--DDG-51 AND DDG-1000

    Senator Collins. Thank you, Mr. Chairman. Actually, you 
have given me the exact right lead-in to my questions of 
Secretary Mabus.
    Mr. Secretary, I am very concerned that sequestration--
those indiscriminate, automatic cuts--are going to kick back in 
in 2016 if we don't act. We have a 2-year reprieve, but in the 
fact, the Budget Control Act calls for those draconian cuts to 
resume in 2016.
    There are two issues that I want to raise with you about 
the impact of those automatic cuts known as sequestration. And 
the first follows up with the point about the efficiencies that 
you achieve if you have multiyear contracts.
    Right now, we are looking at a 10-ship buy for the DDG-51 
class of destroyers. It is a 10-ship buy. And that 10-ship buy 
actually saves the Navy some $1.5 billion. Is that correct?
    Mr. Mabus. That is absolutely correct.
    Senator Collins. And so, that is essentially allowing us to 
get an extra destroyer for free, if you look at it, compared to 
buying them individually and not having the certainty of the 
10-ship buy. Is that correct?
    Mr. Mabus. You have identified one of the pernicious 
effects of sequestration, that it has the potential, if it 
kicks back in in 2016 to give us fewer ships but at higher 
cost.
    Senator Collins. And that, Mr. Chairman, truly is the worst 
of all worlds. If we don't have the certainty of the 10-ship 
buy, we end up paying more per ship and getting fewer ships.
    So I hope we will keep that in mind and make sure that we 
do not allow sequestration to kick back in and undermine the 
savings that otherwise would occur for ships that we really 
need.
    The second related issue has to do with the number of 
destroyers that could be procured. Right now, we are scheduled 
to build two DDG-51s per year, fiscal year 2015 through fiscal 
year 2017. Yet according to the chart that Admiral Greenert 
gave us today, it sure looks to me that we would be in jeopardy 
of losing three of those destroyers if we have to budget at the 
BCA levels.
    Admiral, am I reading your chart correctly?
    Admiral Greenert. Yes, Senator, you are reading it 
correctly.
    Senator Collins. And could you describe the benefits that 
destroyers provide, the DDG-51, in terms of their missile 
defense? They are the real workhorse of the fleet, are they 
not?
    Admiral Greenert. Yes, Senator. They are the premier 
warship, surface warship, of our fleet, premier.
    Senator Collins. And if you look at the number of ships 
that the combatant commanders have requested, how many is that?
    Admiral Greenert. Well, if we add them all up, 450 is what 
they say they need to do the global engagement of the force.
    Senator Collins. Now, I realize that is without considering 
cost, but I just want my colleagues to realize that the 
combatant commanders say that if you really fulfilled their 
needs and met their requirements, we would actually need 450 
ships.
    And I think that is really important for us to keep in mind 
as we go through these budget deliberations.
    Thank you, Mr. Chairman.
    Senator Durbin. Thank you, very much.
    Senator Coats.
    Senator Coats. I will be brief, because I know we have a 
vote.
    I want to just step back and look at the larger picture. I 
think talking about the number of ships we need right now, the 
more you buy, the more you build, the cheaper they are, and so 
forth and so on.
    But the reality is that every year we sort of have a 
shrinking percentage of the overall budget, because of our 
runaway mandatory spending.
    And that is a reality. That is a reality we all have to 
deal with. And so while we can sit here and each year or each 
budget cycle, say, well, we have to cut a little more, cut a 
little more, even though we think we need to have more, 
particularly given the status of the threats around the world 
today--and I strongly support that stronger military--we have 
to face that reality.

       MANDATORY SPENDING PROGRAMS AND IMPACT ON FORCE STRUCTURE

    But within that reality is also the reality of the fact 
that, within your own budgets, personnel costs and mandatory 
spending there is also a factor. And so I guess my question is: 
How do we best address that within your budget?
    I know some recommendations will be coming forward. I am 
not asking here for specifics, but I think working with the 
committee is important in terms of how the military itself 
addresses its own concerns relative to the personnel and 
mandatory spending within your budgets, how it affects the 
number of ships we are able to buy, the number of people we can 
put in uniform, the number of training hours we can give our 
soldiers, sailors, Air Force, and marines.
    So, Secretary Mabus, I don't know if you want to make a 
quick comment on that, but how can we--well, I will just make 
two points here. One, I think we need to work with you relative 
to that issue within, and then I think we need to have all of 
you standing up to Members of Congress and saying, ``If you 
want to have a robust military to deal with the threats in the 
world today, we need to address this larger problem, because we 
are part of a pool of discretionary spending that is shrinking 
every year based on the runaway spending outside of the 
discretionary.''
    Mr. Mabus. Senator, if we don't get a handle on personnel 
costs and benefits, it will have an impact on the entire rest 
of our budget. We are at that point now, and we have made 
recommendations that are supported by the CNO and the 
Commandant and all the Joint Chiefs to curb the growth, not to 
cut, but to curb the growth of spending in this area.
    It is important to keep faith with an All-Volunteer Force, 
but it is also important that they have the tools that they 
need, that they have the platforms, that they have the weapons, 
that they have the training, that they have the operations to 
do the things that they need to do and that the Nation needs 
for them to do.
    And one of the greatest dangers to that are personnel costs 
that are eating up a larger and larger percentage of our 
budget.
    And I think the CNO and the Commandant should comment on 
that as well.
    Admiral Greenert. Senator, I think it is a balance. Any 
money that we would garner, as the Secretary said, by curbing 
the growth is reinvested in what we call the quality of their 
work. And it is about increased predictability, parts, 
training, personnel training, professional training, unit 
training, to improve their environment around where they work. 
That is where they have explained to us--they said to us, ``We 
are pretty compensated, but I am not happy with my environment 
right now.''
    Well, I would submit we are out of balance a little bit, 
and there is where we can invest these savings from curbing 
growth.
    General Amos. Senator, we have got the best military our 
Nation has ever seen in its history. They are well-paid. 
They've been well cared for. And they should have been well-
paid, and they should have been well cared for. They have borne 
the burden of the last 12 years, and you know that.
    But this is a balance. And the Chiefs and the senior 
enlisted advisers of all the services and the Joint Chiefs have 
put forth what we consider to be acceptable, reasonable 
solutions--partial solutions to the enduring cost--the rising 
cost--of compensation.
    We would just ask Congress to look at those, understanding 
that we have represented our 240,000 Reserve and Active Duty 
Marines and their family members with this thing. It is 
reasonable. It is a balance.
    And we are the cheapest per person of any service. Per man, 
per woman, the Marine Corps is the cheapest.
    But the fact is that if we don't get some of this stuff 
under control within reason, we will become an entitlements-
based Marine Corps, and that is not why America built a Marine 
Corps 238 1/2 years ago. We are here to do the Nation's 
bidding, to fight the Nation's battles.
    So I think it is a balance to reach that, and it is not 
either/or, but it is a combination, and we just need your 
support with it.
    Senator Durbin. Senator Graham.

                   PERSONNEL AND COMPENSATION REFORM

    Senator Graham. Thank you.
    I just happened to have left a subcommittee hearing on the 
Authorization Committee, where I am the ranking member of 
personnel. There is about $2 billion of personnel structural 
changes that are necessary, given the budget caps, and we are 
trying to find out what the commission does in February. They 
say, ``We can't wait.'' They have done a good job of trying to 
scrub TRICARE, commissaries, the whole nine yards.
    Count me in for structural changes as part of any 
sustainable military. You just can't have the personnel arena 
not addressed, and structurally you have to do it. I just think 
it would be smart to wait for the commission.
    So that is going to be my position. If we could find $2 
billion in new money, it would take a lot of the pressure off 
readiness and other accounts, because $2 billion coming out of 
personnel, under this construct, I am not so sure I can 
support.
    Do you agree with me, General Amos, pound for pound, the 
Marine Corps is the best investment in the world?
    General Amos. Sir, I have testified before you many times. 
I know this is a box canyon, but yes.
    Senator Graham. Okay, good. Just seeing if you are awake. I 
know you always would be. No, I believe that.

                          EA-18G REQUIREMENTS

    The EA-18G Growler, the F-18, Admiral, you have made an 
unfunded priority for an additional 22 of these airplanes? 
Could you tell the committee why? What the airplane does and 
why you need 22?
    Admiral Greenert. The airplane is called ``Electronic 
Attack.'' What it does is it enables us to get access. It jams 
and spoofs radars. It suppresses enemy air defenses so that we 
can get through those defenses.
    It also is a cyber-tool, if you will--weapon, and it can 
defend itself. So it can also suppress, but also it carries 
weapons. Very, very capable and an emerging and continuing part 
of our air wing of the future. I am absolutely convinced of 
that.
    Senator Graham. And given the threats the Nation faces, 
this becomes a platform more relevant, not less. Do you agree 
with that?
    Admiral Greenert. Absolutely. Yes, sir.
    Senator Graham. Okay, one final question.
    From the Marine Corps' perspective, if sequestration is 
fully implemented, what effect will it have on the Marine 
Corps? Mild, severe, moderate?
    General Amos. Sir, we will be a 175,000 force from 202,000, 
and if sequestration remains, after 2016 and beyond, we will be 
a high-risk force.
    Senator Graham. Navy?
    Admiral Greenert. Sir, we will be too small for presence 
that the COCOMs (combatant command)--I am not talking 450, I am 
just talking about the basic presence we get done today.
    And then, secondarily, we will not be keeping up with our 
high-tech potential adversaries. That bothers me a lot.

                   SEQUESTRATION IMPACT ON FORCE SIZE

    Senator Graham. Secretary Mabus, what do you think the 
effect will be on the Navy and Marine Corps if we continue 
sequestration as planned?
    Mr. Mabus. Senator, I would just say, amen to what the 
Commandant and the CNO have said.
    The effects of sequestration, should it continue past 2016, 
would be serious in the extreme to both the Navy and the Marine 
Corps.
    Senator Graham. You are looking at 308 combatant ships by 
2020. By 2024, how many will the Navy be able to have?
    Mr. Mabus. I will have to get that number for you, but it 
is over 300 it continues--315.
    [The information follows:]

    The naval battle force inventory at the end of fiscal year 2024 
will be 315 ships.

    Senator Graham. Okay.
    Well, thank you all for your service.
    And to my colleagues, we have to balance the budget. $17 
trillion in debt means everything has to be looked at.
    But sequestration was just a bad idea. And I find it almost 
amusing that all of us would be complaining about the effects 
of it, but we did it to ourselves. Not one person on this panel 
recommended sequestration. Not one member of the military came 
up here and said this was a good idea. We made this up 
ourselves.
    I am glad I voted against it, and if we don't fix it, we 
have nobody to blame but ourselves. Thank you.

                  FOR-PROFIT COLLEGES AND UNIVERSITIES

    Senator Durbin. Mr. Secretary, we are on a vote and just 
have a few minutes left. I would like to do a follow-up 
question.
    If I suggested as a member of the Senate and a member of 
this panel that I wanted the Navy or the Marine Corps to buy 
substandard equipment, because of a political connection, you 
would find that as ghastly as any suggestion that we would 
provide our men and women in uniform with something less than 
the best. And I know that you are all dedicated to make sure 
that whatever it is, by way of equipment, training and such, 
they get the best.
    There is one area where we do not provide the best. Over 
and over again, we give for-profit colleges and universities 
access to more than half of the men and women in the military 
when we know they overcharge and they underproduce when it 
comes to graduation rates and the capacity of students once 
they finish.
    I had a nephew of mine who was in the Army and he called me 
and said, ``Well, Uncle Dick, the good news is I have signed up 
at the American Military University.'' Well, guess what? It is 
just another for-profit school.
    I told him, take a look there. You are from Maryland. The 
University of Maryland has been offering courses for decades, 
and you could transfer them when you get out of the service.
    I am afraid that too many men and women in the military are 
being misled into these for-profit schools, wasting the 
opportunity we give them under the G.I. Bill and service-
related education.
    What are we going to do about this to clean up this mess?
    Mr. Mabus. We share your concern, absolutely, Senator.
    And one of the things that we are doing is before a sailor 
or marine can take advantage of tuition assistance or studying 
while they are in the military, they have to go to a counselor 
to make sure that what they are going to get is not just a 
degree, but it is an accredited degree that will allow them 
to--or the courses that they take are accredited--so that they 
can be transferred. So that they are not paying large amounts 
of money to get a degree that, in the end, just isn't worth 
very much.
    And so we are attacking that by people inside the military, 
when they go for tuition assistance, when they go to study 
while they are still on Active Duty, we can do that.
    I think that the issue when you get out of the military is 
an issue that Congress will have to address because then we no 
longer have any control over where these veterans go.

    CONTRACTING WITH COMPANIES THAT DO NOT ADHERE TO HUMANE WORKING 
                               CONDITIONS

    Senator Durbin. General Amos, in November 2012, when a fire 
broke out at a garment factory in Bangladesh, it was a tragedy, 
an unspeakable tragedy with innocent people dying under the 
most inhumane working conditions. And in the rubble, they found 
indications of some products being made for the Marine Corps.
    I believe that you made a decision, as a result of that. 
Could you tell us what that is? And could I ask the Navy if 
they are going to follow suit?
    General Amos. Chairman, that came as a complete surprise. 
What we have is a contracting arrangement, in fact, it is an 
agreement. It is a licensing agreement. If you are going to use 
our logo or use our name, you have to--because it is patented.
    And so now they have to sign up--the company has to sign up 
and agree to certain terms. One of the set of terms is we are 
not going to ship this stuff overseas, and we are not going to 
put it in substandard sweatshops where people are abused.
    So when the fire happened, and the ensuing investigation 
showed products that would find their way to our Navy and 
Marine Corps exchanges, we pulled the plug on that. We pulled 
the license away. We pulled the authority from that company to 
be able to produce those shirts, shorts. And we have held them 
accountable for that, Chairman.
    We are very serious about that.
    Senator Durbin. Is the Navy going to follow suit?
    Admiral Greenert. We will, Senator. I was made aware of it 
whenever we had the office call, and Jim and I will talk about 
it, and we will look to see this company, what they do for us, 
and take appropriate action.
    Senator Durbin. Beyond this company, though, establish 
basic standards for production, so that we don't subsidize 
these awful enterprises?
    Admiral Greenert. Yes, sir. Absolutely. I got it.
    Senator Durbin. Thank you.
    Senator Cochran.
    Senator Cochran. I have nothing.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Durbin. Senator Shelby.
    Gentlemen, thank you. I am sorry that we had to abbreviate 
this hearing. We have many other questions, which we will 
submit in writing. We hope you get a chance to respond to on a 
timely basis.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
                 Questions Submitted to Hon. Ray Mabus
            Questions Submitted by Senator Richard J. Durbin
    Question. Secretary Mabus, the Village of Glenview, Illinois, is in 
the process of selling a parcel of land that the Village purchased from 
Midwest Family Housing--a Navy Public Private Venture--that was part of 
Naval Air Station Glenview. It is documented that asbestos was released 
when the Navy demolished housing at this site. Recent testing indicates 
asbestos is still present at the site. There are ongoing conversations 
between the Village and NAVFAC Midwest concerning remediation of the 
land. What is your understanding of the Navy's responsibility for 
remediation of its former properties in this type of situation?
    Answer. Pursuant to a covenant in the 2007 deed for this parcel 
from the Department of the Navy (DON) to Midwest Family Housing (MFH), 
under the Comprehensive Environmental Response, Compensation and 
Liability Act (CERCLA), Section 120(h), the DON warranted that all 
remedial action necessary to protect human health and the environment 
with respect to any hazardous substance identified on the property had 
been taken prior to disposition. The covenant also requires that any 
additional remedial action found to be necessary under CERCLA after the 
property is sold to be addressed by the DON.
    Representatives of Naval Facilities Engineering Command 
Headquarters and of the Commander, Navy Installations Command, are 
engaged in discussions with the Village of Glenview to determine 
whether an obligation under CERCLA exists that would require the DON to 
return and remediate under the deed covenant.
    Question. A 2008 Department of Defense (DOD) study found that the 
prevalence of smoking is higher in the military (30.6 percent) than the 
general adult population (20.6 percent), and that the availability of 
cigarettes on military installations made it easier to smoke. A 
separate study found that one in three military smokers began doing so 
after enlisting. This behavior has severe consequences for readiness 
and healthcare spending, as tobacco use shortens service members' lives 
by 10 to 14 years and costs the Department more than $1.9 billion 
annually in tobacco-related medical care.
    According to the Institute of Medicine's 2009 report: Combatting 
Tobacco Use in Military and Veteran Populations, the Department has set 
a goal to become tobacco-free, but has yet to achieve that goal despite 
promoting tobacco-free lifestyles through public-education campaigns, 
commander training, banning all tobacco use during basic training, and 
the prohibition of tobacco use by instructors in the presence of 
students.
    What efforts is the Navy taking to reduce tobacco use, including 
smokeless tobacco, among Navy personnel? How does tobacco use impact 
military readiness and the long term health of service members? What 
obstacles does the Navy face to effectively implement a tobacco free 
lifestyle among personnel and to establish a date for eliminating 
tobacco at Navy installations?
    Answer. The Department of the Navy (DoN) is committed to maximizing 
the readiness of our Sailors and Marines and as part of that commitment 
has implemented a number of initiatives to aggressively reduce tobacco 
use by all personnel. Department of Defense (DOD) policy allows the 
price of tobacco products sold in military resale outlets to be 
discounted no more than 5 percent below the most competitive commercial 
price in the local community. In September 2012, the DoN eliminated the 
5 percent discount, and requested a change that would allow Navy and 
Marine Corps retail outlets to raise prices on tobacco products to 
match the average commercial price in the local community. DoN is 
confident that this price increase will enhance readiness by reducing 
the prevalence of tobacco use among military personnel and has seen a 
drop in the sale of tobacco products at Navy and Marine Corps exchanges 
of approximately 11.3 percent since eliminating the 5 percent discount. 
Additionally, Food and Drug Administration approved Nicotine 
Replacement Therapy products were made available to assigned service 
members aboard all ships, in all base clinics and pharmacies, and 
Battalion Aid Stations at no cost to the member in September 2012 and 
to dependents via TRICARE in April 2013. Efforts are currently under 
consideration to ban the sale of tobacco products and e-cigarettes in 
retail outlets on Navy and Marine Corps installations and vessels. This 
provides a strong, clear, positive and healthy message to Sailors, 
Marines, retirees and beneficiaries, that tobacco is dangerous, harmful 
and costly to the individual, the command, the Military Health System 
and the DOD. Banning the sale of tobacco products will likely encourage 
some tobacco users to quit, while discouraging others from initiating 
tobacco use.
    Tobacco use undercuts military readiness and harms individual 
performance. In the military, tobacco use impacts the health and 
readiness of service members as evidenced by decreased night vision and 
lower visual acuity, reduced physical fitness, reduced lung function, 
increased injuries, hearing loss and delayed wound healing. Wounded 
warriors who smoke suffer from increased risk of surgical complications 
and delayed wound healing.
    The 2014 U.S. Surgeon General's Report, The Health Consequences of 
Smoking-50 Years of Progress, indicates that smoking and the use of 
other combusted tobacco products cause many illnesses and diseases 
including a myriad of malignancies such as lung, liver, bladder, kidney 
and colorectal cancer; respiratory diseases; cardiovascular diseases; 
eye diseases and autoimmune disorders such as rheumatoid arthritis. 
Smoking also impairs immune function, complicates reproduction, 
increases risk for diabetes, diminishes the general health of the user, 
and affects cancer treatment and death risk. An additional threat to 
smokers is a higher risk of stroke. Smokeless tobacco presents 
similarly high risks of oral, esophageal, stomach and pancreatic 
cancer, and causes periodontal disease and tooth loss. There is no safe 
level of use for cigarettes or smokeless tobacco; health effects are 
seen across the spectrum of use from occasional light smokers to heavy 
smokers.
    Smoking is also harmful to others. Secondhand smoke (SHS) causes 
numerous health problems to include cardiovascular disease, lung 
cancer, sudden infant death syndrome, breathing and lung issues, and 
even death. SHS is harmful to pregnant women and children, and just 
like smoking, there is no safe level of SHS exposure, as demonstrated 
by numerous studies and reports.
    Navy and Marine Corps Tobacco Policy, SECNAV Instruction 5100.13E, 
prohibits the use of tobacco products in all DoN facilities and 
controlled spaces The instruction offers guidance for effectively 
implementing a tobacco-free lifestyle among personnel. Presently, DoN 
has numerous evidence-based tobacco cessation programs in place and 
Navy Medicine assets are readily available to help those interested in 
quitting tobacco use whether they are ashore or afloat. Pharmacotherapy 
and counseling are accessible at Military Treatment Facilities and 
other locations.
    DoN's goal is to create a culture of health and wellness, while 
discouraging unhealthy habits such as overindulgence of alcohol and 
tobacco use. The uncertainty of possible impacts on Sailor and Marine 
morale, recruiting and retention in an all-volunteer force, potential 
divergent views on Capitol Hill, and negotiating this change with the 
364 civilian DoN work force unions present potential challenges for a 
smooth implementation of a tobacco-free lifestyle.
                                 ______
                                 
               Questions Submitted by Senator Tom Harkin
    Question. There has been some debate over whether the Armed 
Services should be purchasing and using alternative fuel sources to 
those derived from petroleum. On the one hand, doing so reduces our 
Nation's vulnerability to petroleum supply disruptions. On the other 
hand, alternatives such as biofuels are currently more expensive than 
petroleum-based fuels. My own view is that our military should be 
considering strategic issues as well as costs when planning for future 
operations and the materials and commodities those will require. By 
developing a domestic biofuels capability that can supply the fuels 
needed by our forces, we achieve critical strategic goals as well as 
realizing economic benefits.
    Do you agree that when it comes to fuel supplies our military needs 
to consider strategic issues as well as costs when developing plans and 
contingencies for future operations? Can you give specific examples in 
which our military has decided to forego the lowest cost alternative 
due to strategic considerations, and what benefits did our Nation 
realize as a consequence of such a decision?
    Answer. First, it must be mentioned that per fiscal year 2014 NDAA 
Sec. 315, DOD cannot purchase biofuels or drop-in fuels for operational 
use unless they are cost competitive with their conventional petroleum 
fuel counterparts. Therefore, the decision to purchase biofuels that 
are not cost competitive in price to their petroleum counterparts is 
unavailable to our operational commanders. Further, one of many 
initiatives the DOD is pursuing to ensure the availability of cost 
competitive biofuels is through the Defense Production Act (DPA). 
Beginning in 2016, the DPA companies will be producing biofuel at 
commercial scale. Based upon their commitments, the DPA companies stand 
to:
  --produce more than 100 million gallons per year of drop-in, military 
        compatible fuels;
  --at a weighted average price of less than $3.36 per gallon; and
  --with at least 50 percent lower lifecycle greenhouse gas (GHG) 
        emissions than that of conventional fuel.
    When it comes to operational purchases, fuel is actually the 
outlier when it comes to purchasing criteria based solely on cost. Many 
operational purchases are made with strategic rather than purely cost-
based considerations. A nuclear aircraft carrier has a total life-cycle 
cost nearly double that of a conventional aircraft carrier. However, 
the ability to sail anywhere, at any speed, without consideration for 
refueling, is deemed much more important than lifecycle cost. This is 
also true for submarines. A nuclear-powered fast-attack submarine costs 
10 times more than a diesel electric submarine. The ability to stay 
submerged and circle the globe many times without refueling is far more 
important to the Navy than platform cost. And the USS Makin Island 
(LHD-8) saved $15 million on fuel costs during its first deployment in 
2012. With a hybrid-electric propulsion system, the ship can embark, 
deploy, and land elements of a Marine landing force. This force 
projection is invaluable to the Marine Corps and its mission. These 
decisions have served the country's interest well, and are a crucial 
piece of ensuring U.S. maritime dominance.
    Question. During your answers to some of my colleagues' questions, 
you addressed the issue of rising personnel costs. I have long believed 
that the reserve components of our military represent one of the best 
returns on investment of our taxpayer dollars. The mandatory healthcare 
and retirement spending for reserve personnel are lower, installation 
spending like base housing and exchanges are greatly reduced for 
reserve personnel, and defense-wide spending such as Department of 
Defense Education Activities are non-existent.
    Given the potential savings not only on personnel accounts, but on 
other associated costs, has the Department of the Navy examined the 
current force mix between the active and reserve components of the 
Marine Corps and Navy? Are there potential changes that could be made 
to the force mix that would result in cost savings without incurring 
additional strategic risk?
    Answer. Active Component/Reserve Component (AC/RC) mix is reviewed 
annually in each President's budget submission to Congress. The final 
force mix is based on many different factors to include changing 
missions, strategy, capabilities, requirements, and resources. The 
Department of the Navy has examined the current force mix using a 
deliberative requirements-based process to provide the appropriate AC/
RC balance to maintain core capabilities across mission sets, to 
satisfy Combatant Commander operational and strategic requirements, and 
to mitigate risk.
    Cost is one of many factors used to determine the right AC/RC mix. 
The other factors that shape AC/RC force balance decisions include: 
sourcing for continuous operations (forward and homeland), surge, post-
surge demands; predictability and frequency; responsiveness of the 
force based on complexity of the task, urgency of the task, unit 
integration, mission, or role; and retention considerations.
    The programmed AC/RC mix represents the Department's best estimate 
required to meet current and future military challenges in support of 
the National Military Strategy, within available resources.
                                 ______
                                 
            Questions Submitted by Senator Mary L. Landrieu
    Question. In the 2010 Force Structure Review Group, the Marine 
Corps emphasized a need for regional, mobile and cost effective support 
for the various marine components. We are proud to host the MARFORRES 
and MARFORNORTH Headquarters in New Orleans, LA. We also have a Naval 
Air Station/Joint Reserve Base (NAS/JRB) in Belle Chasse, Louisiana--
not far from the new Marine HQ Building. Recently, the Navy stood down 
the VFW-77 squadron housed at NAS/JRB. This left a great hanger and 
adjacent squadron building that can host a number of entities.
    Based on the recommendation from the 2010 FSRG and as you look at 
future force structure and asset placement and manning, would you take 
a strong look at the Naval Air Station/Joint Reserve Base, New Orleans 
as a location for a V-22 Osprey Squadron and/or a drone squadron?
    Answer. Marine Forces Reserve has enjoyed a close relationship with 
the great State of Louisiana for many years. Together, this team has 
weathered many storms and the professional bonds have never been 
stronger. Although the 2010 FSRG did realign some assets, there were 
very limited moves within Marine Corps Aviation. Mentioning the 
availability of this hangar in Belle Chasse, Louisiana is appreciated. 
Currently, the Marine Corps Aviation Plan does not have a requirement 
to move an MV-22 squadron or an Unmanned Aerial System squadron to 
Belle Chasse, Louisiana. In this very dynamic environment, should 
additional adjustments be required, the Marine Corps will certainly 
consider all fiscally responsible options to include Belle Chasse.
    Question. I understand that VFA-204's jets are now essentially 
obsolete for almost all Navy strategic reserve missions; and even 
accounting for the ongoing high flight hour inspection, they will begin 
to run out of airframe life within a few years. In fact, there are so 
many jets constantly in maintenance that their current mission is 
getting harder and harder to achieve because pilots are grounded for so 
long and maintainers are overworked.
    What is the current plan of record to recapitalize VFA-204 with 
fleet representative Super Hornets or F-35's? Do you agree that their 
current mission is important enough to recapitalize?
    Answer. Due to fiscal constraints there is no near term plan to 
recapitalize VFA-204's legacy F/A-18 aircraft with F-35Cs or Fleet 
representative Hornets. VFA-204 continues to achieve mission success 
even while working through the maintenance challenges associated with 
operating aging USN Hornet aircraft. These challenges are similar to 
those faced by other active and reserve Navy squadrons that operate 
legacy F/A-18s, and Naval Aviation will address these challenges in 
both active and reserve squadrons with a holistic total force approach 
to ensure we succeed in all VFA squadron missions, to include the 
important missions executed by VFA-204.
    Question. Over the last few years the Navy has been working with 
Huntington Ingalls Industries to wind down the Navy shipbuilding taking 
place at its Avondale yard in Louisiana.
    Are there any closeout costs that have been agreed to and executed? 
And, if so, what are those costs?
    Answer. In July 2010, Huntington Ingalls Industries (HII)--then 
Northrop Grumman Shipbuilding--announced their plans to close the 
Avondale shipyard. USS SOMERSET (LPD 25) was the final ship constructed 
at the Avondale shipyard; and the ship departed the shipyard in 
February 2014. Approximately 45 percent of the units for LPD 27, which 
is being constructed at HII's Pascagoula shipyard, were/are being 
assembled at the Avondale shipyard; and the last of those units will be 
shipped to the Pascagoula shipyard by the end of fiscal year 2014.
    In March 2014, HII provided a revised restructuring proposal 
associated with the closure of the Avondale shipyard; and that proposal 
is currently under review by the Navy and being audited by Defense 
Contract Audit Agency. Once the audit is complete, the Navy will 
determine the allowability of proposed restructuring costs and 
negotiate those costs with HII. Ship construction contracts for LPD 26, 
LPD 27, LHA 7 and DDG 113 contain Not to Exceed (NTE) clauses which 
address restructuring costs associated with Avondale's closure. Once 
the restructuring costs have been negotiated, those contract clauses 
will be adjudicated.
    Question. I understand that the reduction of one ship (from 4 to 3) 
in the fiscal year 2015 budget was done for affordability issues. The 
LCS program is maturing and getting stability. The breaking of the 
block buy in fiscal year 2015 by moving the last ship in the buy will 
impact not only both shipbuilders but many suppliers as well as 
increase the cost of the last ship.
    Can you provide the rationale for breaking the last ship of the 
block buy and introducing a potential cost increase to all of the ships 
in the program?
    Answer. The fiscal year 2015 President's Budget includes funding 
for three LCSs. The reduction to the number of ships procured in fiscal 
year 2015 is the result of the tough choices required under reduced 
funding levels in fiscal year 2015 relative to the fiscal year 2014 
plan due to fiscal constraints under the Bipartisan Budget Act (BBA).
    Navy plans to procure the single LCS shifted to fiscal year 2016 
under the current block buy contract(s) by making an adjustment to one 
of the two contracts. It is expected that this slight adjustment to the 
procurement profile can be accomplished with minimal cost and schedule 
impact on the fiscal year 2016 ship. The decision of which shipbuilder 
will have one ship shift to fiscal year 2016 will be determined in 
consultation with industry, with consideration of cost, production 
schedule performance, shipyard resource loading, and vendor base 
considerations.
                                 ______
                                 
              Questions Submitted by Senator Thad Cochran
    Question. Secretary Mabus, for the record, for each ship in the 
classic amphibious ready group, would you share with the subcommittee 
the notional manning and the total value of equipment (aircraft, 
vehicles, repair parts, support equipment etc.), on board each 
amphibious warship?
    Answer. The classic amphibious ready group (ARG) is comprised of 
three ships: one amphibious assault ship (LHA or LHD), one amphibious 
transport dock (LPD), and one dock landing ship (LSD). Although the 
ships of each class are similar, there are specific differences between 
the manning levels and equipment onboard based on the core mission for 
that ship class.
    The notional manning for a classic ARG includes both the Navy 
personnel (ship's crew) as well as embarked Marines. An ARG will 
classically deploy with an embarked Marine Expeditionary Unit (MEU), 
but the exact equipment and personnel arrangements within the ships can 
differ significantly.
    The notional Navy manning, based on current onboard averages, for 
the ARG is as follows:
      LHA/D: 962
      LPD: 350
      LSD: 320
    The additional manning onboard the ships as part of a MEU includes 
approximately 2200 Sailors and Marines. These personnel can be berthed 
on different ARG ships per the MEU commander's guidance. Troop berthing 
capacities for each type of ship are:
      LHA/D: 1871
      LPD: 800
      LSD: 504
    The total value of Navy installed equipment (beyond the $8 billion 
required for the ships themselves), based on initial load-out of spares 
and support equipment, is as follows:
      LHA/D: $11 million of spares, $12 million of support equipment
      LPD: $7 million of spares, $7 million of support equipment
      LSD: $6 million of spares, $6 million of support equipment
    In addition to the ship's organic equipment, the MEU brings a 
mission-tailorable mix of aircraft, landing craft, tanks, assault 
craft, vehicles, artillery, ammunition, and support equipment. The 
average combined value of all of these items is approximately $7 
billion.
                                 ______
                                 
             Questions Submitted by Senator Lisa Murkowski
    Question. I'd like to understand how we are postured to resource 
our Nation's ever expanding role in the arctic region, particularly as 
we approach our Chairmanship of the Arctic Council. The 
Administration's Implementation Plan for the National Strategy for the 
Arctic Region names the Navy as lead agency for the forecasting and 
predicting of sea ice, as well as a supporting agency for a number of 
other areas. According to your recently released Navy Arctic Roadmap, 
you plan to concentrate on improving operational capabilities, 
expertise, and capacity, in the arctic region.
    How does your fiscal year 2015 budget request reflect your lead DOD 
role as well as your increased emphasis on the arctic?
    Answer. The Implementation Plan identifies DOD as the lead 
department for the forecasting and predicting of sea ice. Navy, through 
the Office of Naval Research (ONR), leads one of twelve collaboration 
groups in support of the Interagency Arctic Research Policy Committee 
(IARPC)'s Arctic Research Plan fiscal year 2013-2017. The fiscal year 
2015 budget includes funding for the ONR's Arctic environmental R&D 
program and for the Naval Research Laboratory's efforts in modeling and 
predicting Arctic sea ice movements for development of the Earth System 
Prediction Capability (ESPC)--intended to improve air-sea-wave-ice 
regional numerical forecasts. The budget also includes funding for 
operation of the Naval Ice Center, sustainment of T-AGS 60 Class survey 
ships which provide limited capability to support Arctic hydrographic/
charting requirements, and for UHF voice communications capabilities 
(up to 85 deg north).
                                 ______
                                 
             Questions Submitted by Senator Lindsey Graham
    Question. Mr. Secretary, could you provide for the Committee the 
basic outline of the current Navy aviation tire management contract, 
including the performance metrics of the program since the contract was 
first awarded in 2000. In the view of the Navy, has the existing 
aviation tire management contract provided the performance envisioned 
when the contract was first awarded and has it saved money for the 
taxpayer?
    Answer. The current Navy aviation tire Performance Based Logistics 
(PBL) contract has provided outstanding performance since the contract 
was awarded and has saved money for the taxpayer. The Navy's current 
PBL is a firm-fixed price (FFP) type of contract competitively awarded 
to a single contractor. Under the terms of the PBL, the contractor must 
estimate Navy tire requirements and meet actual demand within specific 
time requirements.
    Since contract performance began, tire availability to the Naval 
Aviation Fleet has increased leading to greater mission capability 
readiness. Logistics Response Time has been reduced from 60 days to 2-4 
days. Tire quality delivered has matched or exceeded Navy Quality 
Assurance standards and specifications.
    The Navy Tire PBL contract utilizes FFP pricing which has 
maintained stable prices (then-year prices adjusted for inflation) and 
Free On Board (FOB) Destination as the delivery term. The Navy contract 
prices are lower than the prices Navy would have paid under the DLA 
pricing structure as there is no Economic Price Adjustment added to 
FFP. FOB Destination means storage and transportation costs are borne 
by the contractor and not the Government resulting in significant 
savings. An additional cost saving is that there is no separate expense 
for a supply chain manager. Supply Chain Management is included in the 
contract Statement of Work and priced in the tires.
    Question. In the past, some in Congress suggested that the Navy 
aviation tire program should be folded into the Defense Logistics 
Agency (DLA) Tire Privatization Initiative (TPI) or the subsequent Tire 
Successor Initiative (TSI) program. When this was raised in 2009, the 
Navy indicated that doing so at that time would cost the Navy upwards 
of $40 million over a 5 year period. Does the Navy still believe that 
managing its aviation tire program is in the best interest of the 
warfighter and the American taxpayer?
    Answer. The Navy believes that managing its aviation tire program 
is in the best interest of the Navy and taxpayer. Cost, quality, and 
schedule performance on the current contract has been outstanding and 
would not have been better under the DLA TSI initiative. The Navy has 
been working collaboratively with DLA, which is preparing to compete 
their follow-on TSI contract at this time. The Navy has shared its 
contract structure, terms and conditions, and market research with DLA 
to better inform the acquisition strategy for the Navy and DOD. The 
Navy intends to issue its Request For Proposals (RFP), receive all 
proposals and data, and generate a Business Case Analysis to inform the 
decision as to whether pursuing a separate follow-on contract or adding 
Naval aviation tires to the DLA TSI portfolio offers greater 
affordability, availability, and reliability to the warfighter and 
taxpayer.
    Question. My understanding is that the Navy is preparing a Request 
for Proposal (RFP) for a new aviation tire program. Please provide for 
the Committee the status of that RFP and a rationale for why pursuing a 
Navy aviation tire specific RFP remains in the best interests of the 
Navy and the taxpayer?
    Answer. The Navy is conducting market research and drafting the 
acquisition strategy and RFP for review and approval. NAVSUP released a 
draft Statement of Work (SOW) and list of aviation tires that would 
constitute the scope of the contract on FedBizOpps on 13 November 2013. 
This release also announced an Industry Day that took place on 17 
December 2013 where a general overview of Performance Based Logistics 
(PBL) and specifically the Navy aviation tire PBL SOW were reviewed 
with industry. Time for general questions and comments was provided and 
one-on-one interchanges with attendees were also conducted. Results of 
the market research indicate a highly competitive environment.
    A Navy aviation tire specific RFP remains in the best interest of 
the Navy and taxpayer because performance has been outstanding on 
quality, tire availability, and delivery on the current contract due to 
the terms and conditions the Navy has incorporated. Cost savings as a 
result of the Navy unique contract pricing structure has been a great 
benefit to the Navy and taxpayer. The Navy anticipates continued 
savings in the new competition but will conduct a Business Case 
Analysis to inform the decision as to whether pursuing a separate 
follow-on contract or adding Naval aviation tires to the DLA TSI 
portfolio offers greater affordability, availability, and reliability 
to the warfighter and taxpayer.
                                 ______
                                 
            Questions Submitted to Admiral Jonathan Greenert
               Questions Submitted by Senator Tom Harkin
    Question. During your answers to some of my colleagues' questions, 
you addressed the issue of rising personnel costs. I have long believed 
that the reserve components of our military represent one of the best 
returns on investment of our taxpayer dollars. The mandatory healthcare 
and retirement spending for reserve personnel are lower, installation 
spending like base housing and exchanges are greatly reduced for 
reserve personnel, and defense-wide spending such as Department of 
Defense Education Activities are non-existent.
    Given the potential savings not only on personnel accounts, but on 
other associated costs, has the Navy examined the current force mix 
between the active and reserve components? Are there potential changes 
that could be made to the force mix that would result in cost savings 
without incurring additional strategic risk?
    Answer. Active Component/Reserve Component (AC/RC) mix is reviewed 
annually in each President's budget submission to Congress. The final 
force mix is based on many different factors to include changing 
missions, strategy, capabilities, requirements, and resources. Navy has 
examined the current force mix using a deliberative requirements-based 
process to provide the appropriate AC/RC balance to maintain core 
capabilities across mission sets, to satisfy Combatant Commander 
operational and strategic requirements, and to mitigate risk.
    Cost is one of many factors used to determine the right AC/RC mix. 
The other factors that shape AC/RC force balance decisions include: 
sourcing for continuous operations (forward and homeland), surge, post-
surge demands; predictability and frequency; responsiveness of the 
force based on complexity of the task, urgency of the task, unit 
integration, mission, or role; and retention considerations.
    The programmed AC/RC mix represents the Department's best estimate 
required to meet current and future military challenges in support of 
the National Military Strategy, within available resources.
                                 ______
                                 
              Questions Submitted by Senator Patty Murray
    Question. Admiral Greenert, as you know, the P-8A Poseidon is the 
future of the Navy's anti-submarine warfare and long-range maritime 
patrol capability. Deployed for operational duties for the first time 
last year, it is already demonstrating the Navy's vision for increased 
range, speed, and power that contribute to greater maritime domain 
awareness. As the Department of Defense continues to focus on the 
Pacific region, the P-8A is particularly well-suited for meeting this 
national strategic effort.
    Moreover, the Navy has delivered the P-8A on-schedule and ahead-of-
cost. There are very few Department of Defense programs that can claim 
such an accomplishment and you have stated that the P-8A program is a 
model acquisition program.
    Yet, the fiscal year 2015 budget request makes a significant cut to 
the P-8A procurement and even suggests reducing the requirement from 
117 aircraft to 109 aircraft in the entire inventory. Just last year 
you testified that the inventory was 117 aircraft to meet a warfighting 
requirement.
    I am concerned that one of the Navy's best performing acquisition 
programs faces a reduction in the Program of Record.
    Can you please respond to how the Navy's warfighting requirement 
for 117 P-8A aircraft has changed?
    Answer. The Navy was compelled by fiscal constraints to lower the 
final P-8A inventory objective from 117 to 109 aircraft. The 
warfighting requirement remains 117, but the Navy can only afford 109.
    Question. Will the change in the Program of Record alter the 
transition from P-3C aircraft?
    Answer. The change in the Program of Record does not alter the P-
3C-to-P-8A transition.
    Question. And how will the Navy work to ensure that reductions in 
the P-8A procurement are not repeated in a difficult fiscal 
environment?
    Answer. Even in a difficult fiscal environment, the Navy will 
continue to procure P-8A. The Navy will evaluate P-8A procurement rates 
as part of the systematic budget process to ensure the service meets 
the administration's Defense Strategic Guidance.
                                 ______
                                 
            Questions Submitted by Senator Mary L. Landrieu
    Question. I understand that VFA-204's jets are now essentially 
obsolete for almost all Navy strategic reserve missions; and even 
accounting for the ongoing high flight hour inspection, they will begin 
to run out of airframe life within a few years. In fact, there are so 
many jets constantly in maintenance that their current mission is 
getting harder and harder to achieve because pilots are grounded for so 
long and maintainers are overworked.
    What is the current plan of record to recapitalize VFA-204 with 
fleet representative Super Hornets or F-35s? Do you agree that their 
current mission is important enough to recapitalize?
    Answer. Due to fiscal constraints there is no near term plan to 
recapitalize VFA-204's legacy F/A-18 aircraft with F-35Cs or Fleet 
representative Hornets. VFA-204 continues to achieve mission success 
even while working through the maintenance challenges associated with 
operating aging USN Hornet aircraft. These challenges are similar to 
those faced by other active and reserve Navy squadrons that operate 
legacy F/A-18s, and Naval Aviation will address these challenges in 
both active and reserve squadrons with a holistic total force approach 
to ensure we succeed in all VFA squadron missions, to include the 
important missions executed by VFA-204.
                                 ______
                                 
              Questions Submitted by Senator Thad Cochran
    Question. Admiral Greenert, the Navy has made significant progress 
in development of the Electromagnetic Railgun. Could you describe the 
potential advantages of this technology and describe efforts to 
demonstrate the capability at-sea? Are there cost benefits to employing 
this technology?
    Answer. Railgun technology has a number of potential advantages 
both tactically and from a cost benefit perspective. Studies indicate 
high-energy Railguns will be lethal and effective against multiple 
threats, including enemy surface targets, aircraft, select missile 
threats and land-based targets. Railgun's Hyper Velocity Projectile 
(HVP) is launched by an electromagnetic pulse. The projectile hits with 
such speed and kinetic energy that high-explosive warheads are not 
required. By eliminating gun powder, rocket motors and high explosive 
warheads from our magazines, Railgun-capable ships will be inherently 
safer. The Railgun's HVP is compact permitting many rounds to be stored 
in the ship's magazine. Deep magazines increase power projection as 
well as defensive capabilities in the most challenging enemy raid 
scenarios. Railgun's long range and accuracy will make it ideal for 
precision strike when collateral damage must be kept to a minimum. The 
Railgun will not replace all legacy guns and missiles, but it will 
provide the fleet with a complementary weapon that extends our defense-
in-depth capacity and adds offensive flexibility against surface and 
land targets.
    Studies indicate Railgun is also cost effective. Compared to 
missiles, HVPs will be extremely affordable due to low cost per shot, 
and low cost per engagement even if multiple shots are required. 
Railgun will shift the cost curve dramatically in favor of the U.S. 
against missile threats. Our cost to defend using Railgun will be a 
small fraction of the cost of the attacking missiles and allow vessels 
to conserve their defensive missiles. The Railgun's HVP can also be 
configured to fire from conventional powder guns currently in the 
fleet. This will provide extended range and the ability to engage 
cruise missiles with existing gunpowder guns while maintaining more 
expensive missiles for use against only the most demanding threats.
    As part of the test program, the Navy intends to install an early 
prototype of an electromagnetic Railgun aboard a Joint High Speed 
Vessel in fiscal year 2016. This demonstration is the latest in a 
series of technical maturation efforts designed to provide an 
operational Railgun to the fleet. The fiscal year 2016 at-sea test will 
utilize a manually loaded Railgun system capable of firing guided 
projectiles to a designated target. In 2018, the Navy plans at-sea 
tests of a more mature Railgun prototype capable of firing multiple 
rounds per minute to an operational range of 110 nautical miles.
                                 ______
                                 
             Questions Submitted by Senator Lisa Murkowski
    Question. I would contend that the United States has lagged behind 
other nations in resourcing arctic requirements. I've heard over and 
over again that we lack sufficient domain awareness, arctic 
infrastructure, and ice capable vessels. It seems as if we've sat on 
the sidelines and watched other nations, like Russia, amass a much 
larger and more capable arctic fleet, tipping the scales of the desired 
status quo of mutual support and peaceful engagement in the region. 
Thankfully, it sounds like you have reenergized the Office of the Naval 
Oceanographer to focus on improving our posture in the arctic.
    What do you feel are the most critical near-term requirements in 
the arctic region and how do you intend to ensure that we aren't late-
to-need in resourcing them?
    Answer. We have identified three critical requirements for the 
near-term (present to 2020):
  1)  Enhanced understanding of the Arctic environment and its impact 
        on operations through focused R&D
  2)  Expanded training and exercises to develop operational experience 
        and capabilities
  3)  Continued focus on building partnerships with other Arctic 
        nations
    The Navy is capable of meeting current requirements in the Arctic, 
primarily through our submarine and air assets. As the Arctic becomes 
more accessible, it is likely that we will need the ability to provide 
a sustained surface presence. The 2014 Arctic Roadmap provides an 
implementation plan that will guide our investments and preparations 
through 2030. It emphasized cost effective, long lead-time activities 
to match capability and capacity to future demands.
                                 ______
                                 
              Questions Submitted to General James F. Amos
               Questions Submitted by Senator Tom Harkin
    Question. During your answers to some of my colleagues' questions, 
you addressed the issue of rising personnel costs. I have long believed 
that the reserve components of our military represent one of the best 
returns on investment of our taxpayer dollars. The mandatory healthcare 
and retirement spending for reserve personnel are lower, installation 
spending like base housing and exchanges are greatly reduced for 
reserve personnel, and defense-wide spending such as Department of 
Defense Education Activities are non-existent.
    Given the potential savings not only on personnel accounts, but on 
other associated costs, has the Marine Corps examined the current force 
mix between the active and reserve components? Are there potential 
changes that could be made to the force mix that would result in cost 
savings without incurring additional strategic risk?
    Answer. The United States Marine Corps has examined the current 
force mix between the active and reserve components. The units in the 
U.S. Marine Corps Forces Reserve are manned, trained, and equipped to 
mirror the Active Component Marine Expeditionary Forces (MEF's) and 
provide individuals or units to augment and reinforce the MEF's. This 
force design was purposefully created to maximize effectiveness and 
efficiency resulting in cost savings without incurring additional 
strategic risk.
    The Active Component 175K force was built to deploy active units at 
1:2 deployment-to-dwell, and use the Reserve Component to augment and 
reinforce the Active Component at 1:4 deployment-to-dwell if needed for 
steady state or emerging requirements. Reserve Component capacity is 
required to meet steady state demand. For example, one reserve infantry 
battalion is required to periodically mobilize and deploy, since 22 
infantry battalions are required for steady state operations and there 
are only 21 infantry battalions in the Active Component 175K force. 
However, in fulfilling its predominant role as America's Expeditionary 
Force in Readiness, the Marine Corps must rely principally on Active 
Component forces, to respond to crisis around the world.
    On balance, mandatory healthcare and retirement spending for 
reserve personnel are lower, installation spending like base housing 
and exchanges are greatly reduced for reserve personnel, and defense-
wide spending such as Department of Defense Education Activities are 
non-existent for the Reserve Component. However, when mobilized, 
Reservists are more expensive than Active Component counterparts. The 
primary reason the Reserves are more expensive is the increase in cost 
and the fact that all Reserve Component personnel rate housing and 
partial per diem since no Reserve Marine, regardless of rank, lives in 
barracks while not mobilized. In addition, most Reserve Component units 
are stationed in high-population areas, which translate to higher BAH 
rates when deployed.
    In summary, the units in the U.S. Marine Corps Forces Reserve 
mirror the active component forces to augment and reinforce steady 
state and contingency requirements.
                                 ______
                                 
              Questions Submitted by Senator Patty Murray
    Question. Background: General Amos, I appreciate the emphasis you 
have placed on combatting sexual assault within the Marine Corps. I am 
particularly encouraged by the Marine Corps' creation of the Victims 
Legal Counsel Organization (VCLO). This organization demonstrates the 
Marine Corps' commitment to fully implementing the NDAA provision I 
fought for requiring that victims of sexual assault be provided with 
dedicated, specially trained legal counsel to advise and assist them as 
they pursue justice and to protect them from potential retaliation.
    I believe that this program is essential to restoring trust between 
victims of sexual assault and the Marine Corps, and that for the 
program to be effective it must be resourced appropriately. I was 
encouraged to learn earlier this year that you had established a cadre 
of 15 Victims' Legal Counsels and that they had already assisted 114 
sexual assault victims.
    As you noted in your testimony, sexual assault reporting continues 
to increase as victims become more confident that the will be treated 
with dignity and respect and that the system is capable of delivering 
justice. While I agree that increased reporting could be a sign of 
progress, I am concerned that this will increase demand for Victims' 
Legal Counsels (VLC) beyond what your current program can sustain.
    Does this budget provide the resources you need to ensure that 
there are enough Victims' Legal Counsels to guarantee that every victim 
of sexual assault is afforded the advice, assistance, and protection 
they deserve?
    Answer. The VLCO was established in January 2014, and the fiscal 
year 2015 budget request supports anticipated Marine Corps 
requirements. The Marine Corps is fully committed to provide legal 
advice and detailed representation to victims of sexual assault and 
other crimes and to protect victims' rights at all stages of the 
military justice process. Additionally, we are committed to ensure all 
victims of sexual assault shall be informed and given the opportunity 
to consult with a VLC as soon as the victim receives assistance from a 
Sexual Assault Response Coordinator (SARC), Sexual Assault Prevention 
and Response (SAPR) Program, or Family Advocacy Program (FAP) Victim 
Advocate, military criminal investigator, victim-witness liaison or 
coordinator or trial counsel.
                                 ______
                                 
              Questions Submitted by Senator Thad Cochran
    Question. General Amos, it appears that the Future Years Defense 
Program accompanying this budget proposal does not support the 
Combatant Commanders' requests for amphibious ships. Would you consider 
a 12th LPD amphibious ship an unfunded requirement to address Combatant 
Commanders' requests and lift shortfalls?
    Answer. The Navy will deliver the 11th LPD 17 during fiscal year 
2017, which fulfills the agreed to inventory. However, this inventory 
provides the minimum capacity for steady state Amphibious Ready Group/
Marine Expeditionary Unit (ARG/MEU) deployments and single-ship 
deployments for theater security cooperation activities. This inventory 
does not provide the capacity to support additional independent 
amphibious warship demands, such as maritime security operations.
    A 12th LPD 17 class ship would provide much needed additional 
flexibility and would greatly enhance the Navy and Marine Corps ability 
to accomplish forward presence and crisis response missions. However, 
it is imperative that the acquisition of a 12th LPD 17not impede or 
delay the LX(R) program acquisition, which is essential to meeting the 
mid-term and long-term amphibious warship requirements of the 
Department.
    The Department of the Navy's investment in amphibious warships 
represents critical investments that enable Marine Corps forces to 
execute their assigned forward presence and crisis response missions. 
The Chief of Naval Operations (CNO) and Commandant of the Marine Corps 
(CMC) have determined that the force structure required to support a 
2.0 Marine Expeditionary Brigade (MEB) Assault Echelon (AE) is 38 
amphibious warfare ships, as communicated to the House and Senate 
Appropriations and Armed Services committees in a joint Secretary of 
the Navy/CNO/CMC letter dated 7 Jan 2009. Given fiscal constraints, the 
Department of the Navy (DoN) determined a minimum inventory of 33 total 
amphibious warfare ships (11 LHD/LHA(R), 11 LPD 17, and 11 LSD 41/49s) 
represent the limit of acceptable risk in meeting the 38-ship 
requirement for the AE in a two MEB forcible entry operation. As the 
Long Range Plan for Construction of Naval Vessels for 2015 does not 
meet the 11/11/11 amphibious warship inventory as mentioned above until 
fiscal year 2025, a 12th LPD 17 would assist in supporting the 
Geographic Combatant Commanders' requests until the LX(R) program is 
completed.
                                 ______
                                 
             Questions Submitted by Senator Lisa Murkowski
    Question. As you know, I am very proud of the training Army Alaska 
conducts at the Northern Warfare Training Center, based at Fort 
Wainwright with training conducted at the Black Rapids Training Site 
approximately 30 miles south of Delta Junction. This is the premier 
extreme cold weather training site for the entire Department of 
Defense. I know we've talked about this before, but do you still see 
training value for the Marine Corps at the Northern Warfare Training 
Center? Now that that our involvement in Afghanistan is drawing down 
and the services are focused on rebuilding readiness, isn't this the 
perfect time for Marines to take advantage of this elite extreme cold 
training facility?
    Answer. The Marine Corps Mountain Warfare Training Center (MCMWTC) 
is dedicated to the integration of warfighting elements at medium to 
high altitudes (range from 6,800' to 11,200' in elevation) in complex, 
compartmentalized, and mountainous terrain in all weather conditions 
utilizing military mountaineering skills in order to enhance a unit's 
ability to shoot, move, communicate, sustain, and survive in 
mountainous regions of the world. The Marine Corps utilizes the MCMWTC 
because it can house up to 1,100 personnel, and can train an infantry 
battalion with Air and Logistics support for each month-long Mountain 
Training Exercise. The Northern Warfare Training Center (NWTC) can only 
house up to 140 troops and cannot train forces larger than the size of 
a platoon.
    In fiscal year 2013, the MCMWTC trained 1,126 U.S. Army soldiers 
and 6,068 U.S. Marines, and the NWTC in Alaska trains approximately 
1,300 soldiers annually. In addition, the NWTC curriculum does not 
include Programs of Instruction for the Marine Corps Cold Weather 
Infantry Kit, track plan, arctic sentry, defensive positions, long 
range movements, camouflage/concealment, causality evacuation, 
patrolling, offensive operations, defensive operations, or ambushes. 
MCMWTC is the only command in the DOD that teaches Animal Packing, 
Special Operations Horsemanship, and Military Skiing Programs of 
Instruction.
                                 ______
                                 
            Questions Submitted to Vice Admiral Robin Braun
            Questions Submitted by Senator Mary L. Landrieu
    Question. In the 2010 Force Structure Review Group, the Marine 
Corps emphasized a need for regional, mobile and cost effective support 
for the various marine components. We are proud to host the MARFORRES 
and MARFORNORTH Headquarters in New Orleans, LA. We also have a Naval 
Air Station/Joint Reserve Base (NAS/JRB) in Belle Chasse, Louisiana--
not far from the new Marine HQ Building. Recently, the Navy stood down 
the VFW-77 squadron housed at NAS/JRB. This left a great hanger and 
adjacent squadron building that can host a number of entities.
    Based on the recommendation from the 2010 FSRG and as you look at 
future force structure and asset placement and manning, would you take 
a strong look at the Naval Air Station/Joint Reserve Base, New Orleans 
as a location for a V-22 Osprey Squadron and/or a drone squadron?
    Answer. Marine Forces Reserve has enjoyed a close relationship with 
the great State of Louisiana for many years. Together, this team has 
weathered many storms and the professional bonds have never been 
stronger. Although the 2010 FSRG did realign some assets, there were 
very limited moves within Marine Corps Aviation. Mentioning the 
availability of this hangar in Belle Chasse, Louisiana is appreciated. 
Currently, the Marine Corps Aviation Plan does not have a requirement 
to move an MV-22 squadron or an Unmanned Aerial System squadron to 
Belle Chasse, Louisiana. In this very dynamic environment, should 
additional adjustments be required, the Marine Corps will certainly 
consider all fiscally responsible options to include Belle Chasse.
                                 ______
                                 
              Questions Submitted by Senator Thad Cochran
    Question. Vice Admiral Braun, I am informed that the Active Duty 
Navy relies on the Navy Reserve for all intra-theater cargo and 
passenger transport. I understand the Navy Reserve uses the C-40A 
aircraft to fulfill the requirement and that you are short aircraft 
inventory. How many aircraft are you short?
    Answer. The Navy requires two additional C-40A cargo and passenger 
aircraft beyond current orders to reach the 17 needed to meet Fleet 
transport requirements. We currently operate 12 C-40A cargo and 
passenger aircraft and another three C-40As are on contract, with 
deliveries scheduled for December 2014, May 2015, and November 2016. 
These three deliveries will bring our C-40A fleet inventory to 15 
aircraft.
    Question. Why doesn't the Navy budget for these aircraft or use the 
National Guard and Reserve Equipment Account, which Congress provides, 
to buy these necessary aircraft?
    Answer. Of the 15 Navy Reserve C-40A aircraft in inventory or on 
contract, six have been procured under Presidential budget authority 
and four have been procured by Congressional additions to 
appropriations. The remaining five have been procured by National Guard 
and Reserve Equipment Appropriations (NGREA) funding: aircraft #1 and 
#2 (fiscal year 1997), #3 (fiscal year 1998), #4 (fiscal year 1999), 
and #14 (fiscal year 2012).
    Fiscal constraints have forced the Department of the Navy to make 
difficult decisions including leaving the C-40A below the cut-line in 
recent budget submissions. The Secretary of Defense, Secretary of the 
Navy, and the Chief of Naval Operations recognize there is a 
requirement for 17 C-40A aircraft to meet Fleet operational tasking. 
Two additional C-40As were placed on the CNO's Unfunded Requirements 
List and within the ``Opportunity, Growth, and Security Initiative'' 
(OGSI) facet of the President's Budget for fiscal year 2015. 
Procurement of C-40A aircraft has also been the #1 priority on Navy 
Reserve's National Guard and Reserve Equipment Report (NGRER) for the 
past 5 years.
    In years that the Navy's NGREA funding is less than the cost of a 
single C-40A (currently $72.5 million) it is not an option to procure 
these cargo and passenger transport aircraft. In years that the NGREA 
funding is sufficient, procuring a C-40A is carefully considered when 
prioritizing Navy Reserve's purchase plan. Guidance provided by both 
Appropriations Committees' staffs is always a primary consideration 
when developing our NGREA buy list.
                                 ______
                                 
       Questions Submitted to Lieutenant General Richard P. Mills
            Questions Submitted by Senator Mary L. Landrieu
    Question. In the 2010 Force Structure Review Group, the Marine 
Corps emphasized a need for regional, mobile and cost effective support 
for the various marine components. We are proud to host the MARFORRES 
and MARFORNORTH Headquarters in New Orleans, LA. We also have a Naval 
Air Station/Joint Reserve Base (NAS/JRB) in Belle Chasse, Louisiana--
not far from the new Marine HQ Building. Recently, the Navy stood down 
the VFW-77 squadron housed at NAS/JRB. This left a great hanger and 
adjacent squadron building that can host a number of entities.
    Based on the recommendation from the 2010 FSRG and as you look at 
future force structure and asset placement and manning, would you take 
a strong look at the Naval Air Station/Joint Reserve Base, New Orleans 
as a location for a V-22 Osprey Squadron and/or a drone squadron?
    Answer. Marine Forces Reserve has enjoyed a close relationship with 
the great State of Louisiana for many years. Together, this team has 
weathered many storms and the professional bonds have never been 
stronger. Although the 2010 Force Structure Review Group (FSRG) did 
realign some assets, there were very limited moves within Marine Corps 
Aviation. Mentioning the availability of this hangar in Belle Chasse, 
Louisiana is appreciated. Currently, the Marine Corps Aviation Plan 
does not have a requirement to move an MV-22 squadron or an Unmanned 
Aerial System squadron to Belle Chasse, Louisiana. In this very dynamic 
environment, should additional adjustments be required, the Marine 
Corps will certainly consider all fiscally responsible options to 
include Belle Chasse.

                          SUBCOMMITTEE RECESS

    Senator Durbin. Thank you, again, for your service.
    [Whereupon, at 11:15 a.m., Wednesday, March 26, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]
</pre></body></html>
